Department of Homeland Security
   Ofﬁce of Inspector General
         Information Technology Management
              Letter for the FY 2008 DHS
               Financial Statement Audit

                                           (Redacted)




 Notice: The Department of Homeland Security, Office of Inspector General has redacted the report for public
 release. A review under the Federal of Information Act will be conducted upon request.




OIG-09-50                                                                                         April 2009
                                                                        Office of Inspector General

                                                                        U.S. Department of
                                                                        Homeland Security
                                                                        Washington, DC 20528




                                      April 6, 2009


                                      Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment to
the Inspector General Act of 1978. This is one of a series of audit, inspection, and special
reports prepared as part of our oversight responsibilities to promote economy, efficiency, and
effectiveness within the department.

This report presents the information (IT) management letter for the FY 2008 DHS financial
statement audit as of September 30, 2008. It contains observations and recommendations
related to information technology internal control that were not required to be reported in the
financial statement audit report (OIG-09-09, November 2008) and represents the separate
restricted distribution report mentioned in that report. The independent accounting firm
KPMG LLP (KPMG) performed the audit of the DHS FY 2008 financial statements and
prepared this IT management letter. KPMG is responsible for the attached IT management
letter dated December 5, 2008, and the conclusions expressed in it. We do not express
opinions on DHS’ financial statements or internal control or make conclusions on
compliance with laws and regulations.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We trust
this report will result in more effective, efficient, and economical operations. We express our
appreciation to all of those who contributed to the preparation of this report.




                                      Richard L. Skinner
                                      Inspector General
                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036



December 5, 2008

Inspector General
U.S. Department of Homeland Security

Chief Information Officer
U.S. Department of Homeland Security

Chief Financial Officer
U.S. Department of Homeland Security

Ladies and Gentlemen:

We were engaged to audit the accompanying consolidated balance sheet of the U.S. Department of
Homeland Security (DHS) as of September 30, 2008, and the related statement of custodial activity for
the year then ended (referred to herein as “financial statements”). We were not engaged to audit the
statements of net cost, changes in net position, and budgetary resources for the year ending September 30,
2008 (referred to herein as “other financial statements”). Because of matters discussed in our Independent
Auditors’ Report, dated November 14, 2008, the scope of our work was not sufficient to enable us to
express, and we did not express, an opinion on the financial statements.

In connection with our fiscal year (FY) 2008 engagement, we considered DHS’ internal control over
financial reporting by obtaining an understanding of DHS’ internal control, determining whether internal
controls had been placed in operation, assessing control risk, and performing tests of controls in order to
determine our procedures. We limited our internal control testing to those controls necessary to achieve
the objectives described in Government Auditing Standards and Office of Management and Budget
(OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements. We did not test all
internal controls relevant to operating objectives as broadly defined by the Federal Managers’ Financial
Integrity Act of 1982 (FMFIA). The objective of our engagement was not to provide an opinion on the
effectiveness of DHS’ internal control over financial reporting. Accordingly, we do not express an
opinion on the effectiveness of DHS’ internal control over financial reporting. Further, other matters
involving internal control over financial reporting may have been identified and reported had we been
able to perform all procedures necessary to express an opinion on the DHS balance sheet as of
September 30, 2008, and the related statement of custodial activity for the year then ended, and had we
been engaged to audit the other FY 2008 financial statements.

A control deficiency exists when the design or operation of a control does not allow management or
employees, in the normal course of performing their assigned functions, to prevent or detect
misstatements on a timely basis. A significant deficiency is a control deficiency, or combination of
control deficiencies, that adversely affects DHS’ ability to initiate, authorize, record, process, or report
financial data reliably in accordance with U.S. generally accepted accounting principles such that there is
more than a remote likelihood that a misstatement of DHS’ financial statements that is more than
inconsequential will not be prevented or detected by DHS’ internal control over financial reporting. A
material weakness is a significant deficiency, or combination of significant deficiencies, that results in
more than a remote likelihood that a material misstatement of the financial statements will not be
prevented or detected by the entity’s internal control.




                                    KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                    member firm of KPMG International, a Swiss cooperative.
During our audit, we noted certain matters involving internal control and other operational matters with
respect to financial systems Information Technology (IT) general and application controls. Collectively,
we consider these IT control weaknesses to collectively contribute to a material weakness regarding IT
for the FY 2008 audit of the DHS consolidated financial statements.

The material weakness described above is presented in our Independent Auditors’ Report, dated
November 14, 2008. This letter represents the separate restricted distribution report mentioned in that
report.

The material weakness and other comments described herein have been discussed with the appropriate
members of management, or communicated through a Notice of Finding and Recommendation (NFR),
and is intended For Official Use Only. We aim to use our knowledge of DHS’ organization gained
during our audit engagement to make comments and suggestions that we hope will be useful to you. We
have not considered internal control since the date of our Independent Auditors’ Report.

The Table of Contents on the next page identifies each section of the letter. In addition, we have
provided: a description of key DHS financial systems and information technology infrastructure within
the scope of the FY 2008 DHS financial statement audit in Appendix A; a description of each internal
control finding in Appendix B; and the current status of the prior year NFRs in Appendix C. Our
comments related to financial management and reporting internal controls have been presented in a
separate letter to the Office of Inspector General and the DHS Chief Financial Officer dated December 5,
2008.

This report is intended solely for the information and use of DHS management, DHS Office of Inspector
General, OMB, U.S. Government Accountability Office, and the U.S. Congress, and is not intended to be
and should not be used by anyone other than these specified parties.


Very truly yours,
                             Department of Homeland Security
                         Information Technology Management Letter
                                    September 30, 2008


                  INFORMATION TECHNOLOGY MANAGEMENT LETTER

                                     TABLE OF CONTENTS
                                                                                            Page

Objective, Scope and Approach                                                                1

Summary of Findings and Recommendations                                                      2

IT General Control Findings by Audit Area                                                    3

       Access Controls                                                                       3

       Application Software Development and Change Controls                                  4

       Service Continuity                                                                    5

       Entity-Wide Security Program Planning and Management                                  5

       System Software                                                                       6

       Segregation of Duties                                                                 6

Application Control Findings                                                                 12

Management Comments and OIG Response                                                         12

                                          APPENDICES

    Appendix                                       Subject                                  Page


                    Description of Key Financial Systems and IT Infrastructure within the
        A                                                                                    13
                    Scope of the FY 2008 DHS Financial Statement Audit Engagement



        B           FY 2008 Notices of IT Findings and Recommendations                       20



                    Status of Prior Year Notices of Findings and Recommendations and
        C                                                                                    89
                    Comparison to Current Year Notices of Findings and Recommendations



        D           Management Comments                                                     131
                                 Department of Homeland Security
                             Information Technology Management Letter
                                        September 30, 2008

                             OBJECTIVE, SCOPE AND APPROACH

We were engaged to perform an audit of Department of Homeland Security (DHS) Information
Technology (IT) general controls in support of the fiscal year (FY) 2008 DHS balance sheet and
statement of custodial activity audit engagement. The overall objective of our engagement was to
evaluate the effectiveness of IT general controls of DHS’ financial processing environment and related IT
infrastructure as necessary to support the engagement. The Federal Information System Controls Audit
Manual (FISCAM), issued by the Government Accountability Office (GAO), formed the basis of our
audit. The scope of the IT general controls assessment is described in Appendix A.

FISCAM was designed to inform financial auditors about IT controls and related audit concerns to assist
them in planning their audit work and to integrate the work of auditors with other aspects of the financial
audit. FISCAM also provides guidance to IT auditors when considering the scope and extent of review
that generally should be performed when evaluating general controls and the IT environment of a federal
agency. FISCAM defines the following six control functions to be essential to the effective operation of
the general IT controls environment.

x   Entity-wide security program planning and management (EWS) – Controls that provide a framework
    and continuing cycle of activity for managing risk, developing security policies, assigning
    responsibilities, and monitoring the adequacy of computer-related security controls.
x   Access control (AC) – Controls that limit and/or monitor access to computer resources (data,
    programs, equipment, and facilities) to protect against unauthorized modification, loss, and disclosure.
x   Application software development and change control (ASDCC) – Controls that help to prevent the
    implementation of unauthorized programs or modifications to existing programs.
x   System software controls (SS) – Controls that limit and monitor access to powerful program that
    operate computer hardware and secure applications supported by the system.
x   Segregation of duties (SD) – Controls that constitute policies, procedures, and an organizational
    structure to prevent one individual from controlling key aspects of computer-related operations, thus
    deterring unauthorized actions or access to assets or records.
x   Service continuity (SC) – Controls that involve procedures for continuing critical operations without
    interruption, or with prompt resumption, when unexpected events occur.

To complement our general IT controls audit, we also performed technical security testing for key
network and system devices, as well as testing over key financial application controls. The technical
security testing was performed both over the Internet and from within select DHS facilities, and focused
on test, development, and production devices that directly support DHS’ financial processing and key
general support systems.

In addition to testing DHS’ general control environment, we performed application control tests on a
limited number of DHS’ financial systems and applications. The application control testing was
performed to assess the controls that support the financial systems’ internal controls over the input,
processing, and output of financial data and transactions.

x   Application Controls (APC) - Application controls are the structure, policies, and procedures that
    apply to separate, individual application systems, such as accounts payable, inventory, payroll, grants,
    or loans.


                                                     1
    Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                 Department of Homeland Security
                             Information Technology Management Letter
                                        September 30, 2008

                  SUMMARY OF FINDINGS AND RECOMMENDATIONS

During FY 2008, DHS components took significant steps to improve their financial system security and
address prior year IT control weaknesses, which resulted in the closure of more than 40% of our prior
year IT control findings. Additionally, some DHS components reduced the severity of the weaknesses
when compared to findings reporting in the prior year. However, during FY 2008, we continued to
identify IT general control weaknesses. The most significant weaknesses from a financial statement audit
perspective include: 1) excessive unauthorized access to key DHS financial applications; 2) application
change control processes that are inappropriate, not fully defined, followed, or effective; 3) service
continuity issues impacting DHS’ ability to ensure that DHS financial data is available when needed.
Collectively, the IT control weaknesses limited DHS’ ability to ensure that critical financial and
operational data were maintained in such a manner to ensure confidentiality, integrity, and availability. In
addition, these weaknesses negatively impacted the internal controls over DHS’ financial reporting and its
operation and we consider them to collectively represent a material weakness for DHS under standards
established by the American Institute of Certified Public Accountants (AICPA). The information
technology findings were combined into one material weakness regarding Information Technology for the
FY 2008 audit of the DHS consolidated financial statements.

The FISCAM IT general control areas that continue to present a risk to financial systems data integrity
include:

1. Excessive access to key DHS financial applications, including; weaknesses in access documentation
   and approval, disabling account access upon termination, instances of inadequate or weak passwords,
   workstations, servers, or network devices were configured without necessary inactivity time-outs and
   up-to-date anti-virus software.

2. Application change control processes that are inappropriate, not fully defined, followed, or effective,
   including instances where database scripts are not properly documented or monitored; instances
   where changes made to the system were not always properly approved, tested, documented or
   performed through System Change Requests (SCRs), instances where policies and procedures
   regarding change controls were not in place to prevent users from having concurrent access to the
   development, test, and production environments of the system, or for restricting access to application
   system software and system support files, and policies and procedures surrounding the system
   development life cycle (SDLC) process have not been documented or finalized.

3. Service continuity issues impacting DHS’ ability to ensure that DHS financial data is available when
   needed, including; instances where the Continuity of Operations Plan (COOP) does not include an
   accurate listing of critical information technology systems, did not have critical data files and an
   alternate processing facility documented, and was not adequately tested, and various weaknesses
   identified in alternate processing sites.

While the recommendations made by KPMG should be considered by DHS, it is the ultimate
responsibility of DHS management to determine the most appropriate method(s) for addressing the
weaknesses identified based on their system capabilities and available resources.

The individual weaknesses and findings that compose this deficiency are detailed in the following section.


                                                     2
   Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                Department of Homeland Security
                            Information Technology Management Letter
                                       September 30, 2008


                  IT GENERAL CONTROL FINDINGS BY AUDIT AREA

Conditions: In FY 2008, the following IT and financial system control weaknesses were identified at
DHS. Many of the issues identified during our FY 2008 engagement were also identified during FY
2007. The following IT and financial system control weaknesses result in IT being reported as
contributing to a material weakness for financial system security.


1. Access controls – we noted:
   x   One component does not maintain a centralized listing of contract personnel, including
       employment status. Additionally, non-disclosure agreements are not consistently signed by
       contractors.
   x   Physical access authorization forms are not documented or maintained at one component.
       Additionally, procedures for granting access to the computer room are not documented. At
       another component, physical access authorizations are not consistently reviewed which resulted
       in excessive access to DHS servers.
   x   Account management documentation was not updated when modifications were performed at one
       component. At three components, documentation of user access authorization was not
       maintained. Additionally, user account lists were not periodically reviewed for appropriateness,
       resulting in inappropriate authorizations and excessive user access privileges across seven DHS
       components.
   x   System user roles and permissions are not documented at one component.
   x   Access request forms are not being completed for all financial system users on a consistent basis
       at four components.
   x   Excessive access existed within financial applications at two DHS components.
   x   Emergency access was not appropriately restricted or was not approved by the Information
       System Security Manager (ISSM) at one component.
   x   At one component, access review procedures for key financial applications do not include the
       review of all user accounts to ensure that all terminated individuals no longer have active
       accounts, that inactive accounts are locked, and that privileges associated with each individual are
       still authorized and necessary.
   x   Accounts were not disabled or removed promptly upon personnel termination at one DHS
       component. Procedures over the process of finalizing and implementing entity-wide processes
       for account terminations and related notifications are in draft and have not been implemented or
       communicated at two components.
   x   Individuals were not required to sign rules of behavior or computer access agreements prior to
       gaining access to financial systems at two components.
   x   Five DHS components had instances of inadequate or weak passwords that existed on key
       systems, servers and databases that house financial data. Additionally, one component was not


                                                    3
   Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                Department of Homeland Security
                            Information Technology Management Letter
                                       September 30, 2008

       consistently remediating password vulnerabilities identified by scans in order to mitigate weak
       password configurations.
   x   Instances at three components where workstations or financial applications were configured with
       inadequate inactivity time-outs.
   x   Instances at four components where workstations, servers, or network devices were configured
       without necessary security patches, inadequate security configurations, or up-to-date anti-virus
       software.
   x   Procedures regarding the use of anti-virus software have not been finalized for one DHS
       component.
   x   At one component, a script which disables accounts after 30 days of inactivity was not
       functioning appropriately for the full fiscal year.
   x   Audit logs were not reviewed or evidence of audit log review is not retained at five DHS
       components. At two components, audit logs were not appropriately configured to capture
       security events. Additionally, at one component, audit logs of privileged database administrator
       actions are not enabled or reviewed.
   x   At one component, policy and procedures for review of audit logs are not documented.
   x   Media sanitation procedures do not reflect the current process in place at one component.
   x   Policy and procedures regarding implementation of Voice Over Internet Protocol (VOIP),
       wireless technologies, cryptographic tools, and sharing data with external parties are not finalized
       at one component.


2. Application software development and change controls – we noted:
   x   At two components, procedures over approval, testing, and documentation requirements for
       database scripts remain in draft form. The testing, approval, and implementation documentation
       is not consistently documented for all scripts. In addition, the components do not monitor scripts
       run in the database through audit logging and has not developed a technical solution to monitor
       who accesses the database to run scripts or review what scripts are run. Analysis of the database
       scripts conducted by the components was incomplete and did not properly evaluate the financial
       statement impact of the scripts.
   x   Change control policies and procedures are not fully documented and implemented at three DHS
       components.
   x   Policies and procedures surrounding the SDLC process have not been documented or finalized
       for the Department and one component.
   x   Emergency and non-emergency changes were made prior to management approval. Additionally,
       at five DHS components, instances where changes made to the system were not always
       documented or performed through SCRs, test plans, test results, approvals, or software
       modifications.
   x   At two components, the contract with the support vendor did not include security configuration
       requirements that must be adhered to during the configuration management process.

                                                    4
   Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                Department of Homeland Security
                            Information Technology Management Letter
                                       September 30, 2008

   x   Policies and procedures over the authorization and use of mobile code technologies are in draft
       form for one DHS component.
   x   Excessive access to financial application program and support files at one component.


3. Service continuity – we noted:
   x   The COOP does not include an accurate listing of critical information technology systems, did not
       have critical data files and an alternate processing facility documented, and was not adequately
       tested at one DHS component. Additionally, complete testing of a current and finalized
       Contingency Plan was not conducted for two components. At three components, the COOP and
       Business Continuity Plans were not updated to reflect results of testing.
   x   The Contingency Plan is not distributed or stored at off-site locations for two components.
   x   An alternate processing site is not operational for one DHS component. In another instance, the
       recovery facility was insufficient to fully and properly restore systems and conduct continuity
       testing.
   x   Documented hardware maintenance procedures do not exist at one component.
   x   Access to the backup facility is not appropriately secured from unauthorized access at one
       component.
   x   Backup tapes are not tested on a quarterly basis at two components.


4. Entity-wide security program planning and management – we noted:
   x   Four components were not compliant with the requirements of the Federal Financial Management
       Improvement Act (FFMIA).
   x   A formal agreement has not been established between the Department and their alternate
       processing site.
   x   Interconnection Security Agreements (ISA) between two DHS components and external parties
       were not in place or not finalized.
   x   A risk assessment for a major financial application at two components has not been completed
       and the associated System Security Plan (SSP) remains in draft form. At another component, the
       SSP is not accurate and up-to-date.
   x   At one component, vulnerabilities identified from periodic scans are not reported and tracked via
       the Plan of Action and Milestones (POA&M) process.
   x   Incident response procedures were not finalized and implemented at one component.
   x   One component does not maintain a complete and up-to-date inventory listing of workstations.
   x   Policies and procedures for system administrator responsibilities are not up-to-date for one
       component.




                                                   5
   Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                               Department of Homeland Security
                           Information Technology Management Letter
                                      September 30, 2008

   x   Financial application users had not completed IT security awareness training at four components.
       Additionally, one of these components has not implemented role-based security awareness
       training.
   x   At two components, policies or procedures have not been implemented to require that a favorably
       adjudicated background investigation be completed for all contractor personnel.
   x   Background investigations for all civilian employees have not been completed and civilian
       position sensitivity designations have not been determined in accordance with DHS guidance at
       two components.
   x   Contractors and employees without completed background investigations retained access in DHS
       systems at one component.
   x   At one component, procedures surrounding the system used to track contractor personnel data
       have not been formally documented.
   x   Termination forms were not consistently completed and documented for separated employees and
       contractors at two components.


5. System software – we noted:
   x   At two components, security patch management weaknesses exist on hosts supporting the key
       financial applications and general support systems.
   x   Security configuration management weaknesses exist at three components on hosts supporting the
       key financial applications and the underlying general support systems.
   x   At one component, procedures for identifying and installing patches are in draft and have not
       been implemented.
   x   Monitoring and patch distribution software is not installed on all workstations at one component.
   x   Policy and procedures for restricting access to system software have not been developed at one
       component.
   x   System specific policies and procedures to review system software activity have not been
       developed at one component.
   x   Evidence of system software audit log review is not retained at one DHS component.


6. Segregation of duties – we noted:
   x   Segregation of duties policies have not been developed at one component.
   x   Instances at two components where policies and procedures regarding change controls were not
       in place to prevent users from having concurrent access to the development, test, and production
       environments of the system, or for restricting access to application system software and system
       support files.
   x   Evidence of the review of system programmer actions with access to production financial servers
       is not documented at one component.

                                                   6
   Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                Department of Homeland Security
                            Information Technology Management Letter
                                       September 30, 2008

   x    At one component, financial system users have the ability to create and approve payment
        vouchers.


Recommendations: We recommend that the DHS Office of Chief Information Officer (OCIO), in
coordination with the DHS Office of Chief Financial Officer (OCFO), and the DHS component OCIOs
and OCFOs make the following improvements to the Department’s financial management systems:
1. For access controls:
   a) Develop and maintain a centralized listing of contract personnel and require all contractors to sign
      non-disclosure agreements;
   b) Develop and appropriately implement a physical access authorization process to ensure that
      physical access requests are completed and documented for all individuals prior to granting
      access to sensitive facilities;
   c) Develop and appropriately implement an access authorization process that ensures that a request
      is completed and documented for each individual prior to granting him/her access to a financial
      application or database;
   d) Document financial system user roles and permissions;
   e) Implement an account management certification process within all the components to ensure the
      periodic review of user accounts for appropriate access;
   f) Develop and implement procedures that will appropriately restrict the use of emergency or
      temporary access within DHS systems and that require documented supervisory approval from
      the ISSM confirming this access is needed;
   g) Implement a process to ensure that all accounts of terminated individuals from the system are
      immediately removed/end-dated/disabled upon their departure. This includes both terminated
      employees and contractors;
   h) Ensure that all individuals sign a rules of behavior or computer access agreement document prior
      to granting him/her access to a financial application or database;
   i)   Enforce password controls that meet DHS’ password requirements on all key financial systems.
        Conduct periodic vulnerability assessments, whereby systems are periodically reviewed for
        access controls not in compliance with DHS and Federal guidance and ensure that action is taken
        to remediate any security weaknesses identified;
   j)   Enforce inactivity time-outs on all workstations and applications as required by DHS policy;
   k) Complete procedures regarding the use of anti-virus software. Develop procedures to regularly
      review and monitor workstations and servers to ensure that the most up-to-date patches, necessary
      security configurations, and virus protection software is installed;
   l)   Ensure that all accounts that have been inactive for over 30 days are disabled as required by DHS
        policy;
   m) Develop and implement detailed procedures requiring the review of operating system and
      application logs for suspicious activity and conduct audit log reviews on a consistent and timely
      basis;


                                                    7
   Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                 Department of Homeland Security
                             Information Technology Management Letter
                                        September 30, 2008

   n) Develop and implement media sanitation procedures that are consistent with DHS policy and the
      current practices in place; and
   o) Finalize and implement policy and procedures regarding VOIP, wireless technologies,
      cryptographic tools, and sharing data with external parties.


2. For application software development and change control:
   a) Implement and better document a single, integrated script change control process that includes
      clear lines of authority to financial and IT management personnel, enforced responsibilities of all
      participants in the process, and documentation requirements. Additionally, continue efforts to
      complete an in-depth analysis of active scripts, with the following objectives: All changes to
      active scripts and new scripts should be subject to an appropriate software change control process
      to include testing, reviews, and approvals and all active scripts should be reviewed for impact on
      financial statement balances;
   b) Implement a single, integrated change control process over the DHS components’ financial
      systems with appropriate internal controls to include clear lines of authority to the components’
      financial management personnel and to enforce responsibilities of all participants in the process
      and documentation requirements. Further develop and enforce policies that require changes to
      the configuration of the system are approved and documented, and audit logs are activated and
      reviewed on a periodic basis;
   c) Develop, document and implement a formalized SDLC process;
   d) Ensure that all contracts with support vendors document all responsibilities and requirements of
      the change controls process;
   e) Develop and implement formal policies and procedures for restricting access to DHS system
      software, and promulgate it to all needed personnel, to be in compliance with the DHS Sensitive
      System Policy Directive 4300A; and
   f) Finalize and implement policies and procedures over the authorization and use of mobile code
      technologies.


3. For service continuity:
   a) Update the COOP to document and prioritize an accurate listing of critical IT systems;
   b) Perform testing of key service continuity capabilities, including contingency planning. Ensure
      that all contingency plans and related documentation are updated upon completion of testing;
   c) Ensure that contingency plans and emergency documentation are distributed to the appropriate
      individuals and are stored off-site;
   d) Ensure that alternate processing sites are made operational;
   e) Document and implement hardware maintenance procedures;
   f) Establish and implement a procedure for authorizing and maintaining a backup facility access list
      to ensure that only authorized individuals are granted access; and
   g) Test backups at least quarterly.

                                                   8
   Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                Department of Homeland Security
                            Information Technology Management Letter
                                       September 30, 2008


4. For entity-wide security program planning and management:
   a) Develop and implement corrective action plans to address and remediate identified instances of
      non-compliance with FFMIA. Continue to improve and monitor component compliance with
      applicable DHS and Federal security requirements.
   b) Ensure that that formal agreements with service providers are established and finalized;
   c) Ensure that ISAs are documented and finalized between DHS components and all external
      parties;
   d) Finalize and implement the certification and accreditation package for all key financial systems in
      accordance with DHS and National Institute of Standards and Technology (NIST) guidance;
   e) Ensure that all vulnerabilities and weaknesses are reported and tracked via the POA&M process.
   f) Develop procedures to regularly review and monitor the workstations to ensure that monitoring
      software is installed on all machines;
   g) Ensure that new and existing workstations are accounted for in an appropriate fashion;
   h) Review of policies and procedures for security administrators to reflect the current operating
      environment;
   i)   Ensure that IT security awareness training is completed by all personnel;
   j)   Create and implement contractor background investigation policies and procedures in order to
        establish requirements and ensure compliance with the DHS Sensitive System Policy Directive
        4300A. This includes the verification that all contracts include the appropriate position
        sensitivity designation requirements for contracted personnel;
   k) Perform initial background investigations and re-investigations for civilian employees in
      accordance with position sensitivity designations at no less than the Moderate level as required by
      DHS directives. In addition, conduct civilian background re-investigations every ten (10) years,
      as required by DHS directives;
   l)   Finalize, communicate, and distribute procedures over contractor tracking. In addition,
        continuously monitor controls over the contractor tracking system to verify that contractor data
        within the system remains current and accurate; and
   m) Implement an automated process or system that will notify system owners of terminated
      contractor, military, and civilian personnel. Additionally, ensure that employee exit procedures
      are implemented for all separating personnel.


5. For system software:
   a) Implement a patch management and security configuration process, and enforce the requirement
      that systems are periodically tested by DHS components and the DHS Office of Chief
      Information Officer. Additionally, perform corrective actions on the specific patch and
      configuration weaknesses identified;
   b) Actively monitor the use of and changes related to operating systems and other sensitive utility
      software and hardware;

                                                    9
  Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                 Department of Homeland Security
                             Information Technology Management Letter
                                        September 30, 2008

    c) Develop and implement procedures for reviewing system software activity; and
    d) Develop and implement policy and procedures for restricting access to system software.


6. For segregation of duties:
    a) Develop and implement segregation of duties policies. Ensure that segregation of duties policies
       are enforced for all financial systems;
    b) Develop and implement procedures to perform a periodic review of access to financial
       application software and support files to determine whether access is valid, consistent with job
       responsibilities, and according to the least privilege principle. Remove excessive access to the all
       DHS financial application software and support files; and
    c) Monitor the activities of system programmers as well as the use of operating systems software
       and other sensitive utility software and hardware. Retain evidence of the reviews.



Cause/Effect: Many of these weaknesses were inherited from the legacy agencies that came into DHS or
system development activities that did not incorporate strong security controls from the outset and will
take several years to fully address. At many of the larger components, IT and financial system support
operations are decentralized, contributing to challenges in integrating DHS IT and financial operations.
In addition, financial system functionality weaknesses, as discussed throughout our report on internal
controls in various processes, can be attributed to non-integrated legacy financial systems that do not have
the embedded functionality required by Office of Management and Budget (OMB) Circular No. A-127,
Financial Management Systems. In addition, Component-level IT divisions do not always have sufficient
resources to direct towards the implementation of security controls in a consistent manner. Additionally,
corrective actions necessary to mitigate the weaknesses often take multiple years before they take hold.

A contributing cause to the numerous repeated findings is that DHS lacks an effective agency-wide
method of tracking the remediation progress made on findings at various components. In addition, while
the components have made improvements in addressing the root cause of IT weaknesses, we found that
focus is often placed on the tracking of response to audit recommendations, instead of on developing the
most effective method of addressing the actual control weakness. When weaknesses in controls or
processes are identified, the corrective actions address the symptom of the problem and do not the correct
root cause which amounts to a temporary fix.

Further, insufficient testing of IT controls and testing of remediation activities by individual DHS
components and by the DHS CIO limits DHS’ ability to confirm that IT weaknesses are addressed. The
most prevalent reason as to why these weaknesses are present is the lack of prioritization in taking the
necessary actions to improve the IT control environment around the Department’s financial management
systems.

The effect of these numerous IT weaknesses identified during our testing impacts the reliability of DHS’
financial data. Many of these weaknesses, especially those in the area of change control, may result in
material errors in DHS’ financial data that are not detected, in a timely manner, in the normal course of
business. In addition, as a result of the continuous presence of serious IT weaknesses, there is added
pressure on the mitigating manual controls to be operating effectively at all times. Since manual controls

                                                    10
   Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                  Department of Homeland Security
                              Information Technology Management Letter
                                         September 30, 2008

are operated by people, there cannot be a reasonable expectation that they would be able to be in place at
all times and in all areas.

Criteria: The Federal Information Security Management Act (FISMA) passed as part of the Electronic
Government Act of 2002, mandates that Federal entities maintain IT security programs in accordance with
OMB and NIST guidance. OMB Circular No. A-130, Management of Federal Information Resources, and
various NIST guidelines describe specific essential criteria for maintaining effective general IT controls. In
addition OMB Circular No. A-127 prescribes policies and standards for executive departments and agencies
to follow in developing, operating, evaluating, and reporting on financial management systems. FFMIA sets
forth legislation prescribing policies and standards for executive departments and agencies to follow in
developing, operating, evaluating, and reporting on financial management systems. The purpose of FFMIA
is: (1) to provide for consistency of accounting by an agency from one fiscal year to the next, and uniform
accounting standards throughout the Federal Government; (2) require Federal financial management systems
to support full disclosure of Federal financial data, including the full costs of Federal programs and activities;
(3) increase the accountability and credibility of federal financial management; (4) improve performance,
productivity and efficiency of Federal Government financial management; and (5) establish financial
management systems to support controlling the cost of Federal Government. In closing, for this year’s IT
audit we assessed the DHS component’s compliance with the DHS Sensitive System Policy Directive 4300A.




                                                     11
   Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                 Department of Homeland Security
                             Information Technology Management Letter
                                        September 30, 2008

                             APPLICATION CONTROL FINDINGS

Condition: In FY 2008, the following IT application control weakness was identified at DHS. This
application control weakness, in combination with the IT and financial system control weaknesses
detailed above result in IT being reported as contributing to a material weakness for financial system
security.

Four (4) contractors and an additional user account used by contractors had super user access privileges
within the core financial system at one component. Based on notification of this weakness, component
management responded by removing the access as of September 24, 2008.

Recommendation: No recommendation was issued as the weakness was remediated by the component
upon notification.


                    MANAGEMENT COMMENTS AND OIG RESPONSE

We obtained written comments on a draft of this report from the DHS CIO, DHS Acting CFO, and DHS
CISO. Generally, the DHS management agreed with all of our findings and recommendations. The DHS
management has developed a remediation plan to address these findings and recommendations. We have
incorporated these comments where appropriate and included a copy of the comments at Appendix D.

OIG Response

We agree with the steps that DHS management is taking to satisfy these recommendations.




                                                    12
   Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                             Appendix A

                           Department of Homeland Security
                       Information Technology Management Letter
                                  September 30, 2008




                                   Appendix A

Description of Key Financial Systems and IT Infrastructure within
    the Scope of the FY 2008 DHS Financial Statement Audit
                          Engagement




                                          13
 Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                               Appendix A

                                 Department of Homeland Security
                             Information Technology Management Letter
                                        September 30, 2008


Below is a description of significant financial management systems and the supporting Information
Technology (IT) infrastructure included in the scope of the engagement to perform the financial statement
audit.



    Locations of Audit: ICE Headquarters (HQ) in Washington, D.C


    Key Systems Subject to Audit:

                                                    – ICE owns and operates           . ICE performs
    accounting services for other DHS components, such as the United States Citizen and Immigration
    Services, Management Directorate, Science and Technology Directorate, and US-Visit, using
    per the shared services agreement these agencies have with ICE.           is a commercial off-the-shelf
    financial reporting system that was fully implemented in fiscal year (FY) 2003.          is the official
    system of record and is built in                                                                 . It
    includes the core system used by accountants,                  that is used by standard users, and a
                              payroll interface.      supports all USCIS/ICE core financial processing
    and uses a Standard General Ledger (SGL) for the accounting of agency financial transactions.




    Locations of Audit: USCIS HQ in Washington, D.C

    Key Systems Subject to Audit:

    x          – The ICE component owns and operates               . ICE performs the financial reporting
        function for USCIS, using           per the shared services agreement with USCIS.            is a
        commercial off-the-shelf financial reporting system that was fully implemented in FY 2003.
               is the official system of record and is built in                   . It includes the core
        system used by accountants,                    , which is used by average users, and a National
        Finance Center payroll interface.           supports all USCIS core financial processing.
        uses a SGL for the accounting of agency financial transactions.

    x                                                    -                 provides USCIS with a
        decentralized        based system that supports the requirements of the Direct Mail Phase I and II,
        Immigration Act of 1990 (IMMACT 90, Pub. L. No. 101-649) and USCIS forms improvement
        projects. The                  is located at each of the service centers
                                                                      . The main purpose of
        is to enter and track immigration applications.

    x             - The purpose of           is to track and manage naturalization applications.
        resides on multiple platforms, including a                                       .            data is

                                                     14
   Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                           Appendix A

                             Department of Homeland Security
                         Information Technology Management Letter
                                    September 30, 2008

    centrally stored within one                      Software is developed and maintained in the
    relational database and                           environments.




Locations of Audit: Coast Guard HQ in Washington, DC


                                                      .

Key Systems Subject to Audit:

x                                   –       is the core accounting system that records financial
    transactions and generates financial statements for the Coast Guard.        is hosted at
    the Coast Guard’s primary data center. It is a customized version of                     .

x                                           – The       application is used to create and post
    obligations to the core accounting system. It allows users to enter funding, create purchase
    requests, issue procurement documents, perform system administration responsibilities, and
    reconcile weekly program element status reports.       is interconnected with the            .

x                                                -    is the document image processing system,
    which is integrated with an                                                  allows electronic
    data and scanned paper documents to be imaged and processed for data verification,
    reconciliation and payment.      utilizes                     to scan documents and to view
    the images of scanned documents and to render images of electronic data received.
                             is a commercial product used to reconcile payment information retrieved
    from the United States Department of the Treasury.             reconciles items that Treasury has
    paid for Coast Guard, with items      has paid to Treasury. This system is hosted on a


x                                                               -           is a Microsoft Access
    Database and is maintained at            and information from       is uploaded to this instance
    monthly. After reconciliation,            information is uploaded into

x                                                 -         is a mainframe application used for
    paying Coast Guard active and reserve personnel’s payroll.

x                 -                is the system of record and all functionality, data entry, and
    processing of payroll events is conducted exclusively in                .

                                                         – Formerly named the
                                              is hosted at             is the primary financial



                                                 15
Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                           Appendix A

                              Department of Homeland Security
                          Information Technology Management Letter
                                     September 30, 2008

    application for the


x                                -                       , is a web-based application designed to
    automate the management of Coast Guard’s vessel logistics by supporting the following
    functions: configuration, maintenance, supply and finance.

x                                     -      is hosted at the Coast Guard’s      and provides core
    information about the USCG shore facility assets and facility engineering. The application tracks
    activities and assists in the management of the                         Program and the
                       Program.




Locations of Audit: The                                         in                       and the


Key Systems Subject to Audit:

x                                                           -      is CBP’s financial management
    system that consists of a ‘core’ system, which supports primary financial accounting and
    reporting processes, and a number of additional subsystems for specific operational and
    administrative management functions.          is a client/server-based financial management system
    that was implemented beginning in FY 2004 to ultimately replace the
                                      -based financial system using a phased approach.

x                                             –       is a collection of business process mainframe-based
    systems used by CBP to track, control, and process all commercial goods, conveyances and
    private aircraft entering the U.S. territory for the purpose of collecting import duties, fees, and
    taxes owed to the Federal government. Key application software within              includes systems
    for data input/output, entry and entry summary, and collection of revenue.

                                                 -      is the commercial trade processing system
    being developed by CBP to facilitate trade while strengthening border security.       is being
    deployed in phases, with a final full deployment scheduled for FY 2010. As        is partially
    implemented now and processes a significant amount of revenue for CBP,          was included in a
    limited scope in the FY 2008 financial statement audit. The




                                                 16
Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                          Appendix A

                             Department of Homeland Security
                         Information Technology Management Letter
                                    September 30, 2008




Location of Audit: DHS HQ in Washington, D.C.

Key Systems Subject to Audit:

x                                                        – The system of record for the DHS
    consolidated financial statements is         The DHS components update           on a monthly
    basis with data extracted from their core financial management systems.          subjects
    component financial data to a series of validation and edit checks before it becomes part of the
    system of record. Data cannot be modified directly in          but must be resubmitted as an input
    file.

x                                          –              interfaces with       and is used for the
    consolidation of the financial data and the preparation of the DHS financial statements.
           is also administered by Treasury.

    The       and             applications reside on the Department of Treasury’s network and are
    administered by Treasury. Treasury is responsible for the administration of the
                                   and the                                       . The DHS Office of
    Financial Management is responsible for the administration of DHS user accounts within the
                                      .




Location of Audit: FLETC HQ in


Key Systems Subject to Audit:

x                - FLETC’s core financial management system that processes financial documents
    generated by various FLETC divisions in support of procurement, payroll, budget and accounting
    activities. All financial, procurement and budgeting transactions where the FLETC is involved
    are processed by

                             FLETC’s procurement management system, which is used for the
    tracking of procurement activities at various FLETC locations.                          is a system
    used to input requisitions for the acquisition of goods and services.
    purpose is to process contractual documents generated by FLETC in support of procurement
    activities. The system resides on an                  and the front-end of the system is integrated
    with




                                                17
Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                           Appendix A

                             Department of Homeland Security
                         Information Technology Management Letter
                                    September 30, 2008



Locations of Audit: FEMA HQ in Washington, D.C.,


Key Systems Subject to Audit:

x                                                                  –       is the key financial
    reporting system, and has several feeder subsystems (budget, procurement, accounting, and other
    administrative processes and reporting).

x                                                                    –        is an integrated system
    to provide FEMA, the states, and certain other federal agencies with automation to perform
    disaster related operations.        supports all phases of emergency management, and provides
    financial related data to      via an automated interface.

x                                                           - The       application acts as a central
    repository of all data submitted by the Write Your Own (WYO) companies.             also supports
    the WYO program, primarily by ensuring the quality of financial data submitted by the WYO
    companies to                  is                              that runs on the
                                mainframe logical partition in                      .

x             - The general ledger application used by                                            to
    generate the        financial statements.           is a client-server application that runs on a
               server in                      which is secured in the local area network room. The
             client is installed on the desktop computers of the         Bureau of Financial Statistical
    Control group members.

x                                            -       is a web based application which was developed
    by Digital Systems Group specifically for FEMA grants.            allows grantees access to their
    grant funds as well as upload          online. Draw down transaction information from             is
    interfaced with                 then interfaces with Treasury to transfer payment information to
    Treasury, resulting in a disbursement of funds to the grantee.




Locations of Audit: TSA HQ in Washington, D.C.


Key Systems Subject to Audit:

x        –       is the core accounting system that records financial transactions and generates
    financial statements for the Coast Guard.        is hosted at the                        in


                                                 18
Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                          Appendix A

                             Department of Homeland Security
                         Information Technology Management Letter
                                    September 30, 2008

                       .       interfaces with         Additionally,           fixed asset module for
    property management is interconnected to the                       that is hosted at
x         – The      application used to create and post obligations to the core accounting system. It
    allows users to enter funding, create purchase requests, issue procurement documents, perform
    system administration responsibilities, and reconcile weekly program element status reports.
    is interconnected with the       and                     and is located at the


x                         is a customized third party commercial off the shelf product used for
                                       property management.                 interacts directly with the
    fixed asset module in      Additionally,            is interconnected to the




Locations of Audit: DHS HQ                           The DHS-CIO is responsible for setting security
and control related policy and guidance for the department. If any issues were identified during the
audit that resulted in the DHS-CIO being the responsible party, an NFR was issued directly to them.

Key Systems Subject to Audit: N/A




                                                19
Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                            Appendix B
                          Department of Homeland Security
                      Information Technology Management Letter
                                 September 30, 2008




                                   Appendix B

FY2008 Notices of IT Findings and Recommendations - Detail by
                DHS Organizational Element




                                         20
Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                                Appendix B
                                 Department of Homeland Security
                             Information Technology Management Letter
                                        September 30, 2008



Notices of Findings and Recommendation – Definition of Risk Ratings:

The Notices of Findings and Recommendations (NFR) were risk ranked as High, Medium, and Low
based upon the potential impact that each weakness could have on the DHS component’s IT general
control environment and the integrity of the financial data residing on the DHS component’s financial
systems, and the pervasiveness of the weakness. The risk ratings are intended only to assist management
in prioritizing corrective actions, considering the potential benefit of the corrective action to strengthen
the IT general control environment and/or the integrity of the DHS consolidated financial statements.
Correction of some higher risk findings may help mitigate the severity of lower risk findings, and
possibly function as a compensating control. In addition, analysis was conducted collectively on all
NFRs to assess connections between individual NFRs, which when joined together could lead to a control
weakness occurring with more likelihood and/or higher impact potential. The risk ratings, used in this
context, are not defined by Government Auditing Standards, issued by the Comptroller General of the
United States, or the American Institute of Certified Public Accountants (AICPA) Professional Standards,
and do not necessarily correlate to a significant deficiency, as defined by the AICPA Professional
Standards and reported in our Independent Auditors’ Report on the DHS consolidated financial
statements, dated November 14, 2008.

High Risk: A control weakness that is more serious in nature affecting a broader range of financial IT
systems, or having a more significant impact on the IT general control environment and /or the integrity
of the financial statements as a whole.

Medium Risk: A control weakness that is less severe in nature, but in conjunction with other IT general
control weaknesses identified, may have a significant impact on the IT general control environment and /
or the integrity of the financial statements as a whole.

Low Risk: A control weakness minimal in impact to the IT general control environment and / or the
integrity of the financial statements.

The risk ratings included in this report are intended solely to assist management in prioritizing its
corrective actions.




                                                     21
   Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                         Appendix B
                          Department of Homeland Security
                      Information Technology Management Letter
                                 September 30, 2008




                Department of Homeland Security
                 FY2008 Information Technology
     Notification of Findings and Recommendations – Detail


            United States Citizenship and Immigration Services




                                         22
Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                                                                   Appendix B
                                                 Department of Homeland Security
                                             Information Technology Management Letter
                                                        September 30, 2008


                                                  Department of Homeland Security
                                        United States Citizenship and Immigration Services
                                                   FY2008 Information Technology
                                       Notification of Findings and Recommendations – Detail



                                                                                                                                   Repeat    Risk
NFR #                      Condition                                      Recommendation                               New Issue
                                                                                                                                    Issue   Rating
USCIS-     The        has not defined or           Define and document the various                   roles and their                  X     Medium
IT-08-01   documented the appropriate user         associated user permissions.
           permissions for the various roles
           granted to
USCIS-           does not perform periodic         x   Annually review and approve the list of employees stating the                 X      Medium
IT-08-02                     user access reviews       appropriate level of access for each      employee with
           to ensure that users' level of access       access to
           remains appropriate.                    x Annually review the list of                    system and
                                                       database administrators as well as review and approve the
                                                       access level list; and
                                                   x Ensure necessary adjustments in
                                                       account access levels are accomplished based on the input.
USCIS-     Management at the CIS HQ and the        Establish and enforce procedures for the completion and                           X      Medium
IT-08-03   Service Centers                         maintenance of user access forms for
                               ) has not
           completed or inadequately completed
           access forms for
                       and Citizenship and
           Immigration Services

           system users.




                                                                     23
                 Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                                                                    Appendix B
                                                  Department of Homeland Security
                                              Information Technology Management Letter
                                                         September 30, 2008


                                                                                                                                    Repeat    Risk
NFR #                    Condition                                        Recommendation                                New Issue
                                                                                                                                     Issue   Rating
USCIS-     The        has not defined or           Define and document the various                   roles and their                   X      Low
IT-08-04   documented the appropriate user         associated user permissions.
           permissions for the various roles
           granted to
USCIS-     Access to USCIS server cage is not      x    Establish and implement a procedure for authorizing and            X                 Medium
IT-08-06   reviewed to determine whether access         maintaining a current cage (server room) access list.
           is appropriate and authorized, and      x Establish and implement emergency exit and re-entry
           USCIS does not provide oversight of          procedures. In addition, develop a process that assures all
           the services the                             resources with access to the USCIS resources adhere to the
           is to provide.                               policy and procedure.
USCIS-     Documented media sanitation             We recommend that USCIS update their policies and procedures            X                 Medium
IT-08-07   procedures do not reflect the current   to reflect their current media sanitization operation.
           processes at USCIS.
USCIS-     USCIS does not recertify its system     Management should establish a more timely process to perform a          X                 Medium
IT-08-08   administrator accounts on an annual     periodic review of user accounts ensuring proper authorization and
           basis.                                  training.




                                                                     24
                  Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                         Appendix B
                          Department of Homeland Security
                      Information Technology Management Letter
                                 September 30, 2008




                Department of Homeland Security
                 FY2008 Information Technology
     Notification of Findings and Recommendations – Detail


                   Immigration and Customs Enforcement




                                         25
Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                                                                  Appendix B
                                                   Department of Homeland Security
                                               Information Technology Management Letter
                                                          September 30, 2008


                                                 Department of Homeland Security
                                                  FY2008 Information Technology
                                      Notification of Findings and Recommendations – Detail

                                                Immigration and Customs Enforcement

                                                                                                                                Repeat    Risk
NFR #                      Condition                                          Recommendation                        New Issue
                                                                                                                                 Issue   Rating
ICE-IT-   During our FY 2008 follow-up, we noted           x   Develop and implement a written policy                  X                 Medium
 08-04    the following:                                       discussing the standard process for requesting,
                    authorizes user access for                 authorizing, and granting           access for all
               for several DHS components; however,            users. This policy should include users and
               they lack a process to document,                system administrators at the various Bureaus
               maintain or monitor user access forms           that ICE supports, as well as ICE system
               from all components that use                    administrators and users. This written policy
                                                               should outline the responsibilities of the system
          x   Procedures for periodically recertifying         administrators, to include the procedures for
              and reviewing privileged                         maintaining the access request forms for all
              accounts were not established until              users, and ICE’s responsibility to periodically
              June 2008.                                       monitor all system administrators to ensure they
                                                               are following the appropriate procedures.
                                                           x Enhance procedures for annually recertifying
                                                                        administrator accounts to ensure that the
                                                               recertification procedures are executed properly.
ICE-IT-                    contingency plan was not        No recommendation will be offered as this issue was         X                   Low
 08-09    distributed to the offsite locations             corrected upon notification.
          designated to support ICE in case of an
          emergency.
ICE-IT-                    backup facility access is not   We recommend ICE develop procedures                 to      X                   Low
 08-10    appropriately secured from unauthorized          periodically review the backup facility
          access.                                                           , and update it accordingly.




                                                                         26
                  Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                         Appendix B
                            Department of Homeland Security
                        Information Technology Management Letter
                                   September 30, 2008




                Department of Homeland Security
                 FY2008 Information Technology
     Notification of Findings and Recommendations – Detail


                         Customs and Border Protection




                                          27
Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                                                                       Appendix B
                                                   Department of Homeland Security
                                               Information Technology Management Letter
                                                          September 30, 2008


                                                Department of Homeland Security
                                                 FY2008 Information Technology
                                     Notification of Findings and Recommendations – Detail

                                                     Customs and Border Protection

                                                                                                                         New     Repeat    Risk
NFR #                           Condition                                           Recommendation
                                                                                                                         Issue    Issue   Rating
CBP-IT-   We noted that significant progress has been made           We believe that work should continue to review                 X     Medium
 08-02    at addressing this persistent finding. We noted            and maintain a listing of active connections with
          that a full listing of connections to         has been     the     and account for each connection with a
          developed and is maintained. However, we also              documented
          noted that there are active connections to          that
          still do not have a documented           in place.
          Work is progressing within CBP to address the
          missing          but as of testing, we noted that not
          all connections had a documented
CBP-IT-   CBP does not maintain a centralized listing of             We recommend that CBP continue work on the                    X      Medium
 08-03    contract personnel, including employment status.                                         to ensure that all
          Currently, CBP only maintains contractor                   CBP contractors are included in the database
          information for OIT contractors. While this is a           and that the data for each contractor is complete
          majority of CBP contractors, it does not include all       and accurate.
          CBP contractors. Additionally, as a result of
          additional test work we noted data validity issues
          in the                                 .




                                                                          28
                Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                                                                     Appendix B
                                                  Department of Homeland Security
                                              Information Technology Management Letter
                                                         September 30, 2008


                                                                                                                       New     Repeat     Risk
NFR #                          Condition                                           Recommendation
                                                                                                                       Issue    Issue    Rating
CBP-IT-   We noted the following issues in regards to               We recommend that CBP properly configure the                  X       Low
 08-08    Security Audit Logs for                                   application to capture appropriate data per DHS
          x A solution has been implemented to track and            policy. We further recommend that a method
               monitor security and audit related activity but      for generating and reviewing security audit logs
               has not been operational for the entire FY           be developed for             according to CBP
               2008.                                                and DHS policy, to detect potential security
          x There is a configuration weakness for                   events.
               capturing security and audit related activity in
               the
               application. The configuration has changed on
               multiple occurrences in regards to tracking
               activity for the ‘Logon to Account’ field in FY
               2008.
          x There is no defined method to generate and
               review security audit logs for security
               violations for the
CBP-IT-   We noted that during FY 2008, CBP implemented             We recommend that CBP ensure that the                        X        Low
 08-09    a script to disable accounts after 30 days of             updated script runs regularly on the system to
          inactivity. However, we noted that the script was         disable user accounts after the DHS-specified
          not functioning appropriately for the full fiscal         period of inactivity.
          year and was fixed during the third quarter of FY
          2008.
CBP-IT-   As noted in FY 2007, we noted that                        We recommend that CBP develop procedures to                  X      Medium
 08-12               is not installed on all workstations for the   regularly review and monitor the workstations
          majority of the fiscal year. Specifically, we noted       that have                installed and perform
          that as of 3/31/2008, 4,751 workstations out of           inquiries to determine why identified
          50,282 accounted for workstations do not have             workstations do not have        installed.
                             installed.




                                                                         29
               Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                                                                   Appendix B
                                                  Department of Homeland Security
                                              Information Technology Management Letter
                                                         September 30, 2008


                                                                                                                     New     Repeat    Risk
NFR #                          Condition                                        Recommendation
                                                                                                                     Issue    Issue   Rating
CBP-IT-   We noted that while progress has been made in           We recommend that CBP work with                               X     Medium
 08-13    accounting for all CBP workstations, a complete         administrators across the country to ensure that
          and up-to-date listing of all CBP workstations is       new and existing workstations are added to a
          not maintained.                                         CBP                    domain to allow for all
                                                                  workstations to be accounted for in an
                                                                  appropriate fashion.
CBP-IT-   We noted that the          has been adjusted to limit   x Develop and implement procedures that will                 X      Medium
 08-16    active temporary and/or emergency access to 24              appropriately restrict the use of emergency
          hours after the request. We noted, however, that            or temporary access within         and that
          the table is still being used and that administrator        requires documented supervisory approval
          or supervisory approval is not required each time           from the ISSM confirming this access is
          temporary or emergency access is activated and              needed.
          that ISSM approval is not required, as required in      x Perform regular recertifications of the
          DHS policy.                                                 emergency access table to ensure persons
                                                                      with the capability to request temporary or
                                                                      emergency access need to remain on the
                                                                      emergency access table.
CBP-IT-   We noted there are currently no procedures in           x Develop formal procedures for recertifying                 X      Medium
 08-18    place for the completion of semi-annual                                  accounts and access to shared
          recertifications of             accounts. We also           data.
          notes that a recertification of           accounts      x Perform regular recertifications of
          is not performed on a semi-annual basis.                          accounts and access to shared data as
                                                                      required by developed procedures.
CBP-IT-   We noted that when changes to a user’s access are       We recommend that the review of these logs is                X        Low
 08-21    performed in         the log of these events is not     implemented on a periodic basis by an
          regularly reviewed by personnel independent from        independent reviewer and that CBP formalize
          those individuals that made the changes. We             these procedures in detail for the review of
          further noted that logs from March 2008 through         security audit logs.
          July 2008 have not been reviewed by the
          ISSO/Independent Reviewer.




                                                                      30
               Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                                                                Appendix B
                                               Department of Homeland Security
                                           Information Technology Management Letter
                                                      September 30, 2008


                                                                                                                  New     Repeat     Risk
NFR #                         Condition                                       Recommendation
                                                                                                                  Issue    Issue    Rating
CBP-IT-   We noted that out of 25 dates, 6                     We recommend that CBP follow DHS policy                       X       Low
 08-26    security violation report reviews were not           and maintain documented evidence of review for
          provided.                                                                   for the duration outlined
                                                               in DHS policy.
CBP-IT-   We noted that authorizations are not being           x Develop and implement procedures to                        X      Medium
 08-27    maintained for personnel that have administrator         restrict access               administrative
          access to           . Additionally, we noted in          capabilities, and
          FY 2008 that access requests for new                 x Require documented authorization requests
                     administrator accounts are requested          and approval for each person requiring
          and approved verbally.                                   access to                 administrative
                                                                   capabilities.
CBP-IT-   We noted that procedures have been developed to      We recommend that CBP continue efforts to                    X      Medium
 08-28    require access request forms for any new account     develop a method for tracking and consolidating
          created for the             However, we noted        access request forms for the             and
          that access request forms were not available for     continue to implement the procedures developed
          review for 3 accounts created by                     to control       account creation.
          administrators during FY 2008.
CBP-IT-   We noted that procedures are in place for the        We recommend that CBP require managers to                    X      Medium
 08-29    completion of the termination forms for separating   consistently complete the CBP-241 forms that
          government employees. We noted, however, that        are required as set forth in CBP directives and
          the forms are not completed consistently, with       policy.
          employee and/or supervisor signature missing
          from seven of the 25 separated employees
          selected.




                                                                    31
               Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                                                                    Appendix B
                                                 Department of Homeland Security
                                             Information Technology Management Letter
                                                        September 30, 2008


                                                                                                                      New     Repeat     Risk
NFR #                          Condition                                         Recommendation
                                                                                                                      Issue    Issue    Rating
CBP-IT-   We noted that                               , the       We recommend that CBP develop procedures to                    X       Low
 08-34    system used to enforce virus protection policies,       regularly review and monitor the workstations
          was not installed on all CBP                 on         that have antivirus protection installed and
                              We noted that as of 8/11/2008,      perform inquiries to determine why identified
          0.25% of all workstations on                      did   workstations do not have the protection installed
          not appear on the                In addition to this,   and updated.
          we could not conclude on whether all CBP
          workstations have antivirus protection, as those
          workstations that are not on                     are
          not communicating with         .
CBP-IT-   During our technical testing, configuration             Implement the corrective actions for the                      X        High
 08-35    management exceptions were identified on                recommendations listed within the NFR.
                                and hosts supporting the
          and       applications.
CBP-IT-   During our technical testing, patch management          Implement the corrective actions for the                      X        High
 08-36    exceptions were identified on hosts supporting the      recommendations listed within the NFR.
                       and the        and       applications.
CBP-IT-   We noted that formal procedures do not exist for        We recommend that CBP create formal                  X                 Low
 08-37                               review process. We           procedures to document the          security
          further noted that informal procedures are used by      violation review process.
          the network security specialist to inspect the
                                 for suspicious activity and to
          document the review.
CBP-IT-   We noted that formal procedures do not exist for        We recommend that CBP create formal                  X                 Low
 08-38    the review process of               audit and           procedures to document the review process for
                     . We further noted that informal                        audit and                  .
          procedures are used by the                       to
          inspect logs for suspicious and unusual activity
          and to document the review.
CBP-IT-   We noted that the ‘special characters’ requirement      We recommend that CBP follow DHS policy              X                 Low
 08-39    under password complexity is not set.                   and improve password complexity by including
                                                                  special characters for the application.


                                                                       32
               Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                                                                 Appendix B
                                               Department of Homeland Security
                                           Information Technology Management Letter
                                                      September 30, 2008


                                                                                                                     New     Repeat    Risk
NFR #                         Condition                                        Recommendation
                                                                                                                     Issue    Issue   Rating
CBP-IT-   We noted that access authorizations for emergency    x   Adjust CBP-level and       -level policies to       X               Low
 08-40    and temporary access to      are not approved by         require the ISSM to approve the emergency
                  .                                                and temporary access authorizations prior to
                                                                   access being granted, and
                                                               x   Require documented supervisory approval
                                                                   from the ISSM each time a user requires
                                                                   emergency access abilities.
CBP-IT-   We noted that a Customs Directive was provided       x   Review the current directive, document an          X               Medium
 08-41    as separation procedures for contractors and the         up-to-date review of this document and
          directive was dated September 2001. The                  make modifications as needed based on the
          directive references Treasury policies as source         new operating environment for CBP as part
          documentation. This directive is out of date as          of the Department of Homeland Security,
          CBP is no longer a part of the Department of             and
          Treasury.                                            x   Require the consistent and accurate
                                                                   completion of the           forms for all
          Additionally, we noted that             contractor       separating contractors.
          separation forms are not completed consistently
          for separating CBP contractors. Specifically, we
          noted that all forms for selected separated
          contractors were completed; however, 6 of the
          selected 25 separated contractors’ forms were
          completed between one and several months after
          the individual separated from CBP.
CBP-IT-   We noted that the most recent business continuity    We recommend that CBP allocate the                     X               Medium
 08-43    plan testing was incomplete. Specifically, we        appropriate hardware to            to allow for the
          noted that not all systems were brought online as    system availability to fully test the business
          required since sufficient hardware was unavailable   continuity plan to ensure that           has the
          at the recovery facility to fully and properly       capability to support CBP in the event that the
          perform the continuity testing.                            is rendered unavailable for production.




                                                                    33
               Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                                                                 Appendix B
                                                Department of Homeland Security
                                            Information Technology Management Letter
                                                       September 30, 2008


                                                                                                                     New     Repeat    Risk
NFR #                         Condition                                         Recommendation
                                                                                                                     Issue    Issue   Rating
CBP-IT-   We noted that non-disclosure agreements are not        We recommend that CBP enforce DHS’                    X               Low
 08-44    consistently signed by contractors at CBP.             requirement that a non-disclosure agreement be
                                                                 signed by all contractors in a moderate and high
                                                                 risk level position to ensure that they are aware
                                                                 of their responsibilities in protecting the
                                                                 confidentiality of DHS and CBP data.
CBP-IT-   We noted that the parameters for the                   We recommend that CBP properly configure             X                Low
 08-45                                                                       audit and                       to
                                                                 capture appropriate data for the
                                             are not             system.
          configured to collect appropriate data. We further
          noted that 3 out of the

                             do not produce any data in the
          log.
CBP-IT-   We noted that a total of 10 specific logs were not     We recommend that CBP maintain                       X                Low
 08-46    available for the following dates: November 12,        audit and               per DHS policy.
          2007, February 22, 2008, and March 7, 2008. For
          November 12, 2007, logs were not available for

                                              For February
          22, 2008, logs were not available for the
                                              For March 7,
          2008, logs were not available for
                                              We further noted
          that all mainframe audit and
          that went digital after April 1, 2008 were available
          for review.




                                                                      34
               Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                                                              Appendix B
                                               Department of Homeland Security
                                           Information Technology Management Letter
                                                      September 30, 2008


                                                                                                                  New     Repeat    Risk
NFR #                         Condition                                      Recommendation
                                                                                                                  Issue    Issue   Rating
CBP-IT-   We noted that CBP does not currently require         We recommend that CBP require all CBP                X               Low
 08-47    individuals to sign rules of behavior prior to       personnel (employees and contractors) sign rules
          gaining access to                            .       of behavior prior to being granted any system
                                                               access. Additionally, for personnel that already
                                                               have systems access, CBP should prioritize
                                                               having these individuals sign rules of behavior
                                                               to maintain their systems access.
CBP-IT-   We noted the following weaknesses for the            We recommend that CBP create detailed               X                Low
 08-48                         procedures below:               procedures that document the review process for
          • Procedures do not define how often the                  security audit logs that includes the
              security audit logs are reviewed,                documented evidence of review.
          • Procedures do not describe the documented
              evidence of review process,       Security
              Violation Log Report that is created by the
                   ISSO/Independent Reviewer,
          • Procedures do not define the sampling
              methodology that is used to select       daily
              security logs, and
          • Procedures were not effective for the entire
              FY 2008 (October 1, 2007 – September 30,
              2008).
CBP-IT-   We noted that the initial password granted to new    We recommend that CBP update the                    X               Medium
 08-49         accounts was not in compliance with DHS         Security Administrator Handbook to require a
          requirements.                                        strong password that is in compliance with DHS
                                                               and CBP password policies to be set as the
                                                               initial password for all new     accounts.




                                                                   35
               Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                                                               Appendix B
                                                 Department of Homeland Security
                                             Information Technology Management Letter
                                                        September 30, 2008


                                                                                                                   New     Repeat    Risk
NFR #                          Condition                                        Recommendation
                                                                                                                   Issue    Issue   Rating
CBP-IT-   CBP has no method of tracking completion of             We recommend that CBP develop a method for         X               Low
 08-50    security awareness training for CBP employees           determining individuals who have and have not
          and contractors. Individuals from the program           completed security awareness so that they can
          team responsible for security awareness training        actively work towards 100% compliance with
          do not have the ability to identify those individuals   the DHS requirement that all individuals with
          who have not completed security awareness               systems access complete annual security
          training. Therefore, CBP can not ensure all             awareness training.
          personnel have completed this training.
CBP-IT-   We noted through inquiry with the                       We recommend that CBP document their              X                Low
 08-51    that documented hardware maintenance                    hardware maintenance procedures to ensure a
          procedures do not exist.                                consistent application of maintenance
                                                                  methodologies for the         environment.

CBP-IT-   We determined that the CBP workstation policy           We recommend that CBP determine a method          X                Low
 08-52    for screensavers is not appropriately implemented.      for appropriately applying CBP and DHS policy
          Specifically, we noted that the configuration of a      requiring automatically-activated, password-
          password-protected screensaver can be modified          protected screensavers after a period of
          by the user, allowing that user to remove the           inactivity.
          password requirement and disable the screensaver
          completely.
CBP-IT-   The         Security Administrators Handbook is out     We recommend that a full review of the            X                Low
 08-53    of date and has inaccurate statements of CBP and        Security Administrators Handbook be performed
          DHS policies. Specifically, we noted:                   and updates be made to the document to reflect
          x Out-of-date references to US Customs                  the current operating environment. This review
               Service,                                           should be fully documented and the Handbook
          x References to out-of-date Customs (now CBP)           should be updated to include a change log as
               policies and procedures (1400-05a),                evidence of the updates made.
          x Requirement that          initial passwords are
               set to a weak password string, and
          x Statement that          does not allow special
               characters in passwords.



                                                                      36
               Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                                                                 Appendix B
                                                 Department of Homeland Security
                                             Information Technology Management Letter
                                                        September 30, 2008


                                                                                                                     New     Repeat    Risk
NFR #                          Condition                                         Recommendation
                                                                                                                     Issue    Issue   Rating
CBP-IT-   We noted the following weaknesses in            access   We recommend that CBP document and                  X              Medium
 08-54    control procedures:                                      implemented policies and procedures for
          x A regular (at least semi-annual) recertification       access control.
              of all        portal accounts is not performed,
          x Formal procedures are not documented for the
              creation of         portal accounts, and
          x          is not configured to disable accounts
              after 45 days of inactivity on the system.
CBP-IT-   We noted that 2 accounts created during FY 2008          We recommend that CBP limit the organization       X               Medium
 08-55    did not have appropriate access authorization            that can create      accounts, administrator
          forms maintained by the Metro Area                       accounts and require any accounts be created by
          administrators. We further noted that multiple           a single organization.
          administrators on the               had accounts
          created by other groups than the Metro Area
          Support Team.




                                                                       37
               Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                         Appendix B
                          Department of Homeland Security
                      Information Technology Management Letter
                                 September 30, 2008




                Department of Homeland Security
                 FY2008 Information Technology
     Notification of Findings and Recommendations – Detail


                          United States Coast Guard




                                         38
Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                                                                            Appendix B
                                                   Department of Homeland Security
                                               Information Technology Management Letter
                                                          September 30, 2008


                                                 Department of Homeland Security
                                                  FY2008 Information Technology
                                      Notification of Findings and Recommendations - Detail
                                                     United States Coast Guard


                                                                                                                                    New     Repeat    Risk
NFR #                              Condition                                                  Recommendation
                                                                                                                                    Issue    Issue   Rating
CG-IT-   The                                                       has       Update the          as the result of its testing and              X      Low
08-01    not been updated to reflect the results of testing the         ,    finalize the applicable supporting BCPs.
         and the Business Continuity Plans (BCPs) for each division
         have not been finalized.
CG-IT-   During the first half of the fiscal year, the contract with the     x   Enhance existing Configuration                               X      High
08-06                    software vendor was still in place, and no              Management/Change Management policies
         corrective action had taken place related to the prior year             and procedures to explicitly address security
         recommendation. Therefore, the risk exists that the                     configurations and software patches (e.g.,
         condition was present for the majority of the fiscal year               those associated with system/application
         (October 1, 2008 through April 1, 2008). However, due to                “builds”, service packs, and maintenance
         the Coast Guard decision to terminate the contract with                 releases) to better ensure compliance with
         their software vendor and the Coast Guard Headquarters                  DHS requirements and NIST guidance.
         decision to suspend all                                      )      x   Communicate with and educate affected
         and                                      the condition did not          staff regarding these improved policies and
         exist beyond the date of these 2 events.                                procedures.
                                                                             x   Develop, communicate, and implement
                                                                                 procedures to periodically review system
                                                                                 changes and system baselines.
CG-IT-   We determined that       has not implemented the                    x   Continue with the plans to upgrade the                       X       Low
08-07    following password requirements:                                                 operating system in order to enforce
            x Passwords shall contain special characters                         password complexity requirements to meet the
            x Passwords shall not contain any dictionary word                    DHS Sensitive System Policy Directive
            x Passwords shall not contain any proper noun or the                 4300A.
              name of any person, pet, child, or fictional character         x   Continue to implement mitigating controls to
            x Passwords shall not contain any employee serial                    reduce the risk of unauthorized individuals

                                                                            39
                Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                                                                        Appendix B
                                                  Department of Homeland Security
                                              Information Technology Management Letter
                                                         September 30, 2008


                                                                                                                                New     Repeat    Risk
NFR #                             Condition                                                Recommendation
                                                                                                                                Issue    Issue   Rating
             number, Social Security number, birth date, phone                 gaining access to the system.
             number, or any information that could be readily              x   Educate all employees and contractors of the
             guessed about the creator of the password                         DHS Sensitive System Policy Directive
           x Passwords shall not contain any simple pattern of                 4300A password requirements so they can set
             letters or numbers, such as “qwerty” or “xyz123”                  their passwords in accordance with policy
           x Passwords shall not be any word, noun, or name                    despite the systems inability to enforce them.
             spelled backwards or appended with a single digit or
             with a two-digit “year” string, such as 98xyz123
           x Passwords shall not be the same as the User ID

         While compensating controls were implemented to reduce
         the risk of unauthorized access, they unto themselves do
         not remove the potential risk from occurring.
CG-IT-   Coast Guard Headquarters has developed but not yet                Create and implement contractor background                     X       High
08-10    implemented policies and procedures to require that a             investigation policies and procedures in order to
         favorably adjudicated background investigation be                 establish requirements and ensure compliance with
         completed for all contractor personnel.                           the DHS Sensitive System Policy Directive
                                                                           4300A. This includes the verification that all
                                                                           contracts issued by the Coast Guard include the
                                                                           appropriate Coast Guard position sensitivity
                                                                           designation requirements for contracted personnel.
CG-IT-   Coast Guard headquarters has not finalized the Role-Based         x Continue efforts to finalize and implement the               X      Medium
08-14    Training for USCG Information Assurance Professionals                 Role-Based Training for USCG Information
         Commandant Instruction, which will require all Coast                  Assurance Professionals Commandant
         Guard members, employees, and contractors with                        Instruction which would require personnel
         significant IT security responsibilities to receive initial           with significant information security
         specialized training and annual refresher training thereafter.        responsibilities to complete specialized role-
         The online                                (        which will         based training on an annual basis.
         track compliance, will not be implemented until the Role-
         Based Training is implemented.                                    x   Develop and deploy this specialized role-
                                                                               based training throughout the Coast Guard.
                                                                           x   Implement the use of the       in order to

                                                                          40
                Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                                                                          Appendix B
                                                  Department of Homeland Security
                                              Information Technology Management Letter
                                                         September 30, 2008


                                                                                                                                  New     Repeat    Risk
NFR #                             Condition                                                Recommendation
                                                                                                                                  Issue    Issue   Rating
                                                                               track and verify specialized role-based training
                                                                               requirements compliance.
CG-IT-   Until August 2008, configuration management weaknesses            Through our test work, we determined that the                    X       Low
08-15    continue to exist on hosts supporting the                         prior year control weakness has been remediated
         Database.                                                         prior to the fiscal year-end; therefore, no
                                                                           recommendation is required for this NFR.
         Note: Due to the nature of this testing, see the tables in the
         NFR for the specific conditions.
CG-IT-   Although            has made significant process in               Continue to use the currently implemented                        X       Low
08-17    remediation, we were unable to verify that             is         mitigating controls for those DHS password
         consistently remediating the vulnerabilities identified by        requirements that cannot be enforced by the
         the               scans in order to make it an effective          system. Specifically,             should continue to
         mitigating control for the           application.                 routinely use the                 scanner and
                                                                           remediate any identified password weakness
                                                                           vulnerabilities.
CG-IT-   Until August 15, 2008 when corrective actions were                Through our test work, we determined that the                    X      Medium
08-22    successfully implemented, password rules had not been             prior year control weaknesses was remediated
         appropriately configured for the          application. We         prior to the fiscal year-end, therefore, no
         noted that:                                                       recommendation is required for this NFR.
            x        does not require passwords to be a minimum of
              eight characters
            x        does not require a combination of alphabetic,
              numeric, and special characters;
            x        does not restrict dictionary words;
            x        does not restrict simple pattern passwords;
            x        does not restrict dictionary words spelled
              backwards
            x        does not restrict the use of proper names
            x        does not restrict the use of the employee’s user
              ID
CG-IT-   Policies and procedures have not been developed and               x   Develop procedures for the periodic review of                X      Medium


                                                                          41
                Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                                                                         Appendix B
                                                 Department of Homeland Security
                                             Information Technology Management Letter
                                                        September 30, 2008


                                                                                                                                 New     Repeat    Risk
NFR #                            Condition                                                Recommendation
                                                                                                                                 Issue    Issue   Rating
08-23    implemented for the manual periodic review of         audit          the manual        audit logs in accordance with
         logs. As a result,    audit logs are not periodically                DHS policy.
         reviewed.
                                                                          x   Ensure that an entity independent of the
                                                                              personnel administering the        application
                                                                              reviews system audit trails on a regular basis
                                                                              as part of a more comprehensive continuous
                                                                              monitoring program.
                                                                          x   Ensure audit log files are configured, retained,
                                                                              and archived in compliance with DHS policy.
CG-IT-   x   Procedures have been created and implemented for the         x   Develop and implement procedures to require                  X      Medium
08-25        quarterly review of developer and analyst roles.                 a periodic review of all        accounts and
             However the procedures do not include the review of              their associated privileges. These procedures
             all other        user accounts to ensure that all                should include steps to verify that all
             terminated individuals no longer have active accounts,           terminated individuals no longer have active
             that inactive accounts are locked, and that privileges           accounts, that inactive accounts are locked and
             associated with each individual are still authorized and         that privileges associated with each individual
             necessary.                                                       are still authorized and necessary.
         x   529 users have unlocked            database accounts with    x   Continue to reduce the number of tables that
             access to the                       e. Therefore, the            can be updated to ensure that each user has a
             number of users with the                      role has           business need to update each table.
             increased by 141 users from the 388 users noted during
             FY 2007. Additionally, a mapping                    roles    x   Document a mapping between the
             within the         application to the tables that can be         flow roles and the associated database tables
             updated within the           database has not been               that are affected.
             created. Therefore, we are unable to perform an              x   Continue with plans to complete the
             analysis of the             roles and the associated                             upgrade and configure the
             tables that are affected to determine whether access is                password requirements to be in
             appropriately restricted.                                        compliance with DHS guidance.
         x   The password configurations for the               and
                               profiles will not be updated to be


                                                                         42
                Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                                                                         Appendix B
                                                 Department of Homeland Security
                                             Information Technology Management Letter
                                                        September 30, 2008


                                                                                                                                 New     Repeat    Risk
NFR #                            Condition                                               Recommendation
                                                                                                                                 Issue    Issue   Rating
             in compliance with DHS guidance until after the
                                                  upgrade. Since no
             improvements have been made in regards to the
             password configuration, we determined that the
             password configurations continue to not meet the
             following DHS requirement of having a user password
             contain at least one special character.


CG-IT-   Progress was made during FY 2008, but weaknesses still          x   Establish and enforce procedures to ensure                    X      Medium
08-27    exist. Specifically, we noted that:                                       access request forms are documented,
            x         access request forms are documented and                approved, and provided to       prior to
               approved;                                                     establishing a      user account.
            x        user accounts are revalidated annually; and
                                                                         x   Continue to develop and implement policy and
            x         access is revoked in a timely manner for               procedures for re-validating       user
               employees or contractors that have left Coast Guard or        accounts in order to meet the requirements of
               are re-assigned to other duties.                              the DHS Sensitive System Policy Directive
                                                                             4300A.
                                                                         x    Establish and enforce procedures to ensure
                                                                                    access is revoked for employees or
                                                                              contractors who leave the Coast Guard or are
                                                                              reassigned to other duties in order to meet the
                                                                              requirements of the DHS Sensitive System
                                                                              Policy Directive 4300A.
CG-IT-   Coast Guard’s controls over the scripting process remain        In order for management to assert to any financial                X       High
08-31    ineffective. Weaknesses were noted in controls over script      statement line items, Coast Guard should:
         implementation, approvals and testing, as well as active        x Continue to design, document, implement, and
         script modification. In addition, Coast Guard has not                demonstrate the effectiveness of internal
         maintained or developed a population of scripts run since            controls associated with the active (current and
         the inception of       in 2003 nor has it performed a                future) scripts.
         historical analysis of script impact on the cumulative
                                                                         x   Identify and evaluate the historical scripts (all

                                                                        43
                Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                                                                       Appendix B
                                                 Department of Homeland Security
                                             Information Technology Management Letter
                                                        September 30, 2008


                                                                                                                               New     Repeat    Risk
NFR #                            Condition                                              Recommendation
                                                                                                                               Issue    Issue   Rating
        balances in permanent accounts of the financial statements.        those implemented prior to those identified in
        Specifically:                                                      recommendation 1 above) to determine the
          x Coast Guard lacks a formal process to distinguish              financial statement impact on cumulative
             between the module lead approvers for script approval         balances in permanent accounts; and develop
             requests;                                                     and maintain supporting procedures related to
                                                                           each script.
          x The Procedures for                do not specifically
             state the testing and documentation requirements for      With respect to procedures already in place, Coast
             blanket approval scripts and this policy remains in       Guard should:
             draft form;                                               x Continue to update script policies and
          x Coast Guard does not monitor scripts run in the               procedures to include clear guidance over
             database through audit logging and has not developed         module lead approvers, testing and
             a technical solution to monitor who accesses the             documentation requirements, monitoring/audit
             database through        Navigator to run scripts or          log reviews, and blanket approval
             review what scripts are run;                                 requirements
          x The                             does not consistently      x   Finalize and implement policies and
             include all testing, approval, and implementation             procedures governing the script change control
             documentation for all scripts; and                            process including completing records within
          x Coast Guard has not completed           documentation          the                           for all executed
             for all scripts executed since their implementation.          scripts and ensuring that all scripts are tested
                                                                           in an appropriate test environment prior to
                                                                           being put into production.

                                                                       Regarding the actual scripts themselves, Coast
                                                                       Guard should:
                                                                       x Determine the root causes and specific
                                                                          detailed actions necessary to correct the
                                                                          conditions that resulted in scripts, for the total
                                                                          population of scripts run at            in order
                                                                          to develop system upgrades that would
                                                                          eliminate the use of some of the scripts.


                                                                      44
               Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                                                                     Appendix B
                                                 Department of Homeland Security
                                             Information Technology Management Letter
                                                        September 30, 2008


                                                                                                                             New     Repeat    Risk
NFR #                            Condition                                             Recommendation
                                                                                                                             Issue    Issue   Rating
                                                                       x   Continue efforts to complete an in-depth
                                                                           analysis of active scripts, with the following
                                                                           objectives:
                                                                            o All changes to active scripts and new
                                                                                 scripts should be subject to an
                                                                                 appropriate software change control
                                                                                 process to include testing, reviews, and
                                                                                 approvals.
                                                                            o All active scripts should be reviewed for
                                                                                 impact on financial statement balances.
CG-IT-   Although Coast Guard Headquarters has mandated the use        x   Finalize the procedure documentation and                    X      Medium
08-32    of       to maintain and track contracted personnel data,         communicate/distribute the procedures
         procedures surrounding this process have not been formally
         documented. As a result, we were unable to determine the      x   Continuously monitor controls over          to
         effectiveness of the controls in place for contractor             verify that contractor data within the system
         tracking.                                                         remains current and accurate.
CG-IT-   Coast Guard does not consistently notify system owners        x   Implement an automated process/system that                  X      Medium
08-33    that individuals are terminating from the Coast Guard so          will notify system owners of terminated
         that system accounts can be updated timely.                       contractor, military, and civilian personnel.
                                                                       x   Finalize and implement entity management
                                                                           policies and procedures for verifying that
                                                                           terminated user accounts have been
                                                                           successfully removed.
CG-IT-   All               are not being appropriately reviewed and    x   Reconfigure the        tool to not allow the                X      Medium
08-34    approved by management prior to                                   automatic approval of               upon
         development/deployment. In addition,            developers        creation.
         and testers are not updating information in the       tool
         in a timely manner.                                           x   Enforce established change control policies
                                                                           and procedures by reviewing and approving:
                                                                           a) all software change requests prior to
                                                                           developing the changes; b) test results; and c)
                                                                           all tested developed changes prior to

                                                                      45
                Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                                                                          Appendix B
                                                  Department of Homeland Security
                                              Information Technology Management Letter
                                                         September 30, 2008


                                                                                                                                  New     Repeat    Risk
NFR #                             Condition                                                Recommendation
                                                                                                                                  Issue    Issue   Rating
                                                                               deploying the changes into the production
                                                                               environment.
                                                                           •   Ensure that the          development and test
                                                                               staff adheres to the policies and procedures for
                                                                               updating software change control information
                                                                               within the         tool.
CG-IT-   We noted that control weaknesses still exist within the           •            : develop, implement, communicate,                  X       High
08-35    design of             s Configuration Management policies             and enforce procedures regarding how
         and procedures for          and      as well as the                   changes are to be controlled, documented,
         operating effectiveness of those controls. Our test work              tracked, and reviewed as these changes
         over the design of the change controls covered both                   progress through testing and into production.
         periods of the change control environment; however, our
         testing of operating effectiveness covered only the period        •   Coast Guard Headquarters: develop,
         of start of the fiscal year through March 2008, since there           implement, communicate, and enforce
         were no changes made to           and     from April                  procedures regarding how change control
         through the remainder of the fiscal year.                             documentation will be maintained, reviewed,
                                                                               and validated in accordance with the DHS
                                                                               Sensitive System Policy Directive 4300A.
CG-IT-   Configuration management weaknesses continue to exist             •   Implement the corrective actions for the                     X      Medium
08-36    on hosts supporting the        and                                    recommendations listed within the NFR.
         and the underlying
                                                                           •   Continue to implement polices and procedures
         Note: Due to the nature of this testing, see the tables in the        to ensure that the tested and deployed software
         NFR for the specific conditions.                                      builds include required software patches and
                                                                               have current, correct, and compliant security
                                                                               configuration settings.
CG-IT-   Security patch management weaknesses continue to exist            •   Implement the corrective actions for the                     X      Medium
08-37    on hosts supporting the        and                                    recommendations listed within the NFR.
         and
                                                                           •   Continue to implement polices and procedures
         Note: Due to the nature of this testing, see the tables in the        to ensure that the tested and deployed software
         NFR for the specific conditions.                                      builds include required software patches and
                                                                               have current, correct, and compliant security

                                                                          46
                Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                                                                           Appendix B
                                                   Department of Homeland Security
                                               Information Technology Management Letter
                                                          September 30, 2008


                                                                                                                                   New     Repeat    Risk
NFR #                              Condition                                                 Recommendation
                                                                                                                                   Issue    Issue   Rating
                                                                                 configuration settings.
CG-IT-   Although Coast Guard Headquarters is in the process of              x   Perform initial background investigations and               X      Medium
08-40    completing background investigations for all civilian                   re-investigations for civilian employees in
         employees, this has not been completed. Additionally,                   accordance with position sensitivity
         Coast Guard has set its position sensitivity designations to            designations at no less than the Moderate level
         Low for the majority of its employees. However, DHS                     as required by DHS directives; and
         requires position sensitivity designations no less than
         Moderate which equates to          . Therefore, we                  x   Conduct civilian background re-investigations
         determined that the conditions noted in prior year NFR CG-              every ten (10) years, as required by DHS
         IT-07-40 have not been remediated.                                      directives, to ensure that each employee has a
                                                                                 favorably adjudicated and valid       .
CG-IT-              has not completed the risk assessment for the             Finalize and implement             Package for the             X       Low
08-41                and the                                     is still                  in accordance with DHS and NIST
         in draft form.                                                                            guidance.
CG-IT-   During prior financial statement audits dating back to FY           x Continue to implement, improve, and                           X       High
08-42    2003, we noted that implementation and oversight of the                 monitor compliance with DHS, Coast
         Coast Guard’s information security policy and procedures                Guard, and Federal security policies and
         was fragmented among the organizations responsible for                  procedures in the areas of Change Controls
         operating various applications/systems. In FY 2008,                 x Continue to improve and monitor
         significant improvements have been made in some areas,                  compliance with DHS, Coast Guard, and
         however, improvements are still warranted at the Coast                  Federal security policies and procedures in
         Guard data centers/locations that operate and process key               the areas of:
         Coast Guard financial information. Improvements are                     - Access Controls
         needed especially in the areas of change control and to a               - Entity-wide Security Planning
         lesser extent access to data and programs. These two key                - Service Continuity
         areas were the subject of significant findings identified and           - Segregation of Duties
         recommendations that were made during the audit.                        - System Software
                                                                                 - Application Controls
         As a result of our audit test work and supported by all the
                                                                             x Develop and implement corrective action
         IT NFRs issued during the current year, we determined that
                                                                                 plans to address and remediate the NFRs
         Coast Guard is non-compliant with the Federal Financial
                                                                                 issued during the FY 2008 audit. These
         Management Improvement Act (FFMIA).
                                                                                 corrective action plans should be developed


                                                                            47
                 Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                                                                      Appendix B
                                                 Department of Homeland Security
                                             Information Technology Management Letter
                                                        September 30, 2008


                                                                                                                              New     Repeat    Risk
NFR #                            Condition                                            Recommendation
                                                                                                                              Issue    Issue   Rating
                                                                          from the perspective of the identified root
                                                                          cause of the weakness. In addition, the IT
                                                                          NFRs should not be assessed as individual
                                                                          issues to fix, but instead, should be assessed
                                                                          collectively based upon the area where the
                                                                          weakness was identified. This approach
                                                                          would enable a corrective action that would
                                                                          be more holistic in nature, thereby leading to
                                                                          a more efficient and effective process of
                                                                          fixing the controls that are not operating
                                                                          effectively.
CG-IT-   During our testwork over                 access accounts,    x   Implement and document the            user access    X               Medium
08-43    we noted that controls over user account authorizations          review procedures to include all         access
         were not operating effectively, and controls over user           privileges and include supervisors in each
         account reviews were not operating effectively.                  review.
                                                                      x   Update procedures to ensure that a
                                                                          documented and approved access
                                                                          authorization request is completed for each
                                                                          individual prior to granting him/her access to
                                                                          the                 applications or databases.




                                                                     48
                Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                         Appendix B
                          Department of Homeland Security
                      Information Technology Management Letter
                                 September 30, 2008




                 Department of Homeland Security
                  FY2008 Information Technology
      Notification of Findings and Recommendations - Detail


                 Federal Emergency Management Agency




                                         49
Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                                                                 Appendix B
                                                  Department of Homeland Security
                                              Information Technology Management Letter
                                                         September 30, 2008


                                                Department of Homeland Security
                                                 FY2008 Information Technology
                                     Notification of Findings and Recommendations - Detail

                                              Federal Emergency Management Agency

                                                                                                                                           Risk
NFR #                     Condition                                      Recommendation                        New Issue   Repeat Issue
                                                                                                                                          Rating
FEMA-    The          application database instance is    FEMA should implement the corrective actions                          X          High
IT-08-           and the          application database    listed in the NFR for each technical control
  02     instance is         . Specifically, servers      weakness identified.
         were identified with password and auditing
         configuration weaknesses.
FEMA-            accounts did not complete a new          Ensure that the OCFO Procedures for Granting                          X         High
IT-08-   FEMA Form 20-24 in response to the               Access to         are consistently followed by
  03     recertification process                          continuing to perform and document a review of
                                                          all        accounts in accordance with DHS
                                                          policy, including supervisor verification of all
                                                          access privileges granted through the submission
                                                          of a new FEMA Form 20-24 by all federal
                                                          employees and contractors.
FEMA-    We noted that FEMA has made a                    We recommend that FEMA develop and                                    X          Low
IT-08-   management decision not to develop               implement policies and procedures documenting
  06     policies and procedures over the                 the process of adding, deleting, and modifying
         modification of         account functions                system functions to ensure that the proper
         until the new        system upgrade occurs.      controls are in place for modifying user account
         We noted that FEMA has reported in the           privileges.
         Plan of Action and Milestones that they
         expect to address corrective action for this
         weakness in FY 2010. As a result, a
         formalized process does not exist to guide
                                           staff in the
         modification of the system to ensure that
         appropriate privileges are created,

                                                                       50
                 Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                                                                      Appendix B
                                                   Department of Homeland Security
                                               Information Technology Management Letter
                                                          September 30, 2008


                                                                                                                                                Risk
NFR #                      Condition                                        Recommendation                          New Issue   Repeat Issue
                                                                                                                                               Rating
         documented, and approved for a specific
         function.
FEMA-    FEMA informed us that the automated               •    Dedicate resources to complete the review of                         X         Medium
IT-08-   manager certification process has not yet                        user access for FY 2008 and conduct
  12     begun. Therefore, the FY 2008                          subsequent annual reviews of                 user
         recertification has not been completed and             access by performing the management
         the risk of unauthorized users accessing               certification process in accordance with
                  was present for a majority of the             FEMA and DHS policies and procedures.
         fiscal year.                                      • Fully implement the policies and procedures in
                                                                place for the             recertification process
                                                                and retain auditable records, in accordance
                                                                with DHS Policy, that provide evidence that
                                                                recertifications are conducted and completed
                                                                periodically with timeliness.
FEMA-    We were informed that terminated                  Ensure that policies and procedures over removal                          X          High
IT-08-   users are to have the “                  ” role   of separated user access to          and          are
  13     applied to their account profile prior to         consistently followed by removing accounts for
         being removed from the application, which         any separated users immediately upon notification
         overrides all existing roles and deactivates      of separation according to FEMA, DHS and NIST
         any existing privileges within the                guidance.
         application although the individual can still
         log into the account. However, FEMA
         Instruction 2200.7 specifies that personnel
         separating from FEMA shall have all
         access privileges cancelled and their user
         account removed. Consequently, although
         the risk is mitigated by the limited access
         rights on the accounts with the
         “                   privilege, those six
         accounts demonstrate that the policies and
         procedures surrounding the
         terminated user process are not consistently
         applied and the accounts have not been

                                                                         51
                 Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                                                                Appendix B
                                                 Department of Homeland Security
                                             Information Technology Management Letter
                                                        September 30, 2008


                                                                                                                                          Risk
NFR #                    Condition                                      Recommendation                        New Issue   Repeat Issue
                                                                                                                                         Rating
         removed. Additionally, four (4) out of the
         ten (10) accounts remained on the
         system with an active status.


FEMA-    There is no documented evidence to support     We recommend that FEMA establish a process                             X         Medium
IT-08-   that monitoring of the “          directory    within existing procedures for retaining
  17     and sub-directories is occurring.              documented evidence that the “            directory
                                                        and sub-directories are being monitored to verify
                                                        that only authorized changes are implemented into
                                                        production.
FEMA-    While FEMA informed us that system             We recommend that FEMA’s process for                                   X         Medium
IT-08-   software activity is logged, we were unable    monitoring sensitive access and suspicious activity
  19     to obtain evidence that the audit logs were    on          system software include retention of
         reviewed on a periodic basis.                  evidence that audit records are proactively
                                                        reviewed.
FEMA-    Per inspection of the POA&M, we noted          x Complete on-going efforts to fully establish                         X          High
IT-08-   that corrective action was initiated by             and implement an alternate processing site for
  22     FEMA to implement an alternate processing           the         system according to the DHS
         facility for         but that the alternate         Sensitive System Policy Directive 4300A.
         site has not been established.
                                                        x   Ensure that redundant servers are created at
         Due to the magnitude of the project scope,         the alternate processing site for the
         implementation of an alternate processing          servers located at the
         site will not be achieved within twelve (12)                                       during
         months. Consistent with DHS policy for             implementation of the center as the alternate
         corrective actions that cannot be                  processing site.
         implemented within twelve (12) months, a
         DHS IT Security Program Waiver (number
                                                        x   Update the existing waiver, as required, in
         WR-2008-012) was approved by the DHS
                                                            accordance with effective DHS policy
                in March 2008 to provide FEMA with
                                                            regarding waivers and ensure that
         additional time to plan and develop an
                                                            compensating controls described in the waiver
         effective alternate processing site for

                                                                      52
                Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                                                              Appendix B
                                                Department of Homeland Security
                                            Information Technology Management Letter
                                                       September 30, 2008


                                                                                                                                        Risk
NFR #                    Condition                                      Recommendation                      New Issue   Repeat Issue
                                                                                                                                       Rating
                   Per DHS policy, the waiver must          are effective and documentation of their
         be reviewed, updated, and re-approved by           effectiveness is maintained as auditable
         the appropriate management officials every         records.
         six (6) months.

         As required by DHS policy, the approved
         waiver describes the mitigating efforts,
         management’s acceptance of the associated
         residual risk, and a plan for attaining
         compliance with DHS policy. The waiver
         also documents the compensating controls
         to mitigate risk until the alternate
         processing site is implemented. The
         compensating controls are to be derived by
         conducting annual table-top exercises and
         ensuring that regular backups of critical
                  data and offsite backup storage are
         performed. However, a fully successful
         table top test of          has not been
         conducted for FY 2008. The waiver
         granted provides an extension of time to
         implement corrective action, but the
         associated risk still remains.
FEMA-            system administrators conducted ad     We recommend that FEMA develop and                                   X          Low
IT-08-   hoc backup tape restores for system users      implement procedures to periodically test the
  23     and performed a full database restore in              backups in accordance with the DHS
         March 2008 during a server upgrade.            Sensitive System Policy Directive 4300A.
         However, there was no evidence that
         quarterly testing was conducted or that
         FEMA has a formalized process to test
         backup tapes more frequently than annually.
FEMA     We noted that the tape restore schedule        We recommend that FEMA periodically test                             X          Low
IT-08-   requires quarterly testing of backup tapes            backups on a quarterly basis in compliance

                                                                     53
                Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                                                                 Appendix B
                                                  Department of Homeland Security
                                              Information Technology Management Letter
                                                         September 30, 2008


                                                                                                                                           Risk
NFR #                    Condition                                      Recommendation                         New Issue   Repeat Issue
                                                                                                                                          Rating
  24     beginning no earlier than FY 2009.             with FEMA and DHS policy.

         Additionally, we determined that the
                  Contingency Plan was not tested
         and consequently a full          backup tape
         restore did not occur in FY 2008. Rather,
                  system administrators conducted ad
         hoc backup tape restores at the request of
         system users during the fiscal year.


FEMA-    Due to the magnitude of the project scope to   x   Continue to dedicate resources towards                              X         Medium
IT-08-   establish a “real-time” alternate processing       completing on-going corrective actions to
  25     site for          FEMA was unable to               implement a “real-time” alternate processing
         implement corrective actions to fully              site for
         remediate the prior year finding within
         twelve (12) months. Consistent with DHS        x   Update the existing waiver, as required, in
         policy for findings that cannot be                 accordance with effective DHS policy
         remediated within twelve (12) months, a            regarding    waivers    and    ensure    that
         DHS IT Security Program Waiver (number             compensating controls described in the waiver
         WR-2008-012) was approved by the DHS               are effective and documentation of their
         Chief Information Security Officer in              effectiveness is maintained as auditable
         March 2008 to provide FEMA with                    records.
         additional time to plan and develop an
         effective alternate processing site for
                                                        x   In the event that an updated waiver is denied
                    Per DHS policy, the waiver must
                                                            or when the alternate processing site is
         be reviewed, updated, and re-approved by
                                                            established, conduct documented annual tests
         the appropriate management officials every
                                                            of the            contingency plan that address
         six (6) months. The waiver identifies that
                                                            all critical phases of the plan.
         until the alternate processing site is
         implemented and full scale testing can be
         conducted, compensating controls will be       x   Update the          contingency plan based on
         implemented by conducting annual table-            the lessons learned from table top or full-scale


                                                                     54
                Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                                                              Appendix B
                                                Department of Homeland Security
                                            Information Technology Management Letter
                                                       September 30, 2008


                                                                                                                                        Risk
NFR #                     Condition                                     Recommendation                      New Issue   Repeat Issue
                                                                                                                                       Rating
         top exercises.                                     testing results, as necessary.

         Additionally, at the close of our audit test
         work, we determined that annual table top
         testing had not been conducted and
         documented. We determined that the most
         recently conducted table top review of
                  contingency plan occurred on July
         21, 2007 and was conducted for processes,
         procedures, and scenarios identified in the
         contingency plan dated June 29, 2007. We
         noted that the documented results of the
         July 2007 test stated that FEMA was unable
         to successfully complete steps that were
         planned to be conducted during the
         Recovery Procedure Activation phase due
         to material weaknesses and deficiencies
         cited in the Recovery procedures.
FEMA-    During our FY 2008 follow up test work,        We recommend that FEMA, in accordance with                           X         Medium
IT-08-   we tested a selection of 40          non-      DHS and FEMA policy, ensure that
  28     emergency application level         that had   non-emergency application level changes obtain
         occurred since October 1, 2007. Of the 40      all required approvals prior to implementation
                tested, we noted the following          into production and that testing documentation is
         exceptions:                                    appropriately retained.
              x 29          did not have testing
                   documentation attached to the

             x    36       did not obtain Technical
                  Development Laboratory (TDL)
                  approval; and
             x    32       did not obtain Technical
                  Review Committee (TRC)
                  approval

                                                                      55
                 Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                                                                   Appendix B
                                                 Department of Homeland Security
                                             Information Technology Management Letter
                                                        September 30, 2008


                                                                                                                                             Risk
NFR #                     Condition                                      Recommendation                          New Issue   Repeat Issue
                                                                                                                                            Rating
FEMA-    We noted that TRC approvals for                 We recommend that FEMA, in accordance with                               X         Medium
IT-08-   application level emergency changes did not     DHS and FEMA policy, ensure that
  29     consistently follow FEMA and DHS                application level emergency changes obtain all
         guidance. Specifically, we determined that      required approvals prior to implementation into
         of 25 emergency             changes selected    production and that testing documentation is
         for testing:                                    appropriately retained.
              x 22 changes did not have
                   documented TRC approval;
              x 4 did not gain          approval prior
                   to implementation into production;
              x 16 did not gain TDL approval; and
              x 6 did not have related testing
                   documentation attached.
FEMA-    We were referred to Section 2.2.1 of the        We recommend that          document                                      X         Medium
IT-08-                Administrative Manual as           duties that are incompatible and develop and
  38     guidance on segregating incompatible            implement policies and procedures for properly
         duties. Based on our review of the manual,      segregating incompatible duties within the system.
         we noted that it does not include policies
         and procedures regarding segregating
         incompatible duties within            .
         Additionally, while we noted that system
         roles and responsibilities have been
         documented,             duties are
         incompatible are not documented. As a
         result, prior year NFR FEMA-IT-07-38 is
         re-issued.
FEMA-    During our test work, we noted that a           x   Update and test the                 Contingency                      X         Medium
IT-08-   planned update and subsequent testing of            Plan, covering all critical phases of the plan in
  39     the            Contingency Plan was not             accordance with DHS policy. In addition,
         conducted and that system fail over                 NFIP should conduct a test of the system fail-
         capability at the alternate processing site         over capability at the alternate processing site.
         had not been tested. Additionally, the NFIP     x   Revise the Disaster Recovery and Continuity


                                                                       56
                Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                                                                       Appendix B
                                                    Department of Homeland Security
                                                Information Technology Management Letter
                                                           September 30, 2008


                                                                                                                                                 Risk
NFR #                      Condition                                        Recommendation                           New Issue   Repeat Issue
                                                                                                                                                Rating
         Disaster Recovery and COOP was not                     of Operation Plan to incorporate the
         updated to include the                                 and          alternate processing facility and the
         alternate processing facility or                               critical data files, as well as update the
         critical data files and restoration priorities.        plans with lessons learned from the testing.
FEMA-             User Access is not Managed in            x In support of the OCFO Procedures for                      X                       High
IT-08-   Accordance with Account Management                     Granting Access to              continue to ensure
  45     Procedures                                             the process for granting or modifying access is
                                                                monitored and that changes made to user
                                                                profiles outside of the recertification process
                                                                are documented and authorized by supervisors,
                                                                program managers, and COTRs.
                                                           x Ensure that the               Database User Access
                                                                Instruction is implemented consistently by
                                                                requiring that all existing and new
                                                                users complete a current
                                                                           User Access Form.
                                                           x Complete             the       development        and
                                                                implementation of policies and procedures
                                                                over periodic recertification of all user access
                                                                to the                      database, and retain
                                                                auditable records in accordance with DHS
                                                                polices and procedures as evidence that
                                                                recertifications are conducted and completed
                                                                periodically with timeliness.
FEMA-    The existing MOU with the Department of           We recommend that FEMA complete the review,                  X                        Low
IT-08-   Treasury expired in October 2007.                 reauthorization, and re-issuance of a current
  46                                                       and       between the Treasury           and FEMA.
FEMA-    Based upon our review, we determined              Complete the reauthorization and reissuance of a             X                        Low
IT-08-   that the     between FEMA and                     renewed         between FEMA                 and ensure
  47     expired in July 2007 and has not been             that the       is subsequently reviewed, updated as
         reauthorized and reissued, as required by         necessary, and reissued timely, as required by DHS
         DHS policy.                                       policy and/or the terms of the agreement.


                                                                         57
                 Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                                                             Appendix B
                                                Department of Homeland Security
                                            Information Technology Management Letter
                                                       September 30, 2008


                                                                                                                                       Risk
NFR #                    Condition                                     Recommendation                      New Issue   Repeat Issue
                                                                                                                                      Rating
FEMA-    The vulnerabilities identified from the        We recommend that FEMA implement a process            X                       Medium
IT-08-          scans are not reported and tracked      to ensure that weaknesses identified during
  48     via DHS’ POA&M process.                        vulnerability assessment scans of            are
                                                        formally reported and that associated corrective
                                                        actions are developed and tracked via DHS’
                                                        POA&M process.
FEMA-    We noted that the software was improperly      Action was taken to correct this weakness during      X                       Medium
IT-08-   configured so that the user’s ability to       the audit period. No further recommendation is
  49     change the following settings had not been     required.
         disabled:
             x                                    for
                  automatically scanning system
                  files for threats, known viruses,
                  and worms on a continuous basis
                  when Windows is started;
             x
                  for automatically scanning Outlook
                  and/or Outlook Express messages
                  for viruses.
             x                                    for
                  automatically scanning incoming
                  and     outgoing    Lotus    Notes
                  messages; and
             x                                    for
                  scanning all incoming and
                  outgoing e-mail messages other
                  than Outlook and/or Outlook
                  Express.
FEMA-    We performed test work over audit              We recommend that FEMA, in accordance with            X                       Medium
IT-08-   logging on the        application and          FEMA and DHS policy, continue to implement
  50     Oracle database. Based upon inquiry and        procedures over audit logging processes for the
         inspection of documentation, we                        application and database and retain
         determined that on a daily basis, an           evidence that audit records are proactively

                                                                     58
                Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                                                                Appendix B
                                                  Department of Homeland Security
                                              Information Technology Management Letter
                                                         September 30, 2008


                                                                                                                                          Risk
NFR #                     Condition                                    Recommendation                         New Issue   Repeat Issue
                                                                                                                                         Rating
         automated report is generated and emailed     reviewed.       Specifically, the evidence should
         to the Database Administrators (DBA)          provide a record of review that at a minimum notes
         and FSS personnel for review. However,        the identity of the individual that reviewed the log
         while this report is distributed for review   (e.g. initials), the date of review, and follow up
         by the DBAs and FSS staff, no evidence        actions taken, if required.
         that the reviews are conducted is retained.

         Additionally, we noted that while FEMA
         Instruction 2200.7,         User Access
         Instruction, assigns the responsibility of
         conducting this weekly review to FSS,
         FEMA personnel do not formally
         document that the review is conducted.
FEMA-    We noted that the Standard Operating          We recommend that FEMA revise existing                    X                        High
IT-08-   Procedure (SOP) does not                      procedures for           audit logging to include a
  51     comprehensively address requirements of       review of highly-privileged and administrator-level
         FEMA Directive 140-1, FEMA                    activities as required by FEMA and DHS policy
         Information Technology Security Policy.       and ensure implementation of all requirements,
         Specifically, the SOP does not require the    including retention of evidence of reviews of audit
         monitoring of modifications to account        logs.
         tables and other highly-privileged and
         administrator-level activities.

         Additionally, we noted that the SOP
         requires database administrators to initial
         and retain printed logs as evidence that
         reviews are conducted as required.
         However, FEMA informed us that this
         portion of the SOP was not being
         performed.
FEMA-    Finalization and implementation of the        We recommend that FEMA finalize and                       X                       Medium
IT-08-                                       SOP -     implement procedures that define the timeframe in
  52     FEMA                                          which security patches should be installed.

                                                                     59
                 Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                                                                Appendix B
                                                  Department of Homeland Security
                                              Information Technology Management Letter
                                                         September 30, 2008


                                                                                                                                          Risk
NFR #                     Condition                                      Recommendation                       New Issue   Repeat Issue
                                                                                                                                         Rating
                                which specifies the
         timeframe for installing security patches,
         has been delayed due to organizational
         changes.
FEMA-    Upon inspection of the           SSP that is a                                                          X                       Medium
IT-08-   part of the       package; we noted that the     We recommend that FEMA ensure that
  53     server and host names listed in Appendix B       SSP is updated in accordance with DHS policy so
         of the SSP are not accurate. Specifically,       that current system components and system owners
         the listing of system components is not          are comprehensively documented in the plan.
         comprehensive and portions of information,
         such as system owners, are not up to date.
FEMA-    In FY 2008, we determined that NFIP had          We recommend that NFIP ensure that testing             X                       Medium
IT-08-   documented and implemented the                   documentation    for             changes   is
  54                                                  .   documented and retained on file in accordance
         During the audit, we determined that two         with DHS policy.
         (2)           changes had been implemented
         since October 1, 2007. We obtained change
         documentation for both changes and noted
         that testing documentation was not retained
         for these changes.
FEMA-    During our FY 2008 test work, we noted           We recommend that NFIP ensure that testing of all      X                       Medium
IT-08-   that NFIP documented and implemented the         changes are documented and retained on file in
  55                                                      accordance with DHS and NFIP requirements.
                                  Control     Unit
         Procedures that provide guidance on
         implementing changes into the production
         environment. We selected for testing eight
         (8)           changes that had been
         implemented since October 1, 2007. Of the
         eight (8) tested, we identified that test
         results were not available for one (1)
         change.



                                                                       60
                Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                         Appendix B
                          Department of Homeland Security
                      Information Technology Management Letter
                                 September 30, 2008




                Department of Homeland Security
                 FY2008 Information Technology
     Notification of Findings and Recommendations – Detail


                                    Consolidated




                                         61
Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                                                                   Appendix B
                                               Department of Homeland Security
                                           Information Technology Management Letter
                                                      September 30, 2008


                                              Department of Homeland Security
                                               FY2008 Information Technology
                                   Notification of Findings and Recommendations – Detail

                                                                Consolidated

                                                                                                                             Repeat        Risk
 NFR #                         Condition                                      Recommendation                     New Issue
                                                                                                                              Issue       Rating
CONS-IT-   Controls have not been implemented to detect and       x    Establish controls to detect and                         X         Medium
 08-07     identify the actions taken with                             identify the actions taken with the
                             by non-database administration                                                 by
           personnel                                                    non-database administration
                                                                        personnel.
           Audit logs are only reviewed on an as needed basis     x     Ensure that:
           by database administrators or personnel with              o The            database supporting
           database administrator access.                                       is configured to capture all
                                                                          access attempts;
                                                                     o An individual independent of the
                                                                          personnel administering         is
                                                                          tasked with the responsibility for
                                                                          reviewing system audit trails on a
                                                                          regular basis.
                                                                     o The review of audit logs is
                                                                          documented to provide audit
                                                                          evidence of review.
                                                                     o The audit log files are retained
                                                                          and archived in accordance with
                                                                          DHS policy.
CONS-IT-   We determined that Treasury has not sufficiently       We recommend that the DHS OFM                                X          Medium
 08-11     documented evidence of the completion of               independently verify, on an ongoing
           application-level change management steps using the    basis, that Treasury performs adequate
           SCR process.                                           integration testing for all        changes
                                                                  and maintains documentation of testing as


                                                                      62
                Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                                                           Appendix B
                                              Department of Homeland Security
                                          Information Technology Management Letter
                                                     September 30, 2008


                                                                                                                     Repeat         Risk
 NFR #                        Condition                                 Recommendation                   New Issue
                                                                                                                      Issue        Rating
                                                             audit evidence.
CONS-IT-   We noted that emergency changes procedures have    x Maintain supporting documentation                      X            Low
 08-12     been documented. However, we determined that            for each               change. At a
           OFM and Treasury did not properly document the          minimum, the following
           necessary approvals and testing for one of six          documentation should be maintained
           selected             changes.                           for each change: change request,
                                                                   change request approval, evidence
                                                                   of testing, final approval.
                                                              x Independently verify that Treasury
                                                                   is following the change control
                                                                   process as required and maintaining
                                                                   supporting documentation for each
                                                                   change.




                                                               63
                Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                         Appendix B
                          Department of Homeland Security
                      Information Technology Management Letter
                                 September 30, 2008




                Department of Homeland Security
                 FY2008 Information Technology
     Notification of Findings and Recommendations – Detail


                                        OCIO




                                         64
Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                                                            Appendix B
                                                Department of Homeland Security
                                            Information Technology Management Letter
                                                       September 30, 2008


                                               Department of Homeland Security
                                                FY2008 Information Technology
                                    Notification of Findings and Recommendations – Detail

                                                                  OCIO

                                                                                                                        Repeat      Risk
 NFR #                          Condition                                    Recommendation                 New Issue
                                                                                                                         Issue     Rating
OCIO-IT-   There is no formal agreement in place between the      We recommend that the DHS OCIO               X                   Medium
 08-01     DHS and the United States Navy (Navy) at               ensure that DHS and the Navy document
                         outlining DHS’ and the Navy’s            an Memorandum of
           responsibility for the services provided by the Navy   Agreement/Memorandum of
           at                                                     Understanding (MOA/MOU) outlining
                                                                  CBP’s specific requirements for their
                                                                  business continuity facility and ensure
                                                                  that the agreement is complete, signed
                                                                  and up-to-date.
OCIO-IT-   Through inquiry with OCIO personnel, we                We recommend that the DHS OCIO               X                   Medium
 08-02     determined that the DHS       has not been             finalize          .
           finalized.




                                                                    65
                Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                         Appendix B
                          Department of Homeland Security
                      Information Technology Management Letter
                                 September 30, 2008




                 Department of Homeland Security
                  FY2008 Information Technology
      Notification of Findings and Recommendations - Detail

             Federal Law Enforcement and Training Center




                                         66
Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                                                                 Appendix B
                                                 Department of Homeland Security
                                             Information Technology Management Letter
                                                        September 30, 2008


                                               Department of Homeland Security
                                                FY2008 Information Technology
                                    Notification of Findings and Recommendations – Detail

                                         Federal Law Enforcement and Training Center

                                                                                                                                           Risk
NFR #                       Condition                                     Recommendation                       New Issue   Repeat Issue
                                                                                                                                          Rating
FLETC-    FLETC finalized and approved the Financial       We recommend that FLETC Ensure that access                           X         Medium
 IT-08-   Management System Configuration                  to the            program libraries is limited to
   01     Management Standard Operating Procedures,        only the Administrators group.
          which detail testing procedures. This prior
          year condition will be reissued as the
          weakness has been in place for the majority of
          the fiscal year.

          The access group, “                     ” has
          modify, read, execute, and write access to the
                       application program libraries. We
          determined that this gives all FLETC domain
          level users modify read, execute, and write
          access to the             application program
          libraries.




                                                                    67
                 Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                                                                   Appendix B
                                                  Department of Homeland Security
                                              Information Technology Management Letter
                                                         September 30, 2008


                                                                                                                                             Risk
NFR #                       Condition                                       Recommendation                       New Issue   Repeat Issue
                                                                                                                                            Rating
FLETC-    FLETC finalized and approved the Financial         x   Continue with the projected plan for                             X         Medium
 IT-08-   Management System Configuration                        decommissioning the
   02     Management Standard Operating Procedures,              application.    Develop and implement
          which detail testing procedures. This prior            policies and procedures over the
          year condition will be reissued as the                 configuration management process for
          weakness has been in place for the majority of         Prism application level changes;
          the fiscal year.
                                                             x   Ensure that access to the
          Due to the decommissioning of the                              program libraries is limited to only
          application, we learned that FLETC has not             the Administrators group.
          developed policies and procedures for
                        Desktop bug fixes and
          enhancements. This prior year condition will
          be reissued as the weakness has been in place
          for the majority of the fiscal year.

          All FLETC domain level users
          inappropriately have modify, read, execute,
          and write access to the

FLETC-    The installation of             system             We      recommend       that    FLETC,      upon                     X         Medium
 IT-08-   software is not currently logged or reviewed       implementation of the        system, enable audit
   03     by FLETC management.                               logging over the installation of
                                                             system software and ensure that logs are
                                                             maintained and proactively reviewed by
                                                             management.
FLETC-    The SDLC for               is currently in draft   1 Finalize and implement a SDLC                                      X         Medium
 IT-08-   form.                                                  methodology guide for               , FLETC
   04                                                            Directive and FLETC Manual. Ensure that
                                                                 security planning has been incorporated
                                                                 throughout the life cycle;

                                                             2   Ensure that the SDLC methodology is

                                                                      68
                 Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                                                                       Appendix B
                                                 Department of Homeland Security
                                             Information Technology Management Letter
                                                        September 30, 2008


                                                                                                                                                 Risk
NFR #                        Condition                                       Recommendation                          New Issue   Repeat Issue
                                                                                                                                                Rating
                                                                  promulgated to all personnel involved in the
                                                                  design, development, and implementation
                                                                  process of the SDLC methodology.
FLETC-    We determined that FLETC has begun to               Consistently apply the new CIO Backup SOP                               X         Medium
 IT-08-   implement corrective actions to address the         and periodically test the            server level
   05     prior year finding; however we learned that         and        database backups at least annually in
          FLETC                 server level and              compliance with the DHS Sensitive System
          database backups are not periodically tested.       Policy Directive 4300A.
          Additionally, we noted that procedures or a
          testing schedule are not in place for
                              level and         database
          backups.
FLETC-    The              contingency plan has not           x   Perform corrective action over the                                  X         Medium
 IT-08-   been fully tested. We determine that the                            Contingency Plan test results
   06     recovery and resumption procedures were not             and update the plan accordingly.
          tested during the table-top test of the             x Perform a test over the
                       contingency plan.                          Contingency Plan, covering all critical
                                                                  phases of the plan, on an annual basis.
FLETC-    The FLETC Computer Security Operations              No recommendation will be offered as the                                X         Medium
 IT-08-   Center and Computer Security Incident               condition was mitigated during the fiscal year
   07     Response Capability SOP, is currently in draft
          form. Additionally, we noted that incidents
          are not tracked from inception to resolution in
          an incident response management system.
FLETC-    We noted that incompatible duties over              Continue with the         projected   plan       for                    X          Low
 IT-08-                          have been identified and     decommissioning the
   08     that the                         administrator is   application.
          no longer a procurement approver. However,
          policies and procedures have not been
          developed to segregate incompatible duties.




                                                                       69
                 Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                                                                      Appendix B
                                                  Department of Homeland Security
                                              Information Technology Management Letter
                                                         September 30, 2008


                                                                                                                                                Risk
NFR #                        Condition                                        Recommendation                        New Issue   Repeat Issue
                                                                                                                                               Rating
FLETC-    We determined that the procedures for granting       x   Document access procedures within the                             X          Low
 IT-08-   access to the                    had not been                                          , including the
   09     documented and no user authorization form is             use of a user authorization form;
          used and maintained for access requests.             x   Update the                                  to
                                                                   include access granting procedures as well
          We noted that no documented procedures on re-            as re-entry procedures, and;
          entry into the facility after an emergency exist.
                                                               x   Perform training for                     staff
          FLETC also advised that all personnel on the
                                                                   and regular visitors over emergency
                              access listing and regular
                                                                   procedures pertaining, but not limited to
          visitors to the                  are provided fire
                                                                   fire, water, and alarm procedures.
          suppression training. However, no supporting
                                                                   Additionally, formalize this training by
          documentation was provided to support this
                                                                   retaining documentation that all staff has
          effort.
                                                                   completed the training.




                                                                        70
                 Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                                                              Appendix B
                                                  Department of Homeland Security
                                              Information Technology Management Letter
                                                         September 30, 2008


                                                                                                                                        Risk
NFR #                        Condition                                   Recommendation                     New Issue   Repeat Issue
                                                                                                                                       Rating
FLETC-    We found that FLETC Manual (FM) 4300:            x   Continue with their projected plan for                        X         Medium
 IT-08-   Information Technology System Security               decommissioning the
   10     Program and Policy, which establishes the            application.    Additionally, develop and
          policies to be followed when an employee or          implement      procedures    over   access
          contractor is separated or terminated, is            authorizations for     ;
          currently in draft form. Additionally,
                                 does not require          x   Develop and implement procedures to
          passwords to contain a combination of upper          periodically review the list of user
          and lower case letters and special characters.       accounts;

                                                           x   Finalized and implement FM 4300:
                                                               Information Technology System Security
                                                               Program and Policy, requiring the
                                                               immediate notification of terminated or
                                                               transferred users with FLETC IT accounts;

                                                           x   Ensure that the            application to
                                                               requires a password to be a minimum of
                                                               eight characters in length and contain a
                                                               combination of alphabetic, numeric, and
                                                               special characters to be in compliance
                                                               with the DHS Sensitive System Policy
                                                               Directive 4300A.
FLETC-    We determined that the FLETC Directive           No recommendation will be offered as the                          X          Low
 IT-08-   (FD) 4320: IT System Security Awareness          condition was mitigated during the fiscal year
   11     and Training is in draft form.




                                                                    71
                 Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                                                                  Appendix B
                                                Department of Homeland Security
                                            Information Technology Management Letter
                                                       September 30, 2008


                                                                                                                                            Risk
NFR #                       Condition                                      Recommendation                       New Issue   Repeat Issue
                                                                                                                                           Rating
FLETC-    We determined that FLETC is in the process        We recommend that FLETC finalize and update                          X          Low
 IT-08-   of refining the FD/FM 4300 to be in               FD/FM 4300 based on the most recent version
   12     accordance with the DHS Sensitive System          of the DHS Sensitive System Policy Directive
          Policy Directive 4300A.                           4300A and implement the policy, which
                                                            provides policies and procedures over the
                                                            authorization and use of mobile code
                                                            technologies.
FLETC-    We determined that FLETC has developed            Finalize and implement “FM 4300: Information                         X          Low
 IT-08-   policies and procedures to proactively monitor    Technology System Security Program and
   13     sensitive access to system software utilities     Policy,” which provides policies and procedures
          for              in the “FM 4300: Information     to proactively monitor sensitive access to system
          Technology System Security Program and            software utilities for           .
          Policy.” However, we noted that this policy is
          in draft form.
FLETC-    We determined that FLETC has developed            Finalize and implement “FM 4300: Information                         X          Low
 IT-08-   policies for restricting access to                Technology System Security Program and
   14     system software in the “FM 4300: Information      Policy,” which provides policies for restricting
          Technology System Security Program and            access to           system software;
          Policy.” However, we noted that this policy is
          in draft form.
FLETC-    We noted that FLETC has developed policies        x   Finalize and implement the “FM 4300:                             X          Low
 IT-08-   for the segregation of duties in the, “FM 4300:       Information Technology System Security
   15     Information Technology System Security                Program and Policy,” which provides
          Program and Policy.” However, we noted that           policies for segregation of duties in
          the policy is currently in draft form.                             .




                                                                     72
                 Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                                                                 Appendix B
                                                 Department of Homeland Security
                                             Information Technology Management Letter
                                                        September 30, 2008


                                                                                                                                           Risk
NFR #                       Condition                                      Recommendation                      New Issue   Repeat Issue
                                                                                                                                          Rating
FLETC-    We noted that FLETC has developed polices for      x   Continue to finalize and implement the “FM                     X         Medium
 IT-08-   the use of Voice Over Internet Protocol (VOIP)         4300: Information Technology System
   16     technologies,      “FM   4300:      Information        Security Program and Policy,” which
          Technology System Security Program and                 provides policies for the use of VoIP
          Policy.” However, we noted that the SOP is             technologies;
          currently in draft form.                           x   Conduct a security inspection of the
                                                                      VoIP installations by completing the
          Additionally, w learned that the security              FLETC VoIP Security Checklist.
          inspections have not been applied to all VoIP
          networks but is planned with the new

          scheduled in 2008.
FLETC-    During our FY 2008 review, we determined that      No recommendation will be offered since the                        X         Medium
 IT-08-   the FLETC has established a process where          condition was mitigated during the fiscal year.
   17     background checks and periodic reinvestigations
          for on all new and existing contractors are
          performed in a timely manner and that
          supporting documentation be maintained.
          However, we noted a weakness in that two
          outstanding users still had access to the FLETC
          network. As a result, the FLETC responded
          immediately and removed both users’ access.
          However, since the risk was present the majority
          of the fiscal year, this NFR will be reissued
          without any recommendations




                                                                      73
                 Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                                                                Appendix B
                                                 Department of Homeland Security
                                             Information Technology Management Letter
                                                        September 30, 2008


                                                                                                                                          Risk
NFR #                       Condition                                      Recommendation                     New Issue   Repeat Issue
                                                                                                                                         Rating
FLETC-    We noted that FLETC has developed polices for      x   Finalize and implement “FM 4300:                              X          Low
 IT-08-   the review of                        audit logs,       Information Technology System Security
   18     “FM 4300: Information Technology System                Program and Policy,” which provides
          Security Program and Policy.” However, we              policies for the review of audit logs;
          noted that the SOP is currently in draft form.
          Additionally, we noted that FLETC has              x   Continue with the decommissioning plan of
          continued with the decommissioning of the              the                    application.
                                 application; however it
          has not been completed.
FLETC-    In FY 2008, FLETC stated that no progress has      We recommend that FLETC configure the                             X          Low
 IT-08-   been made on this weakness.             FLETC      FLETC domain level inactivity threshold of
   20     management recommended setting policy to 5         the password protected screensaver to five (5)
          minutes for all users and then to make             minutes to be in compliance with the DHS
          exceptions as needed for trainers who need it.     Sensitive System Policy Directive 4300A.
          FLETC management has submitted an
          exception waiver to DHS to waiver from the
          DHS Sensitive System Policy Directive 4300A.
FLETC-    In FY 2008, we noted that FLETC is in the          We recommend that FLETC finalize and                              X          Low
 IT-08-   process of finalizing and implementing FM          implement FM 4300: Information Technology
   21     4300: Information Technology System Security       System Security Program and Policy, and
          Program and Policy. Therefore, since the           promulgate to all necessary users.
          recommendation has not been fully addressed,
          NFR FLETC-IT-07-21 will be re-issued.




                                                                      74
                 Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                                                                      Appendix B
                                                  Department of Homeland Security
                                              Information Technology Management Letter
                                                         September 30, 2008


                                                                                                                                                Risk
NFR #                        Condition                                        Recommendation                        New Issue   Repeat Issue
                                                                                                                                               Rating
FLETC-    FLETC has does not capture and maintain user         Continue with the         projected    plan   for                     X          Low
 IT-08-   access violations in                                 decommissioning the
   22                                                          application.
          We determined that FLETC has established a
          process which requires that all
                   users will only be granted access once
          the user access form is appropriately completed
          and subsequently approved by a supervising
          authority. Since this improvement was not in
          place for the majority of the fiscal year, the
          associated weakness will be reissued with no
          recommendation.

          We also determined that FLETC has made
          progress over the usage of prior passwords. The
          new process follows the DHS standard of eight
          iterations. Since this improvement was not in
          place for the majority of the fiscal year, the
          associated weakness will be reissued with no
          recommendation.
FLETC-    In FY 2008, we learned that FLETC has not            x   Perform a recertification of all                                  X          Low
 IT-08-   validated all users for                       .                    user access and validating the
   23     Additionally, FLETC has removed users that no            existing                        user access of
          longer have access, but, this process is not being       individuals who stated they still need
          performed consistently. Therefore, since the                                    access;
          finding has not been fully addressed, the NFR        x   Continue     to      consistently     remove
          will be re-issued.                                                              user access that is no
                                                                   longer needed.




                                                                        75
                 Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                                                               Appendix B
                                                Department of Homeland Security
                                            Information Technology Management Letter
                                                       September 30, 2008


                                                                                                                                         Risk
NFR #                       Condition                                     Recommendation                     New Issue   Repeat Issue
                                                                                                                                        Rating
FLETC-    FLETC provided the FLETC                          We recommend that the FLETC ensure that                           X          Low
 IT-08-                                                     several     updated      copies     of    the
   24                             , dated June 18, 2008.                                          Desktop
          However, the contingency plan did not             Contingency Plan is located at the Artesia,
          contain evidence to support that the document     NM site for use by contingency staff.
          is stored offsite.
FLETC-    During the FY 08 follow-up, we received the       As FLETC has effectively implemented the new                      X          Low
 IT-08-   finalized SOP 4203 IT Systems Maintenance         policies  effective     April   2008,     no
   25     Management, effective as of April 29, 2008, and   recommendation will be offered.
          4204 Anti-Virus for Servers, effective as of
          April 29, 2008. This NFR will be reissued with
          no recommendation since the condition has
          existed for the majority of the fiscal year.
FLETC-    During technical testing, configuration           x   Implement the corrective actions noted in                     X         Medium
 IT-08-   management weaknesses were identified on              the findings.
   26     hosts and databases supporting the                x   Perform periodic scans of the FLETC
                                                                network environment, including the
                                                                financial processing environment, for the
                                                                identification of vulnerabilities, in
                                                                accordance with NIST Special Publication
                                                                (SP) 800-42.
                                                            x   Implement corrective actions to mitigate
                                                                the risks associated with any
                                                                vulnerabilities identified during periodic
                                                                scans.




                                                                     76
                 Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                                                                Appendix B
                                                 Department of Homeland Security
                                             Information Technology Management Letter
                                                        September 30, 2008


                                                                                                                                          Risk
NFR #                       Condition                                       Recommendation                    New Issue   Repeat Issue
                                                                                                                                         Rating
FLETC-    During technical testing, patch management         x   Implement the corrective actions noted in                     X         Medium
 IT-08-   weaknesses were identified on hosts and                the findings.
   27     databases supporting the                           x Perform periodic scans of the FLETC
                                                         .       network environment, including the
          The fact that these vendor supplied patches            financial processing environment, for the
          have not been applied in a timely manner               identification of vulnerabilities, in
          could allow a remote attacker to gain                  accordance with NIST SP 800-42.
          unauthorized access on the host or database.
                                                             x Implement corrective actions to mitigate
                                                                 the risks associated with any
                                                                 vulnerabilities identified during periodic
                                                                 scans.
FLETC-    In FY 2008, we learned that                        Continue with the projected plan for                              X         Medium
 IT-08-              is still in production; however, no     decommissioning the
   29     backups are being tested. FLETC management
          stated       that
          decommissioning is planned for the first quarter
          of FY 08, however at the time of the audit, has
          not been completed.
FLETC-    During FY 2008 testing of controls after           No recommendation will be offered since the         X                       Medium
 IT-08-                  conversion, we determined that      weakness was remediated upon notification.
   30     four (4) support contractors and an additional
          user account used by the support contractor
          called
          access privileges within             . Based on
          notification of this weakness, FLETC
          management responded by removing the access
          as of September 24, 2008. Therefore, this
          finding will be issued with no recommendation.




                                                                      77
                 Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                                                                    Appendix B
                                                   Department of Homeland Security
                                               Information Technology Management Letter
                                                          September 30, 2008


                                                                                                                                              Risk
NFR #                         Condition                                       Recommendation                      New Issue   Repeat Issue
                                                                                                                                             Rating
FLETC-    During FY 2008, we noted that the                     We recommend that application system                 X                       Medium
 IT-08-   application will allow “3 unsuccessful attempts”      administrators review security and system-
   31     before the user will be locked out of the             related event logs on a periodic basis.
          application. The application will track these
          security violations into an audit log; however,
          the FLETC does not perform a periodic review
          of the log.
FLETC-    During FY 2008 testing of controls after              x   Evaluate the access rights for all roles         X                       Medium
 IT-08-               ’s conversion, we determined that             within              and separate the duties
   32     the segregation of duties controls were not               for the creation and payment of vouchers.
          effective. Specifically, we found that the            x   Develop a process to ensure the segregation
                         ’ role has the ability to create and       of duties between the Accountant roles is
          approve payment vouchers within                           maintained.




                                                                         78
                 Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                         Appendix B
                          Department of Homeland Security
                      Information Technology Management Letter
                                 September 30, 2008




                Department of Homeland Security
                 FY2008 Information Technology
     Notification of Findings and Recommendations – Detail


                  Transportation Security Administration




                                         79
Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                                                                      Appendix B
                                                   Department of Homeland Security
                                               Information Technology Management Letter
                                                          September 30, 2008


                                                 Department of Homeland Security
                                                  FY2008 Information Technology
                                      Notification of Findings and Recommendations – Detail

                                                Transportation Security Administration


                                                                                                                                      Repeat    Risk
NFR #                            Condition                                            Recommendation                      New Issue
                                                                                                                                       Issue   Rating
TSA-IT-   The COOP has not been updated to reflect the results        We recommend that TSA monitor                                      X      Low
08-01     of testing and the division BCPs have not been              efforts to update the COOP as the result of its
          finalized.                                                  testing and finalize the applicable supporting
                                                                      BCPs.
TSA-IT-   During the first half of the year, the contract with the    We recommend that TSA work with the DHS                           X      High
08-03                  and             software vendor was still      Chief Information Officer to ensure that Coast
          in place and no corrective action taken had taken           Guard Headquarters completes, in a timely
          place related to the prior year recommendation.             manner, the planned corrective actions of the
          Therefore, the risk of the preexisting condition was        following:
          present for the majority of the year (October 1, 2007       x Coast Guard Headquarters enhance their
          through April 1, 2008).                                          existing Configuration Management/Change
                                                                           Management policies and procedures to
          However due to the Coast Guard decision to terminate             explicitly address security configurations
          the contract with their software vendor, and the Coast           and software patches (e.g., those associated
          Guard Headquarters decision to suspend all SPRs and              with system/application “builds”, service
          SCRs until the instructions are lifted this condition did        packs, and maintenance releases) to better
          not exist beyond the date of these two events.                   ensure compliance with DHS requirements
                                                                           and NIST guidance.
                                                                      x Coast Guard Headquarters and the
                                                                           applicable Coast Guard locations
                                                                           communicate with and educate affected staff
                                                                           regarding these improved policies and
                                                                           procedures.
                                                                      x Coast Guard Headquarters develop,

                                                                        80
                 Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                                                                        Appendix B
                                                 Department of Homeland Security
                                             Information Technology Management Letter
                                                        September 30, 2008


                                                                                                                                        Repeat    Risk
NFR #                           Condition                                            Recommendation                         New Issue
                                                                                                                                         Issue   Rating
                                                                        communicate, and implement procedures to
                                                                        periodically review system changes and
                                                                        system baselines.
TSA-IT-   Coast Guard Headquarters has developed but not yet        We recommend that TSA work with the DHS                               X       High
08-05     implemented policies or procedures to require that a      Chief Information Officer to ensure that Coast
          favorably adjudicated background investigation be         Guard Headquarters completes, in a timely
          completed for all contractor personnel.                   manner, the planned corrective actions to create
                                                                    and implement contractor background
                                                                    investigation policies and procedures in order to
                                                                    establish requirements and ensure compliance with
                                                                    the DHS Sensitive System Policy Directive
                                                                    4300A. This includes the verification that all
                                                                    contracts issued by the Coast Guard include the
                                                                    appropriate Coast Guard position sensitivity
                                                                    designation requirements for contracted personnel.
TSA-IT-   The Role-Based Training for USCG Information              We recommend that TSA monitor Coast Guard                             X      Medium
08-06     Assurance Professionals Commandant Instruction is         Headquarters’ efforts to complete planned
          still in draft form and has not been fully implemented.   corrective actions to:
                                                                    x Continue efforts to finalize and implement the
                                                                        Role-Based Training for USCG Information
                                                                        Assurance Professionals Commandant
                                                                        Instruction which would require personnel
                                                                        with significant information security
                                                                        responsibilities to complete specialized role-
                                                                        based training on an annual basis.
                                                                    x    Develop and deploy this specialized role-
                                                                         based training throughout the Coast Guard.
                                                                    x    Implement the use of the        in order to
                                                                         track and verify specialized role-based training
                                                                         requirements compliance.



                                                                        81
                 Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                                                                          Appendix B
                                                   Department of Homeland Security
                                               Information Technology Management Letter
                                                          September 30, 2008


                                                                                                                                          Repeat    Risk
NFR #                            Condition                                             Recommendation                         New Issue
                                                                                                                                           Issue   Rating
TSA-IT-              is in the process of updating and finalizing      We recommend that TSA monitor that                is                  X      Low
08-13     the        Package for            Suite. The                 taking corrective action to finalize and implement
          comprehensive                      will include the major    the       Package for the        Suite in accordance
          subsystems                                                   with DHS and NIST guidance.
                        and financial supporting applications
                                         and will be used instead of
          an individual        for each system. The        also
          identifies the management controls around risk
          assessments, planning, security assessments,          ,
          and systems and services acquisition.
TSA-IT-   Of the 669 employees/contractors with current access         We recommend that TSA perform the following                          X      Medium
08-15     to the following TSA’s financial applications:               corrective actions:
                                   152 employees/contractors have      x Enforce mandatory completion of Security
          not completed the IT Security Awareness Training                 Awareness Training by holding groups
                                                                           responsible and accountable as a
                                                                           performance measure for monitoring the
                                                                           training of their employees.
                                                                       x Revoke system access of employees who do
                                                                           not complete the required annual security
                                                                           awareness training before the deadline and
                                                                           until the employees subsequently completes
                                                                           the required training.
TSA-IT-   Configuration management weaknesses continue to              We recommend that TSA work with the DHS                              X      Medium
08-18     exist on hosts supporting the       and                      Chief Information Officer to ensure that Coast
                     applications and the                              Guard’s             completes, in a timely manner,
                                                                       the planned corrective actions of the following:
          Note: See the tables in the NFR for the specific             x Implement the corrective actions noted in
          conditions.                                                      the tables above.
                                                                       x Implement polices and procedures to ensure
                                                                           that the software builds created by CG are
                                                                           tested, prior to implementation, to ensure that
                                                                           all software security configurations, such as


                                                                         82
                 Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                                                                      Appendix B
                                                 Department of Homeland Security
                                             Information Technology Management Letter
                                                        September 30, 2008


                                                                                                                                      Repeat    Risk
NFR #                           Condition                                          Recommendation                         New Issue
                                                                                                                                       Issue   Rating
                                                                                                                      ,
                                                                        are up to date.
TSA-IT-   Patch management weaknesses continue to exist on         We recommend that TSA work with the DHS                              X      Medium
08-19     hosts supporting the                                     Chief Information Officer to ensure that Coast
          applications and the                                     Guard Headquarters’ completes, in a timely
                                                                   manner, the planned corrective actions of the
          Note: See the tables in the NFR for the specific         following:
          conditions.                                              x Implement the corrective actions noted in
                                                                        the NFR.
                                                                   x Implement polices and procedures to ensure
                                                                        that the software builds created by CG are
                                                                        tested, prior to implementation, to ensure that
                                                                        all software security configurations, such as
                                                                                          .
TSA-IT-   We were unable to obtain 21 1163 Forms and 27 1402       We recommend that TSA perform the following                          X      Medium
08-20     Forms for each sample of 40. Additionally, 2 of the      corrective actions:
          13 1402 Forms received were signed after the forms       x Implement the Employee Exit Clearance
          were requested for audit.                                     Procedures by completing, certifying, and
                                                                        maintaining all forms required during the
          The IT Security Policy Handbook requires all TSA              exit process for employees and contractors.
          personnel including contractors to review and sign the
          TSA Form 1403: Computer Access Agreement.
                                                                   x    Implement the IT Security Policy Handbook
                                                                        by verifying that all TSA employees and
          However, we were unable to obtain 7 of the 25, 1403:
                                                                        contractors sign a computer access agreement
          Computer Access Agreements sampled. Of the 18
                                                                        prior to being granted system access.
          forms we obtained, 5 were dated after the sample was
          requested for audit.




                                                                       83
                 Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                                                                   Appendix B
                                                  Department of Homeland Security
                                              Information Technology Management Letter
                                                         September 30, 2008


                                                                                                                                   Repeat    Risk
NFR #                           Condition                                          Recommendation                      New Issue
                                                                                                                                    Issue   Rating
TSA-IT-   The change control policy has not been fully              We recommend TSA continue to complete and                         X     Medium
08-21     completed and implemented. CG is responsible for          implements the following sections of the
          making software changes to the                                                Change Control Policy: Build
                                , however, on March 31, 2008,       Selection Process, Software Development Process,
          CG HQ terminated its contract with the software           and Software Testing Process.
          vendor/developer for                             which
          has hindered TSA’s ability to fully complete and
          implement the                            change
          control policy.

TSA-IT-   Control weaknesses still exist within the design of       We recommend that TSA work with the DHS                          X       High
08-22     Coast Guard’s Configuration Management policies           Chief Information Officer to ensure that Coast
          and procedures for                              as well   Guard Headquarters’ completes, in a timely
          as the operating effectiveness of those controls. Our     manner, the planned corrective actions of the
          test work over the design of the change controls          following:
          covered both periods of the change control                x The              develop, implement,
          environment; however, our testing of operating                 communicate, and enforce procedures
          effectiveness covered only the period of start of the          regarding how changes are to be controlled,
          fiscal year through March 2008, since there were no            documented, tracked, and reviewed as these
          changes made to                                 from           changes progress through testing and into
          April through the remainder of the fiscal year.                production.
                                                                    x Coast Guard Headquarters develop,
                                                                         implement, communicate, and enforce
                                                                         procedures regarding how change control
                                                                         documentation will be maintained, reviewed,
                                                                         and validated in accordance with the DHS
                                                                         Sensitive System Policy Directive 4300A.




                                                                      84
                 Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                                                                      Appendix B
                                                 Department of Homeland Security
                                             Information Technology Management Letter
                                                        September 30, 2008


                                                                                                                                      Repeat    Risk
NFR #                           Condition                                           Recommendation                        New Issue
                                                                                                                                       Issue   Rating
TSA-IT-   Coast Guard’s controls over the scripting process         TSA does not have the ability to take corrective                     X      High
08-23     remain ineffective. Weaknesses were noted in controls     actions to remediate these control issues on their
          over script implementation, approvals and testing, as     own. Therefore it should be made clear that TSA
          well as active script modification. In addition, Coast    is dependent on the Coast Guard to take the
          Guard has not maintained or developed a population        necessary action. In order for management to
          of scripts run since the inception of      in 2003 nor    assert to any financial statement line items, we
          has it performed a historical analysis of script impact   recommend that TSA work with the DHS Chief
          on the cumulative balances in permanent accounts of       Financial Officer and the DHS Chief Information
          the financial statements. Specifically:                   Officer to ensure that Coast Guard Headquarters'
            x Coast Guard lacks a formal process to distinguish     completes, in a timely manner, the planned
              between the module lead approvers for script          corrective actions to:
              approval requests (Conditions #1 & #2);               x Continue to design, document, implement, and
                                                                         demonstrate the effectiveness of internal
            x The Procedures for                        do not           controls associated with the active (current
              specifically state the testing and documentation           and future) scripts.
              requirements for blanket approval scripts and this
                                                                    x Identify and evaluate the historical scripts (all
              policy remains in draft form (Conditions # 3 &
                                                                         those implemented prior to those identified in
              #4);
                                                                         recommendation 1 above) to determine the
            x Coast Guard does not monitor scripts run in the            financial statement impact on cumulative
              database through audit logging and has not                 balances in permanent accounts; and develop
              developed a technical solution to monitor who              and maintain supporting procedures related to
              accesses the database through              to              each script.
              run scripts or review what scripts are run            With respect to procedures already in place, TSA
              (Conditions #5 & #6);                                 should work with the DHS Chief Financial Officer
            x The                          does not consistently    and the DHS Chief Information Officer to ensure
              include all testing, approval, and implementation     that Coast Guard Headquarters completes, in a
              documentation for all scripts (Condition #7); and     timely manner, the corrective actions to:
                                                                    x Continue to update script policies and
            x Coast  Guard has not completed                             procedures to include clear guidance over
              documentation for all scripts executed since their         module lead approvers, testing and
              implementation (Condition #8).                             documentation requirements, monitoring/audit
          Additionally, although Coast Guard did conduct an              log    reviews,      and  blanket    approval


                                                                      85
                 Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                                                                        Appendix B
                                                Department of Homeland Security
                                            Information Technology Management Letter
                                                       September 30, 2008


                                                                                                                                        Repeat    Risk
NFR #                         Condition                                             Recommendation                          New Issue
                                                                                                                                         Issue   Rating
        examination with an external contractor organization,           requirements.
        we have determined that the analysis was incomplete.       x   Finalize and implement policies and
        Specifically, due to the many limitations over scope, it       procedures governing the script change control
        did not consider the full population of scripts run at         process including completing records within
                   currently or since the inception of                 the                            for all executed
        Furthermore, the analysis did not properly evaluate            scripts and ensuring that all scripts are tested
        scripts as to financial statement impact, including            in an appropriate test environment prior to
        current versus prior year effect (Condition #9)                being put into production.
                                                                   Regarding the actual scripts themselves, TSA
                                                                   should work with the DHS Chief Financial Officer
                                                                   and the DHS Chief Information Officer to ensure
                                                                   that Coast Guard Headquarters completes, in a
                                                                   timely manner, the corrective actions to:
                                                                   x Determine the root causes and specific
                                                                       detailed actions necessary to correct the
                                                                       conditions that resulted in scripts, for the total
                                                                       population of scripts run at             in order
                                                                       to develop system upgrades that would
                                                                       eliminate the use of some of the scripts.
                                                                   x    Continue efforts to complete an in-depth
                                                                        analysis of active scripts, with the following
                                                                        objectives:
                                                                         o All changes to active scripts and new
                                                                           scripts should be subject to an appropriate
                                                                           software change control process to include
                                                                           testing, reviews, and approvals.
                                                                         o All active scripts should be reviewed for
                                                                           impact on financial statement balances.




                                                                       86
               Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                                                                        Appendix B
                                                  Department of Homeland Security
                                              Information Technology Management Letter
                                                         September 30, 2008


                                                                                                                                        Repeat    Risk
NFR #                           Condition                                            Recommendation                         New Issue
                                                                                                                                         Issue   Rating
TSA-IT-   Although Coast Guard Headquarters is in the process       We recommend that TSA work with the DHS                                X     Medium
08-24     of completing background investigations for all           Chief Information Officer to ensure that Coast
          civilian employees, this has not been completed.          Guard Headquarters' completes, in a timely
          Additionally, Coast Guard has set its position            manner, the following planned corrective actions:
          sensitivity designations to Low for the majority of its
          employees. However, DHS requires position                 x    Perform the initial background investigations
          sensitivity designations no less than Moderate which           and re-investigations for civilian employees in
          equates to a      .                                            accordance      with     position    sensitivity
                                                                         designations at no less than the Moderate level
                                                                         as required by DHS directives; and
                                                                    x   Conduct civilian background re-investigations
                                                                        every ten (10) years, as required by DHS
                                                                        directives, to ensure that each employee has a
                                                                        favorably adjudicated and valid
TSA-IT-   Although procedures surrounding user access privilege     We recommend that TSA work with the DHS                    X                 Medium
08-26     re-certifications have been developed we noted that       Chief Information Officer to ensure that the Coast
          the process does not include all             and          Guard’s            completes, in a timely manner,
                      users and does not involve users’             the planned corrective actions to:
          supervisors as required by the DHS Sensitive System       x Implement and document the             user
          Policy Directive 4300A. Additionally, we noted that           access review procedures to include all
          AAR forms are not being completed for all users on a          access privileges and include supervisors in
          consistent basis and we identified instances where            each review.
          system access was granted prior to the AAR approval
          by a supervisor.                                          x    Update procedures to ensure that a
                                                                         documented and approved access
                                                                         authorization request is completed for each
                                                                         individual prior to granting him/her access to
                                                                         the                             applications or
                                                                         databases.




                                                                        87
                 Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                                                                     Appendix B
                                                 Department of Homeland Security
                                             Information Technology Management Letter
                                                        September 30, 2008


                                                                                                                                     Repeat    Risk
NFR #                           Condition                                           Recommendation                       New Issue
                                                                                                                                      Issue   Rating
TSA-IT-   Although TSA has implemented quarterly access             We recommend that TSA update the                        X                 Medium
08-27     reviews for                user accounts and identified   and        Site Administrator User and Role
          accounts with elevated privileges, TSA has not            Quarterly Review Process to include procedures
          ensured that the                accounts with an          surrounding the recertification of accounts with
          increased risk associated with them are                   elevated privileges on the      . In addition, the
          reviewed/authorized on a periodic basis by a              recertification process should be documented,
          supervisor.                                               include supervisor written approval and occur on
                                                                    an at least annual basis.




                                                                      88
                 Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                          Appendix C

                          Department of Homeland Security
                      Information Technology Management Letter
                                 September 30, 2008




                                  Appendix C

Status of Prior Year Notices of Findings and Recommendations
                     And Comparison To
   Current Year Notices of Findings and Recommendations




                                         89
Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                       Appendix C

                              Department of Homeland Security
                          Information Technology Management Letter
                                     September 30, 2008
                                                                                    Disposition
Component   NFR #                          Description                           Closed       Repeat
   CIS      CIS-IT-   The NBC has not defined or documented the                              CIS-IT-
             07-01    appropriate user permissions for the various roles                      08-01
                      granted to
   CIS      CIS-IT-   NBC does not perform periodic                       user              CIS-IT-
             07-02    access reviews to ensure that users' level of access                   08-02
                      remains appropriate.


   CIS      CIS-IT-   Management at the CIS HQ and the Service Centers                      CIS-IT-
             07-03                                              has not                      08-03
                      completed or inadequately completed access forms for
                                                                system
                      users.
   CIS      CIS-IT-   Access to the                  security software is not               CIS-IT-
             07-04    appropriately authorized and documented. Specifically,                 08-04
                      we noted there are 22 individuals with administrator
                      access in                  . However, CIS could not
                      provide evidence that the access was limited and
                      authorized.
   CIS      CIS-IT-   We noted various matters which, when considered in           X
             07-05    aggregate with other DHS IT findings, indicate that
                      ineffective general controls exist over financial
                      management information systems at CIS. Specifically,
                      these matters are highlighted in the related CIS
                      information technology NFRs. See previously issued
                      NFRs: CIS-IT-07-01 through CIS-IT-07-04.

   ICE      ICE-IT-   From a sample of five users with multiple accounts           X
             07-01    (ten accounts), which were selected from throughout
                      the year,         access request forms could not be
                      provided for four accounts. However, all of these
                      accounts for which the appropriate forms could not be
                      provided were initiated in the period prior to a new
                      policy being implemented. For those four accounts
                      that were initiated after April 1, 2007, such access
                      forms were appropriately completed.
   ICE      ICE-IT-   There is excessive access to the                             X
             07-02                                     . Currently, over 800
                      individuals have access to the computer room.
   ICE      ICE-IT-   The following weaknesses in           access controls        X
             07-03    were identified:
                      x           Access Request forms could not be
                            provided for 14 of 60 user accounts.
                      x           Update/Enter Profile Request forms could

                                                 90
Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                           Appendix C

                              Department of Homeland Security
                          Information Technology Management Letter
                                     September 30, 2008
                                                                                        Disposition
Component   NFR #                            Description                             Closed       Repeat
                            not be provided for 6 of 30 administrator accounts.
                      x     Procedures have not been documented for
                            immediately removing        accounts upon
                            termination or transfer.
                      x     Procedures have not been established for
                            identifying and disabling       accounts after 30
                            days of inactivity.
   ICE      ICE-IT-   The following weaknesses in                                               ICE-IT-
             07-04                                            access controls                    08-04
                      were identified:
                      x             Access Request Forms for 5 of 60 accounts
                            were not provided, not completed, or not signed by
                            the user’s supervisor.
                      x     Evidence of account authorization could not be
                            provided for seven of ten       administrator
                            accounts.
                      x     Procedures have not been documented for
                            immediately removing         user accounts upon
                            termination or transfer.
                      x     Procedures for identifying and disabling
                            accounts after 30 days of inactivity are in draft
                            format and have not been standardized across the
                            ICE enterprise.
                      x     Procedures have not been established for
                            periodically recertifying or reviewing privileged
                                   accounts.
   ICE      ICE-IT-   ICE does not perform periodic reviews of           audit         X
             07-05    logs.
   ICE      ICE-IT-   ICE does not perform periodic reviews of               audit     X
             07-06    logs.
   ICE      ICE-IT-   Evidence of approved emergency change requests are               X
             07-07    not maintained, which would support the validity and
                      authorization of the changes.
   ICE      ICE-IT-   We noted various matters which, when considered in               X
             07-08    aggregate with other DHS component findings,
                      indicate that ineffective general controls exist over
                      financial management information systems at ICE.
                      Specifically, these matters are highlighted in the ICE
                      information system related NFRs. See previously
                      issued NFRs, ICE-IT-07-01 through ICE-IT-07-07.

  CBP       CBP-IT-   Due to the design of         certain controls can be             X

                                                  91
Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                        Appendix C

                           Department of Homeland Security
                       Information Technology Management Letter
                                  September 30, 2008
                                                                                     Disposition
Component   NFR #                           Description                           Closed       Repeat
            07-01     overridden without supervisory approval. For
                      example, when a CBP entry specialist attempts to
                      liquidate an import entry in       the system displays a
                      warning message, indicating that a drawback claim had
                      been filed against the import entry. However, entry
                      specialists could override the warning message without
                      supervisory review and process a refund without
                      investigating pending drawback claims. The purpose
                      of this warning message is to ensure that both a refund
                      and drawback are not paid on the same goods. We also
                      determined that entry specialists could override system
                      edits designed to detect refunds exceeding the total
                      duty, tax, and fees paid on an import entry.       does
                      not currently generate override reports for supervisory
                      review.
                      In FY 2007, we noted that there has been little change
                      in the status of this finding. CBP is developing a
                      control override report which will record all control
                      overrides that have taken place for a period of time.
                      Management stated that the         will not be
                      implemented in FY 2007. We concluded that a control
                      mechanism to prevent overrides by specialists without
                      supervisory approval would be an appropriate technical
                      safeguard under application controls.
  CBP       CBP-IT-   A full listing of trade partners was never compiled to                 CBP-IT-
             07-02    assess the full scope of the status of connections to                   08-02
                              We noted that a complete and accurate listing is
                      still not maintained. Of those connections that have
                      been accounted for, we noted that only 7% of
                      identified legacy connections had an Interconnection
                      Security Agreement (ISA) that has not expired. We
                      noted that a                                  solution is
                      being phased in and legacy connections are being
                      phased out and that significant progress is being made
                      to move all existing trade partners to the new
                      solution, in which they will obtain an ISA
                      documenting the connection.
  CBP       CBP-IT-   CBP does not maintain a centralized listing of contract                CBP-IT-
             07-03    personnel, including employment status. The only                        08-03
                      method CBP employs to track terminated contractors is
                      the use of a report of users that had their mainframe
                      accounts deleted. We cannot acknowledge this list as
                      representative of all terminated contractors, since
                      terminated contract personnel may not have mainframe
                      access or their access was not removed after their
                      termination.
  CBP       CBP-IT-   We confirmed that in FY 2007, backup tapes do not             X


                                                 92
Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                       Appendix C

                              Department of Homeland Security
                          Information Technology Management Letter
                                     September 30, 2008
                                                                                    Disposition
Component   NFR #                             Description                        Closed       Repeat
            07-04     have external labels affixed in order to indicate the
                      sensitivity of the data contained in the tapes. Instead,
                      containers in which the tapes are stored are labeled
                      with media labels. Currently, CBP has obtained a
                      waiver which waives the responsibility to label media
                      directly. However, CBP remains non-compliant and
                      the risk still remains.
  CBP       CBP-IT-   We noted the following issues related to password
             07-05    parameters:
                      x                  minimum password length is set to six
                            characters
                      x     Password complexity is not set on the                  X

                      x                                      minimum
                            password length is set to six characters
                      x     Password complexity is not set on the
  CBP       CBP-IT-   We noted the following issues:
             07-06
                      x     CBP’s policy stated that sessions should
                            automatically disconnect after 30 minutes of
                            inactivity, which is not consistent with DHS
                            policy.
                      x     CBP’s policy stated that the workstation should
                            log off from all connections after 5 minutes of        X
                            inactivity. According to applicable guidance, all
                            system connections do not have to be terminated
                            after 5 minutes of inactivity on the workstation.
                      x     CBP workstations could not enforce the activation
                            of a password-protected screensaver after five
                            minutes of inactivity. The settings could be
                            disabled or changed by individual users.
  CBP       CBP-IT-   We determined that               does not have the
             07-07    ability to prevent developers from overwriting existing
                      code in the development environment. The developer
                      is able to extract the code from the development
                      environment and place it into a personal folder on the       X
                      user’s personal computer. If multiple users are
                      modifying a program in their own personal folders
                      they may be overwriting existing changes.
  CBP       CBP-IT-   A solution has not been implemented to maintain                       CBP-IT-
             07-08          audit logs for an appropriate period of time.                    08-08
                      Audit logs are not being reviewed for security
                      violations for the
  CBP       CBP-IT-   We noted that accounts are not deactivated                            CBP-IT-


                                                   93
Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                       Appendix C

                              Department of Homeland Security
                          Information Technology Management Letter
                                     September 30, 2008
                                                                                    Disposition
Component   NFR #                            Description                         Closed       Repeat
            07-09     automatically after 30 days of inactivity. Accounts are                 08-09
                      disabled for inactivity once a month using a manually
                      initiated job.
  CBP       CBP-IT-   We reviewed the procedures and evidence of the most
             07-10    recent recertification performed for physical access to
                      the data center. We noted the following:
                      x     Two people had access that was not appropriately
                            documented with an approved access request form.
                                                                                   X
                      x     One terminated employee retained access after the
                            recertification.
                      x     One user was marked to be removed as a result of
                            the recertification but was not removed
                            appropriately.
  CBP       CBP-IT-   CBP System Security does not consistently retain audit
             07-11    logs of powerful mainframe system utilities. We
                      reviewed the existence of               logs for a
                      selection of dates and noted that logs were not
                      available for a series of dates. We noted that within a      X
                      90 day window, complete logs were available for all
                      selected dates except one. For the year long window,
                      17 summary reports were unavailable.
  CBP       CBP-IT-   As identified in prior year issues reported in FY 2003,               CBP-IT-
             07-12    FY 2004, FY 2005 and FY 2006, we noted that                            08-12
                      improvements are still needed in CBP’s Incident
                      Handling and Response Capability which may
                      potentially limit CBP’s ability to respond to incidents
                      in an appropriate manner. In FY 2007, we noted that
                                               will not be installed on all
                      workstations for the majority of the fiscal year.
  CBP       CBP-IT-   During testwork around the application of security                    CBP-IT-
             07-13    patches, we noted that a complete listing of                           08-13
                      workstations is not maintained                       .
                      We noted that                     does not have the
                      ability to quickly compile a listing of all workstations
                      under CBP’s ownership.
  CBP       CBP-IT-   We noted that tape withdrawal requests are not
             07-14    documented.                                                  X

  CBP       CBP-IT-   We noted that the        is currently configured to
             07-15    disable accounts after 90 days of inactivity. We also
                      noted that the job is configured to run weekly, which
                      does not comply with the requirement for automatic           X
                      disabling of accounts.




                                                 94
Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                        Appendix C

                              Department of Homeland Security
                          Information Technology Management Letter
                                     September 30, 2008
                                                                                     Disposition
Component    NFR #                          Description                           Closed       Repeat
  CBP       CBP-IT-   We noted that the       has been adjusted to limit                      CBP-IT-
             07-16    active emergency access to 24 hours after the request.                   08-16
                      We noted however that the emergency table is still
                      being used and that administrator or supervisory
                      approval is not required each time emergency access is
                      activated.
  CBP       CBP-IT-   CBP                    does not conduct reviews of
             07-17    powerful system utilities. Specifically, the utilities
                                                                           are
                      not reviewed by management.
                                                                                    X
                      Additionally, while procedures are now in place for
                      review of these logs, these procedures were not in
                      place for the majority of the fiscal year.
  CBP       CBP-IT-   We noted there are currently no procedures in place for                 08-18
             07-18    the completion of semi-annual recertifications of
                             accounts. We also note that a recertification of
                                  accounts is not performed on a semi-annual
                      basis.
  CBP       CBP-IT-   We noted that the completion of security awareness
             07-19    training is not appropriately tracked at CBP. We noted
                      that out of a selection of 45 CBP employees, one
                      employee maintained access to          without having
                      completed the refresher security awareness training           X
                      course. The individual completed an awareness course
                      that was not the CBP-wide security awareness training
                      required for all CBP employees.
  CBP       CBP-IT-   We noted several access control weaknesses for the
             07-20        solution during testwork. Specifically, we noted:
                      x     The       sever does not maintain information on
                            user account creation and inactivity and therefore
                            cannot terminate inactive accounts or provide audit
                            information regarding the creation of
                            accounts,
                      x     Accounts that did not recertify during the              X
                            recertification time period or were marked for
                            deletion during the recertification period remained
                            active on the system after the accounts should have
                            been deactivated by        administrators,
                      x     Procedures for recertifying accounts were not fully
                            implemented and accounts were recertified by
                            means beyond those identified in documented
                            procedures
  CBP       CBP-IT-   We noted that when changes to a user’s access are                      CBP-IT-
             07-21    performed in             , the log of these events is                   08-21


                                                  95
Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                     Appendix C

                              Department of Homeland Security
                          Information Technology Management Letter
                                     September 30, 2008
                                                                                  Disposition
Component   NFR #                           Description                        Closed       Repeat
                      not regularly reviewed by personnel independent from
                      those individuals that made the changes.
  CBP       CBP-IT-   We noted that the following documents as not having
             07-22    documented approval and/or approval dates:
                      x     System Development Life Cycle (SDLC)
                            Configuration Management Plan – No approval for
                            majority of fiscal year
                      x     Configuration Management Code Migration
                            Procedures for    – No approval or effective
                            date
                                                                                 X
                      x     Configuration Management Code Migration
                            Procedures for    – No approval date or
                            effective date
                      x     Production Management Team Procedures – No
                            approval, no change history
                      x     NDC Operations: Standard Operating Procedures
                            – No approval
  CBP       CBP-IT-   3 out of 5 selected    Emergency Changes did not
             07-23    have post implementation Executive Approval as
                      required by the new OIT emergency change                   X
                      procedures.
  CBP       CBP-IT-   The       re-certification process has several
             07-24    weaknesses. Of the 45 selected ports, 45 ports did not
                      have formally documented communication between
                      the responsible Director of Field Operations (DFO)         X
                      and Office of Field Operations (OFO) HQ as directed
                      by the FY 2006 memorandum put out by Office of
                      Finance.
  CBP       CBP-IT-   We noted that the             does not have an
             07-25    Information System Security Officer (ISSO), but has
                      been assigned an interim ISSO. We noted that this          X
                      interim ISSO is not formally documented as the
                            ISSO.
  CBP       CBP-IT-   We noted that evidence of the review of mainframe                   CBP-IT-
             07-26    security violation logs for 6 of 25 dates were not                   08-26
                      available for review.
  CBP       CBP-IT-   We noted that authorizations are not being maintained               CBP-IT-
             07-27    for personnel that have administrator access to                      08-27

  CBP       CBP-IT-   We noted that access policies and procedures have not               CBP-IT-
             07-28    been formally documented for the               We                    08-28
                      also noted that access authorization forms were not


                                                 96
Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                       Appendix C

                              Department of Homeland Security
                          Information Technology Management Letter
                                     September 30, 2008
                                                                                    Disposition
Component   NFR #                          Description                           Closed       Repeat
                      completed for 27 out of 45 accounts created in FY
                      2007.
  CBP       CBP-IT-   We noted that procedures have been developed and a                    CBP-IT-
             07-29    new termination form (CF-241) has been developed for                   08-29
                      use in terminating employees. We note that while
                      these procedures address the submission of the form to
                                       and require notification of removal of
                      system access from                   , the new
                      procedures were developed and activated in June,
                      2007. The procedures are currently not implemented,
                      however.
  CBP       CBP-IT-   We noted that multiple terminated employees retained
             07-30    active accounts on the        They were disabled as a
                      result of accounts being inactive for 90 days.               X
                      Therefore, these accounts were active 90 days after the
                      employee terminated from CBP.
  CBP       CBP-IT-   We noted that 12 of the 45 selected ports/headquarters
             07-31    did not have self inspection worksheets completed.
                      Accordingly, we were not able to determine whether           X
                      specific      high risk combinations of roles were
                      performed at these ports/headquarters.
  CBP       CBP-IT-   We selected 20 out of 201 changes and noted the
             07-32    following:
                      x     9 of the 20 changes did not have formal test plans
                            or documented results                                  X

                      x     20 of the 20 changes did not have evidence of
                            review of the documented test results.
  CBP       CBP-IT-   We selected 15 of 90         changes and noted the
             07-33    following:
                      x     3 of the 15 selected changes did not have formally
                            documented test plans or test results.                 X

                      x     15 of the 15 changes did not have evidence of
                            review of the test results documented.
  CBP       CBP-IT-   We noted that virus protection is not installed on all                CBP-IT-
             07-34    CBP workstations. Specifically, we noted at the time                   08-34
                      of testing that approximately 6000 of CBP’s
                      approximate 38000 workstations do not have antivirus
                      protection installed. Since the initial testing was
                      performed, we noted that immediate remediation has
                      begun and as of September 28, improvements have
                      been made but 1,557 out of 42,429 workstations still
                      are missing virus protection software.
  CBP       CBP-IT-   During our technical testing, eighteen configuration                  CBP-IT-

                                                  97
Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                           Appendix C

                              Department of Homeland Security
                          Information Technology Management Letter
                                     September 30, 2008
                                                                                        Disposition
Component   NFR #                        Description                                 Closed       Repeat
            07-35     management exceptions were identified on                                    08-35

                                   and hosts supporting the         application.
  CBP       CBP-IT-   During our technical testing, thirty-seven patch                          CBP-IT-
             07-36    management exceptions were identified on                                   08-36

                                   and hosts supporting the         application.

   CG       CG-IT-              has replaced the            concept with the                     CG-IT-
            07-01     development of a            which addresses disaster                        08-01
                      recovery, business continuity and continuity of
                      government. However,                   is in draft form and
                      has not yet been tested and the            with the      for
                      reciprocal services is still in draft form as well.
   CG       CG-IT-    The             change control policy does not detail            X
            07-02     requirements for requesting, testing, and approving
                      changes. Furthermore, there are no formalized
                      requirements pertaining to retention of supporting
                      documentation and the roles and responsibilities of
                                personnel in the process. Additionally, the
                      policy does not adequately reflect the
                      environment and change control process that was
                      utilized during the           upgrade performed
                      during FY07. Examples of inconsistencies include the
                      references to service packs, data fixes, and the testing
                      procedures completed.
   CG       CG-IT-    The         system does not meet DHS password                    X
            07-03     complexity requirements and the        system is not
                      scheduled for decommissioning until December 2007.
   CG       CG-IT-    There are 4 conditions present in this NFR, which were           X
            07-04     identified during our FY07 follow-up testwork
                      associated with NFR CG-IT-06-013:
                      x     From October 1 2006 through July 24, 2007, PSC
                            had not yet implemented policies and procedures
                            for use in managing terminations, including the
                            use of the Outgoing Personnel Form.
                      x     Outgoing Personnel Forms were not completed for
                            one of five individuals selected for testing.
                      x     One terminated individual remained active within
                                    until 90 days after his last logon before his
                            account was revoked as part of the
                            account review process.
                      x     The account of a second terminated individual
                            remains active within the system, although it has


                                                   98
Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                       Appendix C

                             Department of Homeland Security
                         Information Technology Management Letter
                                    September 30, 2008
                                                                                    Disposition
Component   NFR #                             Description                        Closed       Repeat
                           been configured to automatically log out the
                           terminated individual if he attempts to login.
                           Although this is a low risk issue, the existence of
                           this account still presents a potential risk to the
                                    data.
   CG       CG-IT-   Policies and procedures regarding requesting,                 X
            07-05    authorizing, testing, and approving operating system
                     changes are not consistently followed. Additionally, a
                     testing baseline standard has not been established to
                     ensure that operating system changes have not
                     adversely affected portions of the system that were not
                     intended to be affected. Lastly,      was unable to
                     reconcile changes to the operating system to a listing
                     of authorized operating system changes to ensure that
                     all changes have been appropriately approved.
   CG       CG-IT-   The contract CG HQ has with the                                         CG-IT-
            07-06    software vendor does not include security                                08-06
                     configuration requirements that must be adhered to
                     during the configuration management process.
                     Consequently,                  builds and maintenance
                     packs may not be configured and implemented with
                     comprehensive security configuration requirements.
                     CG recognizes the absence of security requirements
                     and indicated that the contract with the vendor will be
                     reassessed in 2008 during the contract renewal process
                     with CG HQ and corrective actions will be taken at
                     that time.
   CG       CG-IT-        has not implemented the following password                         CG-IT-
            07-07    requirements:                                                            08-07
                     x     Passwords shall contain special characters
                     x     Passwords shall not contain any dictionary word
                     x     Passwords shall not contain any proper noun or
                           name of any person, pet, child, or fictional
                           character
                     x     Passwords shall not contain any employee serial
                           number, social security number, birth date, phone
                           number, or any information that could be readily
                           guessed about the creator of the password
                     x     Passwords shall not contain any simple pattern of
                           letters or numbers, such as qwerty or xyz123
                     x     Passwords shall not be any word, noun, or name
                           spelled backwards or appended with a single digit
                           or with a two digit year string, such as 98xyz123



                                                  99
Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                      Appendix C

                             Department of Homeland Security
                         Information Technology Management Letter
                                    September 30, 2008
                                                                                   Disposition
Component   NFR #                          Description                          Closed       Repeat
                     x     Passwords shall not be the same as the User ID
   CG       CG-IT-   Two generic accounts have access to            and           X
            07-08                   . Additionally, we determined that the
                                      and               settings were not
                     enabled. Furthermore, four accounts assigned to
                     personnel had both SPECIAL and                   , two
                     of which were system programmers.
   CG       CG-IT-   Every individual with access to the            data          X
            07-09    center has not completed the required emergency
                     response training. Additionally, four employees were
                     identified with 24 hour access to the data center that
                     had not completed the training as of July 2007.
                     Lastly, the security guards, with unrestricted access to
                     the data center, have not yet been required to complete
                     the training.
   CG       CG-IT-   No formal procedures have been developed or                            CG-IT-
            07-10    implemented by CG HQ to address DHS requirements                        08-10
                     surrounding the suitability screening of contractors
                     accessing DHS IT systems. DHS directives and
                     policies require CG and other DHS components to
                     ensure the completion of background investigations for
                     all contractors accessing IT systems. The type of
                     background investigation should be based on the risk
                     level of the job position at CG and should be
                     completed prior to the start of work. However, no CG
                     guidance exists to require CG components to clear
                     their contractors for suitability, especially those with
                     sensitive IT positions.
   CG       CG-IT-   Session lockout times need to be changed from 40 to          X
            07-11    20 minutes to meet DHS requirements.
   CG       CG-IT-   The                        Disaster Recovery Plan has        X
            07-12    not been tested and we were unable to obtain a
                     finalized MOU between        and           .
   CG       CG-IT-        is not consistently following the        for all        X
            07-13             application changes. For four system change
                     proposals and their associated sub-tasks, supporting
                     documentation (i.e., evidence of testing, peer reviewer,
                     approvals, evidence of joint application design
                     meetings and business sponsor approvals) was not
                     available.
   CG       CG-IT-   Lack of criteria for defining personnel with significant               CG-IT-
            07-14    IT responsibilities within the USCG IT Security                         08-14
                     Awareness, Training and Education Plan.
                     Additionally, the personnel that are defined in the
                     guidance are very limited and do not fully cover the
                     scope of security responsibilities addressed in DHS

                                                100
Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                     Appendix C

                             Department of Homeland Security
                         Information Technology Management Letter
                                    September 30, 2008
                                                                                  Disposition
Component   NFR #                           Description                        Closed       Repeat
                     requirements.
   CG       CG-IT-   The         application database          is using                    CG-IT-
            07-15                           , which is no longer supported                  08-15
                     by the vendor. Additionally, an account on the
                     database has a password the same as account name
                     (sccr_browse). The database also has a directory
                     manipulation vulnerability in the binary file oracle.
   CG       CG-IT-        has developed and implemented policies and             X
            07-16    procedures that address the review of inactive
                     accounts and lock those that have been inactive for 90
                     days. However, DHS guidance requires that inactive
                     accounts be locked after 30 days.
   CG       CG-IT-               access control weakness were noted:                       CG-IT-
            07-17                                                                           08-17
                     x     Passwords shall contain special characters
                     x     Passwords shall not contain any dictionary word
                     x     Passwords shall not contain any proper noun or
                           name of any person, pet, child, or fictional
                           character
                     x     Passwords shall not contain any employee serial
                           number, social security number, birth date, phone
                           number, or any information that could be readily
                           guessed about the creator of the password
                     x     Passwords shall not contain any simple pattern of
                           letters or numbers, such as qwerty or xyz123
                     x     Passwords shall not be any word, noun, or name
                           spelled backwards or appended with a single digit
                           or with a two digit year string, such as 98xyz123
   CG       CG-IT-          access control weaknesses were noted:                X
            07-18
                     x     Passwords shall contain special characters
                     x     Passwords shall not contain any dictionary word
                     x     Passwords shall not contain any proper noun or
                           name of any person, pet, child, or fictional
                           character
                     x     Passwords shall not contain any employee serial
                           number, social security number, birth date, phone
                           number, or any information that could be readily
                           guessed about the creator of the password
                     x     Passwords shall not contain any simple pattern of
                           letters or numbers, such as qwerty or xyz123



                                                101
Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                         Appendix C

                             Department of Homeland Security
                         Information Technology Management Letter
                                    September 30, 2008
                                                                                      Disposition
Component   NFR #                           Description                            Closed       Repeat
                     x     Passwords shall not be any word, noun, or name
                           spelled backwards or appended with a single digit
                           or with a two digit year string, such as 98xyz123
                     x           accounts of terminated individuals are not
                           removed in a timely manner including one
                           individual who had user account management
                           capabilities within the system. Additionally,
                           application and database accounts are not being
                           reviewed for appropriateness.
   CG       CG-IT-          access control weaknesses were noted:                    X
            07-19
                     x     Documented access request forms could not be
                           located for two new    users granted access to
                           the application.
                     x          accounts are not immediately disabled upon
                           an employee’s termination.
                     x     Procedures have not been developed to require
                           periodic account reviews to be performed to
                           ensure that all users and their associated privileges
                           are appropriate.
                     x           has not been configured to track and
                           deactivate accounts that have not been used in 30
                           days.
                     x     An excessive number of individuals have user
                           administrator capabilities within     until the
                           implementation of the centralized user
                           management (August 19, 2007).
                     x     Password configuration is not in compliance with
                           DHS guidance.
   CG       CG-IT-   The periodic review of                  accounts only           X
            07-20    cover 1% of all user accounts with roles greater than
                                   and that have been modified within the
                     last 90 days. The population that is validated during
                     this                system review was found to be
                     insufficient as the user population of the system is
                     approximately 60,000 user accounts.
   CG       CG-IT-   The procedures for the periodic review of          user         X
            07-21    accounts does not require a review of all active user
                     accounts and privileges to be performed and validated.
   CG       CG-IT-   Password configuration weaknesses associated with                         CG-IT-
            07-22    the       application. Also, the       application is                      08-22
                     configured to terminate idle sessions after 30 minutes
                     of inactivity instead of 20 minutes.


                                                 102
Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                          Appendix C

                             Department of Homeland Security
                         Information Technology Management Letter
                                    September 30, 2008
                                                                                       Disposition
Component   NFR #                           Description                             Closed       Repeat
   CG       CG-IT-   While audit logging has been turned on for the                             CG-IT-
            07-23    database, reviews of actions being taken on that                            08-23
                     database are still not being performed.
   CG       CG-IT-   Policies and procedures regarding        data used for           X
            07-24    the Coast Guard environmental liability report on the
                     DHS Consolidated balance sheet have been developed
                     but are currently in draft form and have not been
                     implemented.
   CG       CG-IT-   We noted the following            access control                           CG-IT-
            07-25    weaknesses:                                                                 08-25
                     x     Excessive access exists within the           database;
                     x     Password configurations for the
                                               and
                           profiles have been configured to permit passwords
                           to be a minimum of six characters in length.
                           Additionally, the password history requirement is
                           the only password requirement that has been
                           configured for the              profile.
                     x     Audit logging has not been enabled within the
                                  application or database.
                     x     Documented access request forms could not be
                           located for nine out of 22 new        users granted
                           access to the application. Additionally, although
                           the automated access request forms for the other
                           13 out of 22 new         users granted access to the
                           application were approved, the level of
                           access/privileges associated with the new user
                           were not documented on the access request form.
                     x     Individuals who are no longer employed with
                                    were found to have active accounts
                           within
                     x            account reviews have not been performed
                           on a periodic basis.
   CG       CG-IT-   The       system has been configured to automatically            X
            07-26    end date accounts that have been inactive for six
                     months. However, DHS requirements require accounts
                     to be disabled after 30 days of inactivity.
   CG       CG-IT-   Accounts within        that have been inactive for more                    CG-IT-
            07-27    than 90 days have not been disabled, access request                         08-27
                     authorization forms were unavailable for 19 of the 30
                     individuals who had accounts created during FY07, a
                     recertification of     accounts is not performed, and
                     terminated employees are not deactivated in a timely


                                                 103
Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                          Appendix C

                          Department of Homeland Security
                      Information Technology Management Letter
                                 September 30, 2008
                                                                                      Disposition
Component   NFR #                          Description                             Closed       Repeat
                     manner.
   CG       CG-IT-   From the sample selected, a developer had elevated              X
            07-28    production privileges in        Also, two
                     procedures/packages (
                                were added to
                                      privileges.
   CG       CG-IT-   The individual who enters an applicant's data into the      Transferred
            07-29                           also has the ability to hire the      to Audit
                     applicant in the system                                       Team.
   CG       CG-IT-              functional change control policies and               X
            07-30    procedures did not reflect the change control process
                     for the             changes and did not adequately
                     detail guidance for the change control process.
                     Specifically, the policy does not include requirements
                     for requesting, testing, and approving changes prior to
                     implementing the functional change into the
                     production environment.
   CG       CG-IT-   Coast Guard has only eliminated a small number of the                     CG-IT-
            07-31    scripts used on a consistent basis and is projecting that                  08-31
                     this approach will continue into the delivery of
                     4.2 and beyond. Additionally, we noted that as of
                     April 27, 2007, 240 scripts were run during a week
                     long period. The number and type of scripts that are
                     executed during any one period in time varies from
                     week to week depending on the issues encountered.
                     Of the 240 scripts noted during this particular week,
                     several were run numerous times for the same software
                     gap. Consequently,             has not fully integrated
                     the two change control processes or eliminated the
                     need for the scripts.
   CG       CG-IT-   Coast Guard does not maintain a centralized listing of                    CG-IT-
            07-32    contracted personnel, including employment status,                         08-32
                     such as start date and termination date, so that system
                     accounts can be timely updated.
   CG       CG-IT-   Coast Guard does not consistently notify system                           CG-IT-
            07-33    owners that individuals are terminating from the Coast                     08-33
                     Guard so that system accounts can be updated timely.
   CG       CG-IT-            is not consistently implementing policies and                    CG-IT-
            07-34    procedures regarding the        change control                             08-34
                     process. Specifically, supporting documentation is not
                     maintained for all changes and emergency changes.
                     Additionally, changes may be approved prior to the
                     change being tested and passing the test.
   CG       CG-IT-   Policies and procedures for the overall change control                    CG-IT-
            07-35    process surrounding                 changes and                            08-35


                                               104
Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                        Appendix C

                          Department of Homeland Security
                      Information Technology Management Letter
                                 September 30, 2008
                                                                                     Disposition
Component   NFR #                          Description                            Closed       Repeat
                     emergency changes are inadequate. Specifically, the
                     policies and procedures do not fully include guidance
                     for the roles and responsibilities         possesses in
                     the change control process. Additionally, they do not
                     include detailed requirements and guidance on
                     requesting changes, initial approvals,          testing,
                     final approvals and documentation retention
                     requirements for changes made to the system.
   CG       CG-IT-   Configuration management weaknesses exist on hosts                       CG-IT-
            07-36    supporting the                    applications and                        08-36

   CG       CG-IT-   Patch management weaknesses exist on hosts                               CG-IT-
            07-37    supporting the                     applications and                       08-37

   CG       CG-IT-             program changes are implemented in                   X
            07-38    production prior to approval from the Financial
                     Reports & Analysis (FF) Branch Chief or the Financial
                     Control & Information (FC) Division Chief as required
                     by          policy and procedures. Additionally,
                     systems personnel move program changes into
                     production without signing off on the Request Change
                     to      Database form as required by the
                     procedures.
   CG       CG-IT-   Coast Guard has not completed the process of filing            X
            07-39    the background investigation records that were
                     recovered and recreating the records that were not
                     found during the migration of records from the
                     Department of Transportation to DHS.
   CG       CG-IT-   Civilian background investigations and                                   CG-IT-
            07-40    reinvestigations are not being performed in accordance                    08-40
                     with DHS Minimum Background Investigation
                     standards per the DHS Sensitive System Policy
                     Directive 4300A.
   CG       CG-IT-   Per review of the              package, we noted that                    CG-IT-
            07-41    system boundary definitions do not fully reflect the                      08-41
                     systems environment in which CG operates,             does
                     not reflect system changes made in the
                           de, and            is classified by CG as a
                     subsystem of         however, there is no
                     documentation within the              that defines
                                 as a subsystem and addresses the
                     appropriate security controls for             in this
                     capacity according to NIST requirements for
                     subsystems
   CG       CG-IT-   Coast Guard is not compliant with the FFMIA from an                      CG-IT-
            07-42    information technology perspective and in the                             08-42

                                                105
Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                          Appendix C

                               Department of Homeland Security
                           Information Technology Management Letter
                                      September 30, 2008
                                                                                       Disposition
Component   NFR #                                Description                        Closed       Repeat
                       following areas:
                       x     Computer Security Act Requirements, including
                             aspects of the Federal Information Security
                             Management Act (FISMA)
                       x     System Documentation
                       x     Internal Controls
                       x     Training and User Support
                       x     System Maintenance
                       x     System Information Flow

  CONS       CONS-     The              application has not been configured           X
            IT-07-01   to meet the following password requirements as
                       defined by the DHS Sensitive System Policy Directive
                       4300A:
                       x     Contain special characters
                       x     Not be the same as the previous 8 passwords
                       x     Passwords shall not contain any proper noun or the
                             name of any person, pet, child, or fictional
                             character. Passwords shall not contain any
                             employee serial number, Social Security number,
                             birth date, phone number, or any information that
                             could be readily guessed about the creator of the
                             password
                       x     Passwords shall not contain any simple pattern of
                             letters or numbers, such as “qwerty” or “xyz123”
                       x     Passwords shall not be any word, noun, or name
                             spelled backwards or appended with a single digit
                             or with a two-digit “year” string, such as 98xyz123
                       x     Passwords shall not be the same as the UserID
                       Additionally, the             password configuration
                       does not meet the following service provider’s
                       password requirements as outlined in the



                       x     Passwords must not contain dictionary words
                             pertaining to personnel data (e.g. user’s name, date
                             of birth, address, telephone number, and social
                             security number)
                       x     Passwords are not to be reused


                                                     106
Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                        Appendix C

                               Department of Homeland Security
                           Information Technology Management Letter
                                      September 30, 2008
                                                                                     Disposition
Component   NFR #                             Description                         Closed       Repeat
                       •     Passwords must be composed of upper/lower
                             case and special characters
  CONS       CONS-     DHS OFM has taken corrective action to address the           X
            IT-07-02   Prior Year (PY) NFR and we noted that            Access
                       Request Forms were appropriately completed for each
                       new DHS user added to the system. However, in
                       February 2007, a Treasury contractor, responsible for
                       system development, created two user accounts within
                                    to be used to test various functions in the
                       new         release. These accounts were created
                       without completing the           Access Request Form.
                       Although we are unable to obtain evidence supporting
                       the date the accounts were removed, we were able to
                       confirm that the accounts had been removed by April
                       16, 2007.
  CONS       CONS-     DHS OFM has taken corrective action to address the           X
            IT-07-03   PY NFR by removing all DHS OFM personnel from
                       having access to the               role, which should
                       be limited to one            developer only.
                       However, DHS OFM did not take corrective action to
                       address this NFR until August 2007, in which seven
                       users with inappropriate access were removed.
                       Although DHS OFM has addressed the
                       recommendation in the prior year NFR CONS-IT-06-
                       01, because the corrective action was not taken until 11
                       months into the fiscal year, we determined that the
                       NFR will be reissued in 2007.
  CONS       CONS-     DHS OFM had taken corrective action to address the           X
            IT-07-04   PY NFR. Specifically, 10 users had the
                       role in April 2007. However, in August 2007, DHS
                       OFM reduced the number of individuals with this
                       access to only one, the Assistant Branch Chief of the
                       Financial Reporting Branch (FRB).
  CONS       CONS-     DHS OFM has taken corrective action to address the           X
            IT-07-05   PY NFR in June 2007. Specifically, DHS OFM has
                       developed and implemented procedures requiring DHS
                       components to perform a formal review of
                       financial data, by a separate approving official, to the
                       general ledger before moving it into the
                       repository. Additionally, the procedures require each
                       DHS component to complete a CFO Certification
                       Form for each         submission. The CFO
                       Certification Form includes a sign-off from the
                       component that the financial data review was
                       performed. We inspected the CFO Certification Forms
                       for each DHS component for June and July 2007 and


                                                 107
Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                          Appendix C

                            Department of Homeland Security
                        Information Technology Management Letter
                                   September 30, 2008
                                                                                       Disposition
Component   NFR #                             Description                           Closed       Repeat
                       noted no exceptions.
                       We determined that DHS OFM has taken appropriate
                       action to remediate prior year NFR CONS-IT-06-05.
                       However, because corrective action was not taken to
                       address the NFR until eight months into the fiscal year,
                       the NFR will be reissued in FY 2007.
  CONS       CONS-     DHS OFM has taken partial corrective action to                 X
            IT-07-06   address the prior year NFR. Specifically, the
                       system has been configured to lock accounts that have
                       not been logged into in 90 days; however, DHS
                       guidance was revised and released during FY 2007
                       which requires systems be configured to disable user
                       accounts after 30 days of inactivity. However, DHS
                       OFM has applied for and received an exception to the
                       30 day requirement with the DHS Chief Information
                       Security Officer (CISO) and has instead configured the
                       system to lock accounts after 90 days of inactivity due
                       to a business needs.
                       The         assword configuration has not been
                       configured to meet all of the password requirements as
                       defined by the DHS Sensitive System Policy Directive
                       4300A.
                       The         assword configuration does not meet the
                       service provider’s password requirements as outlined
                       in the                     or the Treasury Information
                       Technology Security Program Handbook.
  CONS       CONS-     Treasury has not established individual accountability                   CONS-
            IT-07-07   within the        database. Specifically, two                              IT-
                       utilize one generic accoun                 , to perform                   08-07
                       maintenance on the           database that supports the
                              application. Additionally, these two          also
                       share the following          accounts:                   ,
                       and                    is the owner of the database and
                       has access to the entire database while             and
                                   are default system accounts that are used for
                       various oracle system functions such as backups and
                       configuration management and are required to operate
                       and run batch jobs.
  CONS       CONS-     Not Used.
            IT-07-08
  CONS       CONS-     During FY 2007, we noted that access to the                    X
            IT-07-09   module and the                             group
                       appears to be excessive. Specifically, up until the last
                       week of FY 2007, six individuals had such access
                       which allows them to perform account management
                       capabilities within      (such as creating, deleting,


                                                  108
Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                           Appendix C

                               Department of Homeland Security
                           Information Technology Management Letter
                                      September 30, 2008
                                                                                       Disposition
Component   NFR #                            Description                            Closed       Repeat
                       and modifyin               user accounts). Two of
                       these six individuals were Treasury personnel who
                       should not be able to modify user accounts belonging
                       to DHS. Additionally, we inspected a log of all DHS
                             accounts created between October 1, 2006 and
                       May 11, 2007 and noted that one DHS OFM personnel
                       was responsible for creating the accounts.

                       During the last week of FY 2007, one DHS OFM
                       personnel and one Treasury contractor had their
                       module access revoked. However, we still determined
                       access to be excessive as four individuals (three DHS
                       OFM personnel and one Treasury contractor) still have
                       access to the       module and the
                                                   group and the
                       only notes the                            to be
                       responsible for
                       creating/modifying/deleting accounts within

  CONS       CONS-     During our FY 2007 follow-up testing, we identified        Transferred
            IT-07-10   exceptions upon comparing the        Specifications         to Audit
                       Table and its congruency with the analytics guidance         Team.
                       documented in the Component Guide.
  CONS       CONS-     DHS OFM has developed change control procedures                          CONS-
            IT-07-11   that document DHS OFM’s change management                                  IT-
                       responsibilities. However, these procedures were not                      08-11
                       implemented until June 29, 2007. As a result:
                       x     Formal change requests were not available for our
                             review for        changes implemented into
                             production this fiscal year.
                       x     Documentation supporting five           changes
                             selected for testing was not available for our
                             review. Specifically, out of five changes selected
                             for testing, we were missing the following
                             documentation:
                             x   Evidence of Development, Testing and
                                 Production     were not available for four of
                                 five changes.
                             x   Evidence of DHS approval for five of five
                                 changes was not available for our review.
                             x   Evidence of Treasury testing was not available
                                 for one of five     selected for testing.
                             x   Two of five changes selected for testing were
                                 not approved by the Department of the Chief


                                                  109
Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                          Appendix C

                               Department of Homeland Security
                           Information Technology Management Letter
                                      September 30, 2008
                                                                                       Disposition
Component   NFR #                            Description                            Closed       Repeat
                                 Financial Officer Team Lead, as required.
                             x   Four of five       selected for testing were
                                 missing the                      therefore, we
                                 were unable to determine that the individual
                                 responsible for development was not the same
                                 person who migrated the change to
                                 production.
                             x   The change management procedures
                                 documented
                                 in the DHS             do not include
                                 procedures for notifying components of
                                 system changes so that they are aware of
                                 changes to the functionality of the system, etc.
                             x    The change management procedures
                                 documented in the DHS             do not
                                 include procedures for handing emergency
                                 changes to the system.
  CONS       CONS-     Weakness were identified surrounding the                                 CONS-
            IT-07-12   change control process:                                                    IT-
                                                                                                 08-12
                       x     DHS OFM has developed change control
                             procedures that document DHS OFM’s change
                             management responsibilities. However, these
                             procedures were not implemented until June 29,
                             2007. As a result:
                             x   Formal change requests were not available for
                                 our review for            changes
                                 implemented into production this fiscal year.
                             x   The                change control process is
                                 informal. Therefore, the only documentation
                                 we received supporting the five changes
                                 selected for testing was e-mail documentation
                                 sent between DHS OFM and Treasury
                                 (requests for the change and notification that
                                 the change was complete). No evidence of
                                 approvals or testing was available for our
                                 review.
                             x   The change management procedures
                                 documented in the DHS OFM            do not
                                 include procedures for notifying components
                                 of system changes so that they are aware of
                                 changes to the functionality of the system, etc.
                             x   The change management procedures
                                 documented in the DHS OFM         do not
                                 include procedures for handing emergency

                                                   110
Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                           Appendix C

                            Department of Homeland Security
                        Information Technology Management Letter
                                   September 30, 2008
                                                                                        Disposition
Component   NFR #                            Description                             Closed       Repeat
                                changes to the system.

 FEMA        FEMA-     During our technical testing, patch management                  X
            IT-07-01   weaknesses were identified on                  and
                               systems.
 FEMA        FEMA-     During our technical testing, configuration                               FEMA-
            IT-07-02   management weaknesses were identified on                                 IT-08-02

 FEMA        FEMA-     We determined that the Financial Services Branch                          FEMA-
            IT-07-03   (FSB) has created procedures to review              user                 IT-08-03
                       access on a semi-annual basis for appropriateness of
                       access privileges granted to employees or contractors
                       within their organization. Additionally, we noted that
                       a recertification of all         users, which is also their
                       semi-annual review of user access, began in June 2007.
                       Currently, FSB is in the process of validating
                       access for users who responded to FSB’s
                       recertification request. In addition, FSB is locking out
                       the         users who did not respond. We determined
                       that the recertification of all existing        users has
                       not been completed for FY 2007.
 FEMA        FEMA-     The FEMA alternate processing site located in                   X
            IT-07-04        is not operational for         FEMA is in the
                       process of setting up a                                 to
                       replicate data from the          production server at .
                                  and send it to the        servers in       ,
                           . Currently the           not complete and therefore,
                       the          facility does not have the capability of
                       functioning as the alternate processing site for
                       if a disaster were to occur.
 FEMA        FEMA-     The           Security Test & Evaluation (ST&E) did not         X
            IT-07-05   provide adequate documentation of the results to the
                       accrediting authority and that the prior year weakness
                       still exists.
 FEMA        FEMA-     There is not formal, documented procedures are in                         FEMA-
            IT-07-06   place to require updates to the        system                            IT-08-06
                       documentation as          functions are added, deleted,
                       or modified.
 FEMA        FEMA-     We determined that FEMA has identified the                      X
            IT-07-07           as the alternate processing facility for
                                 ; however, it will not be fully operational until
                       September 2007. Therefore, we determined that the
                                contingency plan has not undergone a full-scale
                       test to show that the system can be brought back to an
                       operational state at the designated alternate site.


                                                  111
Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                         Appendix C

                            Department of Homeland Security
                        Information Technology Management Letter
                                   September 30, 2008
                                                                                      Disposition
Component    NFR #                           Description                           Closed       Repeat
  FEMA       FEMA-     We determined that the FEMA              has not been         X
            IT-07-08   updated to include the new listing of FEMA mission
                       critical IT systems as outlined in the Information
                       Technology Services Directorate (ITSD)
                       Implementation Plan.
 FEMA        FEMA-     We noted that FEMA has begun to standardize all user          X
            IT-07-09   workstations to                           with
                               installed, which would ensure that all
                                  settings are properly applied to all users.
                       Currently, FEMA is upgrading older user workstations
                       to                          or providing users with new
                       workstations. However, we noted that this process will
                       not be fully complete until January 2008. This
                       weakness impacts
                       We noted that FEMA users are locked out of the
                       system at the domain level after three (3) consecutive
                       failed login attempts; however, the user account
                       becomes unlocked and active again after five (5)
                       minutes of inactivity.
 FEMA        FEMA-     We determined that FEMA has begun to standardize              X
            IT-07-10   all user workstations to
                                        installed, which would ensure that all
                                          settings are properly applied to all
                       users. Currently, FEMA is upgrading older user
                       workstations to                            or providing
                       users with new workstations. However, we noted that
                       this process is not fully completed, and FEMA has
                       estimated this process will not be completed until
                       January 2008.
 FEMA        FEMA-     We noted that passwords for the           application can     X
            IT-07-11   be re-used after six (6) iterations which is not in
                       compliance with the DHS Sensitive System Policy
                       Directive 4300A.
 FEMA        FEMA-     We determined that the FEMA Chief Information                           FEMA-
            IT-07-12   Officer (CIO) provided procedures to all Office                        IT-08-12
                       Directors, Regional Directors and FEMA Coordinating
                       Officers for the periodic review of all          accounts
                       and position assignments on June 28, 2007. We noted
                       that detailed procedures are listed for the review of
                                accounts; however, the procedures do not state
                       the frequency of this review.
                       We noted that this review began on June 29, 2007 with
                       a deadline of July 26, 2007 for accepting responses
                       from users recertifying their        accounts.
                       Therefore, risk of unauthorized users accessing
                               was present for a majority of the fiscal year.


                                                 112
Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                         Appendix C

                            Department of Homeland Security
                        Information Technology Management Letter
                                   September 30, 2008
                                                                                      Disposition
Component    NFR #                             Description                         Closed       Repeat
  FEMA       FEMA-     We determined that the FSB has created procedures to                     FEMA-
            IT-07-13   review           user access on a semi-annual basis for                 IT-08-13
                       appropriateness of access privileges granted to
                       employees or contractors within their organization.
                       Additionally, we noted that a recertification of all
                                users was performed in June 2007. Currently,
                             is in the process of validating          access for
                       the users who responded to            recertification
                       request and locking out the           users who did not
                       respond. We determined that the recertification of all
                       existing          users is not yet complete for FY 2007.
                       We determined that the FEMA CIO provided
                       procedures to all Office Directors, Regional Directors
                       and FEMA Coordinating Officers for the periodic
                       review of all         accounts and position
                       assignments on June 28, 2007. However, the
                       procedures do not state the frequency of this review.
                       Furthermore, we noted that this review began on June
                       29, 2007 with a deadline of July 26, 2007 for accepting
                       responses from users recertifying their
                       accounts. Therefore, the risk of unauthorized users
                       accessing          was present for a majority of the
                       fiscal year.
                       We noted that twenty-seven (27) terminated or
                       separated FEMA employees and contractors maintain
                       active       user accounts.
                       We noted that seven hundred seventy (770) terminated
                       or separated FEMA employees and contractors
                       maintain active        user accounts.
 FEMA        FEMA-     We determined that IT Operations has created backup           X
            IT-07-14   procedures entitled, Backup Media Protection and
                       Control, for         and          dated July 27, 2007.
                       However, we noted that the procedures were finalized
                       on July 27, 2007, and that the risk was present for a
                       majority of the fiscal year.
                       We noted that both                       backup tapes
                       are not rotated off-site to the
                       We noted that the FEMA alternate processing site
                       located in                 is not operational for
                       We also noted that the           back-up facility has
                       redundant servers in place for the
                       Database in June 2007. Therefore, the risk was present
                       for a majority of the fiscal year.
 FEMA        FEMA-     We determined that FEMA created the                           X
            IT-07-15   Configuration Management Plan, Version 0.1, dated
                       June 29, 2007. We noted that this plan was in draft

                                                   113
Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                         Appendix C

                            Department of Homeland Security
                        Information Technology Management Letter
                                   September 30, 2008
                                                                                      Disposition
Component   NFR #                            Description                           Closed       Repeat
                       form and that it does not fully identify the
                       configuration management process of
                       We determined that FEMA created the Supplemental
                       Security Policy to the DHS Sensitive System Policy
                       Directive 4300A, which details policies for restricting
                       access to the system software of FEMA IT systems.
                       However, we noted that the draft policy is dated June
                       14, 2007.
                       We noted that procedures over restricting access to
                                system software entitled, Database
                       Administration Access Procedures and                patch
                       management procedures were approved on June 29,
                       2007. However, we noted that the risk was present for
                       a majority of the fiscal year, and as a result, the NFR
                       will be re-issued for FY 2007.
 FEMA        FEMA-     FEMA created the Supplemental Security Policy to              X
            IT-07-16   match the DHS Sensitive System Policy Directive
                       4300A, which details policies for restricting access to
                       system software. However, we noted that the policy is
                       in draft and dated June 14, 2007.
                       FEMA has not documented procedures for restricting
                       access to     system software.
 FEMA        FEMA-     We determined that FEMA created a System Change                         FEMA-
            IT-07-17   Request        for         However, the System                         IT-08-17
                       Change Request         was approved by the OCFO on
                       June 29, 2007. Furthermore, we noted the evidence
                       that the            account was locked within the
                               environment on July 24, 2007. Therefore, we
                       noted that the risk was present for a majority of the
                       fiscal year.
 FEMA        FEMA-     FEMA created the Supplemental Security Policy to              X
            IT-07-18   match the DHS Sensitive System Policy Directive
                       4300A detailed policies for investigating and reporting
                       any suspicious activity detected when reviewing audit
                       logs. However, we noted that the policy is dated June
                       14, 2007 and is in draft form.
                       FEMA has not documented specific procedures to
                       review suspicious system software activity and access
                       controls for
 FEMA        FEMA-     FEMA created the Supplemental Security Policy to                        FEMA-
            IT-07-19   match the DHS Sensitive System Policy Directive                        IT-08-19
                       4300A detailed policies for monitoring sensitive access
                       and investigating and reporting any suspicious activity
                       detected when reviewing audit logs. However, we
                       noted that the policy is dated June 14, 2007 and is in


                                                  114
Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                        Appendix C

                            Department of Homeland Security
                        Information Technology Management Letter
                                   September 30, 2008
                                                                                     Disposition
Component   NFR #                           Description                           Closed       Repeat
                       draft form.
                       FEMA has not documented procedures to monitor and
                       review sensitive access, system software utilities and
                       suspicious system software and access activities for

 FEMA        FEMA-     FEMA has adopted the DHS                             for     X
            IT-07-20            This policy establishes required practices for
                       managing DHS IT systems and infrastructure solutions
                       through a progression of activities for initiation,
                       planning, development, testing, implementation,
                       operation, maintenance, and retirement. However, we
                       noted that the policy is dated January 27, 2006 and is
                       in draft form.
 FEMA        FEMA-     FEMA has adopted the DHS                            for      X
            IT-07-21             This policy establishes required practices for
                       managing DHS IT systems and infrastructure solutions
                       through a progression of activities for initiation,
                       planning, development, testing, implementation,
                       operation, maintenance, and retirement. However, we
                       noted that the policy is dated January 27, 2006 and is
                       in draft form.
 FEMA        FEMA-     FEMA did not have an operational alternate processing                  FEMA-
            IT-07-22   site for        for a majority of the fiscal year. We                 IT-08-22
                       determined that the alternate processing site in      ,
                              has redundant servers in place for the
                                        effective as of June 2007.
 FEMA        FEMA-             lacks         backup testing procedures.                       FEMA-
            IT-07-23   Additionally, we determined that the         backups                  IT-08-23
                       are not periodically tested.
 FEMA        FEMA-             lacks          backup testing procedures.                      FEMA-
            IT-07-24   Additionally, we determined that the          backups                 IT-08-24
                       are not periodically tested.
 FEMA        FEMA-     We noted that the         contingency plan has not                     FEMA-
            IT-07-25   been tested on an annual basis, per the DHS Sensitive                 IT-08-25
                       System Policy Directive 4300A.
 FEMA        FEMA-     During our review of user access rights for the              X
            IT-07-26   approval of         system change requests, we noted
                       that excessive access rights existed. Specifically, we
                       determined that three (3) people were authorized to
                       approve         system change requests, however, one
                       (1) individual was transferred to another DHS agency.
                       Therefore, this person’s job responsibilities no longer
                       required this access nor is this individual a current
                       FEMA employee.
                       Upon notification of this issue, FEMA took corrective

                                                 115
Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                         Appendix C

                            Department of Homeland Security
                        Information Technology Management Letter
                                   September 30, 2008
                                                                                      Disposition
Component   NFR #                          Description                             Closed       Repeat
                       action and removed the individual’s access rights.
 FEMA        FEMA-     We noted that testing documentation for                       X
            IT-07-27   application level changes are not consistently
                       documented or performed timely.
 FEMA        FEMA-     Per the DHS Sensitive System Policy Directive 4300A,                    FEMA-
            IT-07-28   all changes to major applications must be formally                     IT-08-28
                       approved, tested and documented prior to the change
                       being implemented. For the test of this control we
                       selected a sample of nine (9)        application level
                       changes. We noted that one (1) out of the sample did
                       not have testing performed.
 FEMA        FEMA-     We noted that the         approvals for                                 FEMA-
            IT-07-29   application level emergency changes are not                            IT-08-29
                       consistently documented. Specifically, we determined
                       that five (5) out of a sample of eight (8)
                       application level emergency changes did not gain
                       approval.
 FEMA        FEMA-     We determined that excessive access is designed to be         X
            IT-07-30   permitted within         to make offline changes to the
                       general ledger account tables via the

                       Group. We identified six (6) users in the
                       group that have the ability to make offline changes to
                       the general ledger account tables, which are not within
                       their job responsibilities.
 FEMA        FEMA-                does not timeout after a period of inactivity.     X
            IT-07-31   Additionally, we determined that all
                       workstations use a password protected screensaver
                       after fifteen (15) minutes of inactivity, which is not in
                       compliance with the DHS Sensitive System Policy
                       Directive 4300A.
                                access is not reviewed on a periodic basis to
                       determine if access is valid and commensurate with job
                       responsibilities.
 FEMA        FEMA-     While a standard form has been developed for                  X
            IT-07-32   documenting           change requests,
                       change management procedures have not been
                       documented.
                       System software change management procedures have
                       not been developed or implemented. Additionally,
                       installation of the operating system upgrade in FY
                       2007 was not formally documented or approved.
 FEMA        FEMA-         has made improvements in the area of                      X
            IT-07-33   Administrator account management. However, we


                                                  116
Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                        Appendix C

                               Department of Homeland Security
                           Information Technology Management Letter
                                      September 30, 2008
                                                                                     Disposition
Component   NFR #                            Description                          Closed       Repeat
                       noted that system activity logs are not being reviewed.
 FEMA        FEMA-           has updated the                   baseline             X
            IT-07-34   configuration document. However, we noted that
                       procedures have not been developed which require
                       approvals prior to implementation. Additionally, of 30
                       changes selected, 14 changes did not have documented
                       Operations Service Request (OSR) forms or
                       documented approvals.
 FEMA        FEMA-     A system programmer                         had write        X
            IT-07-35   access to the                       and
                                          datasets of the           production
                       member.          removed the system programmer’s
                       access shortly after this finding was identified.
 FEMA        FEMA-     Access to the                                     excel      X
            IT-07-36   files is excessive. Specifically, we identified that
                       modify and write access permissions to the excel files
                       are inappropriate for five individuals of the Bureau of
                       Finance and Statistical Control group.
 FEMA        FEMA-     We noted there is excessive access to                        X
            IT-07-37   application software and support files. Specifically,
                       we noted that all individuals within the Bureau of
                       Finance and Statistical Control group have modify and
                       write access to the           application software and
                       support files.
 FEMA        FEMA-           has not documented incompatible duties within                    FEMA-
            IT-07-38            , developed policy and procedures regarding                  IT-08-38
                       segregation of duties, or implemented segregation of
                       duties controls within          . All users of
                       have full application level access.
 FEMA        FEMA-     The             contingency plan has not been tested. As               FEMA-
            IT-07-39   a result, the system fail-over capability for the                     IT-08-39
                       alternate processing site has not been tested.
                       The                                         does not
                       identify the following:
                       x     The                      alternate processing
                             facility; and
                       x            critical data files are not documented.
 FEMA        FEMA-     The ROB forms are not consistently signed prior to           X
            IT-07-40   users gaining access to the       Bureau
                       Specifically, we determined that three (3) out of a
                       sample of twelve (12) new         Bureau        users
                       did not sign the      prior to obtaining       Bureau
                             access.


                                                   117
Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                          Appendix C

                            Department of Homeland Security
                        Information Technology Management Letter
                                   September 30, 2008
                                                                                       Disposition
Component    NFR #                          Description                             Closed       Repeat
  FEMA       FEMA-     We determined that policies and procedures over                X
            IT-07-41   periodic review of            access lists have been
                       documented. However, we noted that the periodic
                       review determining if logical user access is valid and
                       consistent with job responsibilities is not effective as
                       an instance of excessive system developer access was
                       identified within
 FEMA        FEMA-     We determined that periodic review policies and                X
            IT-07-42   procedures have not been developed for access to the
                             Bureau              As a result, we noted that
                       there are two (2) employees with excessive access to
                       the       Bureau      room.
 FEMA        FEMA-     The                      has been configured to permit         X
            IT-07-43   users to reuse prior passwords after five (5) iterations
                       which is not in compliance with the DHS Sensitive
                       System Policy Directive 4300A.
 FEMA        FEMA-     We noted that proactive vulnerability scanning is not          X
            IT-07-44   performed over           backend database or the
                       Bureau

 FLETC      FLETC-     The Change Control and Configuration Management                         FLETC-
            IT-07-01        for all preventative maintenance and patch                           IT-
                       management over                is currently in draft                     08-01
                       form. Additionally, the Change Control and
                       Configuration Management          does not detail testing
                       procedures.
                       Documented policies and procedures for
                       bug fixes and enhancements do not exist, including a
                       description for the emergency change process.
                       The access group, “                    ” has modify,
                       read, execute, and write access to the
                       application program libraries. We determined that this
                       gives all FLETC domain level users modify, read,
                       execute, and write access to the            application
                       program libraries.
 FLETC      FLETC-     The Change Control and Configuration Management                         FLETC-
            IT-07-02         for all preventative maintenance and patch                          IT-
                       management over                           is currently in                08-02
                       draft form. Additionally, the Change Control and
                       Configuration Management           does not detail testing
                       procedures.
                       Documented policies and procedures for
                                bug fixes and enhancements do not exist,
                       including a description for the emergency change
                       process.


                                                  118
Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                           Appendix C

                            Department of Homeland Security
                        Information Technology Management Letter
                                   September 30, 2008
                                                                                        Disposition
Component   NFR #                           Description                              Closed       Repeat
                       All FLETC domain level users inappropriately have
                       modify, read, execute, and write access to the
                                             support files.
 FLETC      FLETC-     The installation of           system software is not                     FLETC-
            IT-07-03   currently logged or reviewed by FLETC management.                          IT-
                                                                                                 08-03
 FLETC      FLETC-     The SDLC for                is currently in draft form.                  FLETC-
            IT-07-04                                                                              IT-
                                                                                                 08-04
 FLETC      FLETC-                  server level and                  backups                   FLETC-
            IT-07-05   are not periodically tested.                                               IT-
                                                                                                 08-05
                       Procedures or a testing schedule are not in place for
                                  server level and         database backups.
 FLETC      FLETC-     The             contingency plan has not been fully                      FLETC-
            IT-07-06   tested. We determine that the recovery and resumption                      IT-
                       procedures were not tested during the table-top test of                   08-06
                       the            contingency plan.
 FLETC      FLETC-     FLETC Computer Security Operations Center and                            FLETC-
            IT-07-07   Computer Security Incident Response Capability            ,                IT-
                       is currently in draft form.                                               08-07
                       We noted that incidents are not tracked from inception
                       to resolution in an incident response management
                       system.
 FLETC      FLETC-     We noted that incompatible duties over                                   FLETC-
            IT-07-08           have not been identified nor have policies and                     IT-
                       procedures been developed to segregate incompatible                       08-08
                       duties.
 FLETC      FLETC-     We determined that FLETC has documented                                  FLETC-
            IT-07-09   procedures entitled, “              Access Standard                      IT-08-09
                       Operating Procedures”, which are currently in draft
                       form.
                       All personnel on the                   access listing and
                       regular visitors to the                 will have fire
                       suppression training provided. However, FLETC
                       failed to provide the fire suppression training materials
                       or a listing of individuals who attended the training.
 FLETC      FLETC-     Procedures over access authorizations and the periodic                   FLETC-
            IT-07-10   review of user accounts for                       do                       IT-
                       not exist.                                                                08-10
                       FLETC Manual (FM) 4300: Information Technology
                       System Security Program and Policy establishes the
                       policies to be followed when an employee or
                       contractor is separated or terminated, which is
                       currently in draft form.


                                                  119
Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                       Appendix C

                            Department of Homeland Security
                        Information Technology Management Letter
                                   September 30, 2008
                                                                                    Disposition
Component   NFR #                          Description                           Closed       Repeat
                       We found that termination       for            and
                                            are currently under development.
                                              does not require passwords to
                       contain a combination of upper and lower case letters
                       and special characters.
 FLETC      FLETC-     We determined that the FLETC Directive (FD) 43220:                   FLETC-
            IT-07-11   IT System Security Awareness and Training is in draft                  IT-
                       form.                                                                 08-11
 FLETC      FLETC-     We determined that FLETC has developed policies and                  FLETC-
            IT-07-12   procedures over the authorization and use of mobile                    IT-
                       code technologies in “FM 4300: Information                            08-12
                       Technology System Security Program and Policy.”
                       However, we noted that this policy is in draft form.
 FLETC      FLETC-     We determined that FLETC has developed policies and                  FLETC-
            IT-07-13   procedures to proactively monitor sensitive access to                  IT-
                       system software utilities for            in the “FM                   08-13
                       4300: Information Technology System Security
                       Program and Policy.” However, we noted that this
                       policy is in draft form.
 FLETC      FLETC-     We determined that FLETC has developed policies for                  FLETC-
            IT-07-14   restricting access to        system software in the                    IT-
                       “FM 4300: Information Technology System Security                      08-14
                       Program and Policy.” However, we noted that this
                       policy is in draft form.
                       We noted that FLETC has developed procedures for
                       restricting access to privileged and sensitive access
                       including               system software in the
                                                , which is currently in draft
                       form.
 FLETC      FLETC-     We noted that FLETC has developed policies for the                   FLETC-
            IT-07-15   segregation of duties in the, “FM 4300: Information                    IT-
                       Technology System Security Program and Policy.”                       08-15
                       However, we noted that the policy is currently in draft
                       form.
                       We noted that FLETC has developed procedures for
                       the segregation of duties in the, “Logical Access
                       Controls        ”, which is currently in draft form.
 FLETC      FLETC-     We noted that FLETC has developed polices for the                    FLETC-
            IT-07-16   use of                  , “FM 4300: Information                        IT-
                       Technology System Security Program and Policy.”                       08-16
                       However, we noted that the     is currently in draft
                       form.
                       The      hardening guide and          are currently in
                       development and not finalized.


                                                 120
Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                         Appendix C

                               Department of Homeland Security
                           Information Technology Management Letter
                                      September 30, 2008
                                                                                      Disposition
Component   NFR #                           Description                            Closed       Repeat
                       We determined that FLETC has not completed a
                       security assessment of the         site’s
                       installation.
 FLETC      FLETC-     We sampled thirty (30) IT contractors for evidence of                  FLETC-
            IT-07-17   background investigations and noted the following:                     IT-08-17
                       x     Nine (9) IT contractors did not have evidence that
                             a background investigation was initiated or
                             completed; and
                       x     For twelve (12) IT contractors, we were not able to
                             validate if background investigations were
                             initiated or adjudicated, due to a lack of
                             documentation or poor documentation of
                             background investigations initiated.
 FLETC      FLETC-     We determined that FLETC has developed polices for                     FLETC-
            IT-07-18   the review of                      audit logs in the,                  IT-08-18
                       “FM 4300: Information Technology System Security
                       Program and Policy.” However, we noted that the
                       policy is currently in draft form.
                       Procedures around the detailed review of audit records
                       do not exist.
                       Audit logs are not maintained for
                                on an application level.
 FLETC      FLETC-     We noted that                has been configured to           X
            IT-07-19   permit users to reuse prior passwords after three (3)
                       iterations which is not in compliance with the DHS
                       Sensitive System Policy Directive 4300A. Upon
                       notification of this issue, FLETC took corrective action
                       and               is now configured to permit users to
                       reuse prior passwords after eight (8) iterations.
 FLETC      FLETC-     We noted that the                is configured to trigger              FLETC-
            IT-07-20   a domain level password protected screensaver after                    IT-08-20
                       twenty (20) minutes of inactivity on user workstations,
                       which is not in compliance with the DHS Sensitive
                       System Policy Directive 4300A.
 FLETC      FLETC-     We noted that FM 4300: Information Technology                          FLETC-
            IT-07-21   System Security Program and Policy documents                           IT-08-21
                       policies for the following areas:
                       x     Use of cryptographic tools over the FLETC
                       x     Use of wireless technologies; and
                       x     Data sharing with external parties outside of
                             FLETC.
                       However, we noted that the policy is currently in draft

                                                   121
Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                           Appendix C

                               Department of Homeland Security
                           Information Technology Management Letter
                                      September 30, 2008
                                                                                        Disposition
Component   NFR #                             Description                            Closed       Repeat
                       form.
 FLETC      FLETC-     The following                              access control                FLETC-
            IT-07-22   weaknesses were identified:                                              IT-08-22
                       x     User access violation information is not
                             maintained on an application level;
                       x     All new users (a total of eight) requesting access to
                                                    failed to have an authorized
                             access request form.
                       x     Password parameters have been configured to
                             permit users to reuse prior passwords after six (6)
                             iterations; and
                       x     The                        Administrator is not
                             informed of separated employees via Human
                             Resources (HR), thus, terminated employees
                             access is not removed in a timely manner.
                       Upon notification of this issue, FLETC took corrective
                       action and the                       Administrator is
                       now on the listing of individuals who are informed
                       when an employee is separated.
 FLETC      FLETC-     The following                              access control                FLETC-
            IT-07-23   weaknesses were identified:                                                IT-
                                                                                                 08-23
                       x     Lack of documented procedures in to recertify
                             users logical access on a yearly basis; and
                       x     Recertification of                         users is
                             not performed over all users.
 FLETC      FLETC-     We noted that copies of the                                              FLETC-
            IT-07-24             Contingency Plan are not securely stored off-                    IT-
                       site at the alternate processing facility.                                07-24
 FLETC      FLETC-     The following                                                            FLETC-
            IT-07-25   service continuity weaknesses were identified:                             IT-
                                                                                                 08-25
                       x     FLETC SOP - Anti-Virus Software for Servers is
                             not finalized; and
                       x     FLETC SOP - System Maintenance Policy and
                             Procedures is not finalized.
 FLETC      FLETC-     During technical testing, configuration management                       FLETC-
            IT-07-26   weaknesses were identified on hosts and databases                          IT-
                       supporting the                                                            08-26
                       and                        applications.
 FLETC      FLETC-     During technical testing, patch management                               FLETC-
            IT-07-27   weaknesses were identified on hosts and databases                        IT-08-27


                                                   122
Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                            Appendix C

                            Department of Homeland Security
                        Information Technology Management Letter
                                   September 30, 2008
                                                                                         Disposition
Component   NFR #                             Description                             Closed       Repeat
                       supporting the                          and
                                            application. The fact that these
                       vendor supplied patches have not been applied in a
                       timely manner could allow a remote attacker to gain
                       unauthorized access on the host or database.
 FLETC      FLETC-     We noted that                                                    X
            IT-07-28   server backup tape rotation logs are not consistently
                       maintained.
 FLETC      FLETC-     We noted that                      server level and                       FLETC-
            IT-07-29         database backups are not periodically tested.                         IT-
                                                                                                  08-29
                       We noted that procedures or a testing schedule are not
                       in place for                      server level and
                              database backups.

  TSA       TSA-IT-    The disaster recovery aspect of the             will be                   TSA-IT-
             07-01     completed by September 30, 2007 with the business                          08-01
                       continuity and continuity of government aspects of the
                               not being completed until December 2007.
                       Because the           is in draft form, it has not yet been
                       tested; however,              plans to test the entire
                               prior to it being implemented. Lastly, the
                                 has drafted a memorandum of understanding
                       (MOU) with the                                         for
                       reciprocal services; however, the MOU is currently in
                       draft form.
  TSA       TSA-IT-               is in the process of developing of a                  X
             07-02     Continuity of Operations Plan              which addresses
                       disaster recovery, business continuity and continuity of
                       government for                  The disaster recovery
                       aspect of the           will be completed by September
                       30, 2007 with the business continuity and continuity of
                       government aspects of the             not being completed
                       until December 2007. Because the                 is in draft
                       form, it has not yet been tested; however,
                       plans to test the entire          prior to it being
                       implemented. Lastly, the                 has drafted a MOU
                       with the         for reciprocal services; however, the
                       MOU is currently in draft form.
  TSA       TSA-IT-    The contract that CG HQ has with the             and                      TSA-IT-
             07-03                software vendor does not include security                       08-03
                       configuration requirements that must be adhered to
                       during the configuration management process.
                       Consequently,                            builds and
                       maintenance packs may not be configured and
                       implemented with comprehensive security
                       configuration requirements. CG recognizes the


                                                   123
Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                         Appendix C

                              Department of Homeland Security
                          Information Technology Management Letter
                                     September 30, 2008
                                                                                      Disposition
Component   NFR #                           Description                            Closed       Repeat
                      absence of security requirements and indicated that the
                      contract with the vendor will be reassessed in 2008
                      during the contract renewal process with CG HQ and
                      corrective actions will be taken at that time.
  TSA       TSA-IT-   19 individuals, specified below, had 24 hour a day             X
             07-04    access to the data center and had not yet completed the
                      training:
                      13 individuals (building owners, property managers
                      and their respective contractors)
                      4 members of             Senior Management
                      2 security guards
                      Lastly, we identified four employees, each with 24
                      hour access to the data center that had not yet
                      completed the training as of July 2007. Upon
                      notifying           of this exception, the four
                      individuals completed the training and
                      provided supporting evidence.
  TSA       TSA-IT-   No formal procedures have been developed or                             TSA-IT-
             07-05    implemented by Coast Guard Headquarters to address                       08-05
                      DHS requirements surrounding the suitability
                      screening of contractors accessing DHS IT systems.
                      DHS directives and policies require Coast Guard and
                      other DHS components to ensure the completion of
                      background investigations for all contractors accessing
                      IT systems. The type of background investigations
                      should be based on the risk level of their future
                      position at CG and are required to be completed prior
                      to the start of work. However, no CG guidance exists
                      to require CG components to clear their contractors for
                      suitability, especially those with sensitive IT positions.
  TSA       TSA-IT-   The IT Security Awareness, Training and Education                       TSA-IT-
             07-06    Plan lacks appropriate criteria for defining personnel                   08-06
                      with significant IT responsibilities. Additionally, the
                      personnel that are defined in the guidance are very
                      limited and do not fully cover the scope of security
                      responsibilities addressed in DHS requirements.
  TSA       TSA-IT-   The following access control weakness surrounding              X
             07-07              were identified:
                      x     TSA management did not receive a response from
                            the Federal Air Marshalls Service FAMS Division
                                        user base for the May and for the July
                            2007              review. Therefore, TSA assumed
                            that no response indicated that all roles were
                            appropriate and did not follow-up to ensure that a


                                                 124
Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                        Appendix C

                              Department of Homeland Security
                          Information Technology Management Letter
                                     September 30, 2008
                                                                                     Disposition
Component   NFR #                           Description                           Closed       Repeat
                            response was received.
                      x     Privileges associated with each user were not
                            included in the May and July 2007 reviews
                            performed.
                      We also noted that the accounts of terminated
                      employees are not removed from the system in a
                      timely manner. Although TSA requested that several
                      of the accounts of terminated individuals be
                      deactivated/end-dated by            the requests were
                      not submitted to           until months after the
                      employees departed and we were unable to obtain
                      evidence that these accounts had in fact been
                      deactivated/end-dated.
  TSA       TSA-IT-   The following access control weakness surrounding             X
             07-08         were identified:
                      x     The       application and database does not meet
                            the password requirements noted in the DHS
                            Sensitive System Policy Directive 4300A.
                      x           accounts of terminated individuals are not
                            removed in a timely manner including one
                            individual who had user account management
                            capabilities within the system.
                      x          application and database accounts are not
                            being reviewed for appropriateness.
  TSA       TSA-IT-   The following access control weakness surrounding             X
             07-09         were identified:
                      x     We were unable to obtain a copy of the
                            password configuration. However, we performed
                            a demonstration/walkthrough of the password with
                            a          point of contact and was able to
                            determine that the password configuration is not in
                            compliance with DHS guidance.
                      x     Although the       system has been configured to
                            track and lock accounts that have not been utilized
                            in 90 days, DHS guidance requires that accounts
                            that have not been used in 30 days be deactivated.
  TSA       TSA-IT-   An excessive number of individuals had user                   X
             07-10    administration capabilities within      until the
                      implementation of the centralized user management
                      (August 19, 2007). We also noted the existence of two
                      shared generic accounts with this privilege:
                                                                 . These
                      accounts have every privilege within the application,


                                                 125
Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                       Appendix C

                           Department of Homeland Security
                       Information Technology Management Letter
                                  September 30, 2008
                                                                                    Disposition
Component   NFR #                            Description                         Closed       Repeat
                      including the ability to create/delete/modify user
                      accounts within
  TSA       TSA-IT-        accounts are not immediately disabled upon an           X
             07-11    employee's termination. Additionally, formalized
                      policies and procedures for the periodic review of the
                           accounts do not exist. Lastly,       access request
                      forms are not consistently completed.
  TSA       TSA-IT-   The accounts of terminated contractors are not end-          X
             07-12    dated or disabled in a timely manner. Additionally, we
                      noted that TSA has not developed policies or
                      procedures that require a periodic review of
                      application and database accounts, and their associated
                      privileges, be performed to determine that access is
                      appropriate.
  TSA       TSA-IT-   Management had not adequately completed the                           TSA-IT-
             07-13           package to include the             system.                      08-13
                      Specifically,            management stated that
                                  is a subsystem of       and a separate
                      does not need to be completed since it is covered by
                      the              Package. However, we determined that
                      there is no documentation within the             that
                      defines              as a subsystem and specifically
                      addresses the appropriate security controls for
                                  in this capacity.
  TSA       TSA-IT-        and             systems have been configured to         X
             07-14    automatically end date accounts that have not been
                      used in six months; however, DHS guidance requires
                      accounts that have been inactive for 30 days be
                      disabled.
  TSA       TSA-IT-   The policies and procedures over a formalized                         TSA-IT-
             07-15    sanctioning process have not been fully developed and                  08-15
                      implemented. Specifically, the policies and procedures
                      do not include consequences for individuals who do
                      not sign the computer access agreements or complete
                      initial or refresher security awareness training.
                      Furthermore, out of the nine individuals selected, only
                      one had completed a Computer Access Agreement.

                      Additionally, we determined that TSA allows
                      individuals to complete security awareness training
                      within sixty days of beginning work and gaining
                      access to their      and application accounts.
                      However DHS guidance requires that all individuals
                      complete security awareness training prior to gaining
                      access to the Information systems. Furthermore, out of
                      the selection of nine individuals, one contractor had
                      not completed initial security awareness training this

                                                126
Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                        Appendix C

                              Department of Homeland Security
                          Information Technology Management Letter
                                     September 30, 2008
                                                                                     Disposition
Component   NFR #                            Description                          Closed       Repeat
                      fiscal year and a second employee had not completed
                      their refresher training for this fiscal year.
  TSA       TSA-IT-   Procedures are not formally documented requiring the          X
             07-16    review of the activities of the
                      administrators. We also noted that reviews of the audit
                      logs that document the actions of       administrators
                      in the          operating environment are not being
                      performed.
  TSA       TSA-IT-   Procedures are not formally documented identifying            X
             07-17    how change control should be performed when
                      applying system software changes, including software
                      patches, to the         operating system according to a
                      standard schedule or in an emergency situation. While
                      a policy exists, it lacks detailed procedures in order to
                      be effective.
  TSA       TSA-IT-   Configuration management weaknesses continue to                        TSA-IT-
             07-18    exist on hosts supporting the       and                                 08-18
                      applications and the
  TSA       TSA-IT-   Patch management weaknesses continue to exist on                       TSA-IT-
             07-19    hosts supporting the        and                                         08-19
                      applications and the
  TSA       TSA-IT-   Implementation of the formalized exit process for TSA                  TSA-IT-
             07-20    personnel policies and procedures has not been fully                    08-20
                      executed. Specifically, only eleven (11) out of a
                      selection of thirty (30) TSA 1402 Forms, the
                      Separating Non-Screener Employee and Contractor IT
                      Certificates, were received. Additionally, of the eleven
                      received, seven (7) of the forms did not have the
                      appropriate TSA application(s) identified in order to
                      deactivate the separating employee’s accounts.
                      Furthermore, we selected thirty (30) TSA 1163 forms,
                      the Employee Exit Clearance form, for both
                      contractors and TSA personnel and only received nine
                      (9) completed forms. The purpose of the 1163 form is
                      to document sign-offs for access removal of financial
                      and related administrative system accounts for
                      applications such as            and      access to the
                              .
  TSA       TSA-IT-   The following weaknesses were identified in the                        TSA-IT-
             07-21                      change control process:                               08-21
                      x     TSA has not fully documented policies and
                            procedures surrounding the change control
                            process for       to define the overlap in the
                            responsibilities between        and           or
                            guidance for ensuring that changes that are


                                                  127
Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                       Appendix C

                              Department of Homeland Security
                          Information Technology Management Letter
                                     September 30, 2008
                                                                                    Disposition
Component   NFR #                            Description                         Closed       Repeat
                            passed/deferred to           are tested and
                            operate appropriately prior to approval by TSA
                            and implementation into production.
                      x     Additionally, TSA does not consistently retain
                            documentation associated with the       and
                            changes
                      x     Policies and procedures for the emergency change
                            control process are not documented.
  TSA       TSA-IT-              has not fully developed and implemented                    TSA-IT-
             07-22    their policies and procedures for the change control                   08-22
                      and emergency change control process to guide staff in
                      the implementation of this process at
                      Specifically, we noted that the policies and procedures
                      remain at a high-level and to do not include
                      requirements for who is responsible for the initial
                      approvals of the changes proposed by the vendor,
                      including technical changes, the testing plan
                      requirements for each phase of testing (
                                    ) and the capacity in which           is
                      involved, and the final approval of all changes to the
                      system. Instead, the procedures detail the overall
                      process and phases for              and
                      change control, but lack detailed guidance for the roles
                      and responsibilities executed by           personnel.

                      Additionally, we noted that           follows the same
                      change control process for emergency changes.
                      However, the details surrounding that emergency
                      change control process are not formally documented in
                      the            procedures for           and
                      For example, requirements for the categorization of
                      priority levels and response time requirements for each
                      priority level are not included.

                      Furthermore,          has not fully implemented the
                      procedures documented in the             and
                                 System Change Procedures. Specifically,
                      we noted that                     Checklists were not
                      completed for changes made to the       suite as of
                      June 2006.

                      Upon review of a selection of changes, we determined
                      that         is not consistently retaining
                      documentation to support the change control and
                      emergency change control process. Specifically, we
                      inspected documentation associated with 30
                      and            system changes and emergency changes
                      and determined that various pieces of supporting

                                                 128
Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                        Appendix C

                           Department of Homeland Security
                       Information Technology Management Letter
                                  September 30, 2008
                                                                                     Disposition
Component   NFR #                            Description                          Closed       Repeat
                      documentation (i.e., functional resolution documents,
                      test plans for the different phases of testing, evidence
                      of testing, and approvals) were insufficient and/or not
                      available for all 30 of the changes and emergency
                      changes selected for testing.
  TSA       TSA-IT-   Coast Guard change controls related to Coast Guard                     TSA-IT-
             07-23    and TSA financial systems are not appropriately                         08-23
                      designed, operating effectively or in compliance with
                      Office of Management and Budget (OMB) Circular
                      No. A-130, Security of Federal Automated Information
                      Resources, the DHS Sensitive System Policy Directive
                      4300A requirements and the National Institute of
                      Standards and Technology Special Publications (NIST
                      SP). Coast Guard has and continues to operate a
                      separate, informal and largely undocumented change
                      development and implementation process effecting
                      Coast Guard and TSA Financial Systems, outside of
                      and conflicting with the formal change control process.
                      Coast Guard is unable to provide a complete
                      population of implemented scripts, to include the type,
                      purpose and intended effect on both CG and TSA
                      financial data. The implemented process is ineffective
                      as the approval, testing and documentation procedures
                      of the script changes are not appropriately designed
                      and the current process is ineffective to control the
                      intended and actual effect on TSA financial data.
                      Coast Guard has only eliminated a small number of the
                      scripts used on a consistent basis and is projecting that
                      this approach will continue into the delivery of
                      4.2 and beyond.
  TSA       TSA-IT-   Civilian background investigations and                                 TSA-IT-
             07-24    reinvestigations are not being performed in accordance                  08-24
                      with DHS guidance. Specifically, sixteen (16) out of
                      twenty (20) individual background investigations
                      reviewed did not meet the DHS minimum standard of
                      investigation of an Minimum Background
                      Investigation (MBI) per the DHS Sensitive System
                      Policy Directive 4300A.
                      Furthermore, upon review of a selection of five (5)
                      civilian personnel, one (1) individual had an
                      investigation that had not been adjudicated since 1988.
                      DHS guidance requires that civilian personnel are
                      reinvestigated every ten (10) years.
  TSA       TSA-IT-   TSA has not taken corrective actions to develop and           X
             07-25    implement TSA specific change control policies and
                      procedures for the TSA            change control or
                      emergency change control process. Furthermore, upon


                                                 129
Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                                  Appendix C

                          Department of Homeland Security
                      Information Technology Management Letter
                                 September 30, 2008
                                                                               Disposition
Component   NFR #                         Description                       Closed       Repeat
                    review of a selection of changes, we determined that
                    TSA is not consistently implementing the change
                    control process. Specifically, we inspected
                    documentation associated with seven
                    system changes and emergency changes and
                    determined that supporting documentation (i.e., test
                    plans, evidence of testing, and approvals to move the
                    change into production) were not available for all
                    seven of the changes and emergency changes selected
                    for testing.
                    Additionally, we noted that testing was not fully
                    completed by TSA prior to passing the change for
                    testing for three of the changes.




                                             130
Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                          Appendix D

                          Department of Homeland Security
                      Information Technology Management Letter
                                 September 30, 2008




                                  Appendix D

                            Management Comments




                                         131
Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                          Appendix D
                          Department of Homeland Security
                      Information Technology Management Letter
                                 September 30, 2008




                                         132
Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                                                                          Appendix D
                          Department of Homeland Security
                      Information Technology Management Letter
                                 September 30, 2008




                                         133
Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
                          Department of Homeland Security
                      Information Technology Management Letter
                                 September 30, 2008

                    Report Distribution

                    Department of Homeland Security

                    Secretary
                    Acting Deputy Secretary
                    Chief of Staff for Operations
                    Chief of Staff for Policy
                    Acting General Counsel
                    Executive Secretariat
                    Under Secretary, Management
                    Chief Information Officer
                    Chief Financial Officer
                    Chief Information Security Officer
                    Assistant Secretary, Policy
                    DHS GAO OIG Audit Liaison
                    Chief Information Officer, Audit Liaison

                    Office of Management and Budget

                    Chief, Homeland Security Branch
                    DHS OIG Budget Examiner

                    Congress

                    Congressional Oversight and Appropriations Committees, as
                    appropriate




                                          132
Information Technology Management Letter for the FY 2008 DHS Financial Statement Audit
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4199,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
